<html>
<title> - CRISIS IN SOUTH ASIA: INDIA'S NUCLEAR TESTS; PAKISTAN'S NUCLEAR TESTS; INDIA AND PAKISTAN: WHAT NEXT?</title>
<body><pre>[Senate Hearing 105-620]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-620

 
CRISIS IN SOUTH ASIA: INDIA'S NUCLEAR TESTS; PAKISTAN'S NUCLEAR TESTS; 
                     INDIA AND PAKISTAN: WHAT NEXT?

=======================================================================

                                HEARINGS

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     MAY 13, JUNE 3 & JULY 13, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


48-627 cc            U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 1998




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
GORDON H. SMITH, Oregon              CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 DIANNE FEINSTEIN, California
JESSE HELMS, North Carolina          PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

                  India's Nuclear Tests--May 13, 1998

Ikle, Fred C., Ph.D., Former Director, Arms Control and 
  Disarmament Agency.............................................    32
    Prepared statement...........................................    35
Inderfurth, Hon. Karl F., Assistant Secretary of State for South 
  Asian Affairs, Accompanied by Robert Einhorn, Deputy Assistant 
  Secretary of State for Nonproliferation, Bureau of Political 
  Military Affairs...............................................     5
    Prepared statement...........................................    11
Solarz, Hon. Stephen J., Former U.S. Representative from New York    36
Woolsey, R. James, Former Director, Central Intelligence Agency..    29

                 Pakistan's Nuclear Tests--June 3, 1998

Haass, Dr. Richard, Director of Foreign Policy Studies, Brookings 
  Institution, Former Senior Director, Near East and South Asia, 
  National Security Council, Washington, D.C.....................    76
Inderfurth, Hon. Karl, Assistant Secretary of State for South 
  Asian Affairs..................................................    55
Schneider, Hon. William Jr., President, International Planning 
  Services, and Former Under Secretary of State for Security 
  Assistance, Science and Technology, Washington, D.C............    72

             India and Pakistan: What Next?--July 13, 1998

Inderfurth, Hon. Karl F., Assistant Secretary of State for South 
  Asian Affairs, Accompanied by Robert Einhorn, Deputy Assistant 
  Secretary of State for Nonproliferation, Bureau of Political 
  Military Affairs...............................................    94
    Prepared statement...........................................   100

                                 (iii)

  


                         CRISIS IN SOUTH ASIA:



                         INDIA'S NUCLEAR TESTS

                              ----------                              


                        WEDNESDAY, MAY 13, 1998

                               U.S. Senate,
       Subcommittee on Near Eastern and South Asian
                   Affairs, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room SH-216, Hart Senate Office Building, Hon. Sam Brownback, 
chairman of the subcommittee, presiding.
    Present: Senators Brownback, Helms, Grams, Hagel, Robb, 
Feinstein, and Biden.
    Senator Brownback. I would like to go ahead and call the 
meeting to order and thank you all for joining us. Good 
afternoon. I should begin by saying I believe there is no way 
to sugarcoat the events, the shocking events that have occurred 
overnight.
    The U.S. relationship with India has changed for the worse. 
Our Ambassador has been recalled, sanctions have been imposed, 
and our relationship that should have been blooming is in 
crisis. Monday's, and now today's, developments underscore what 
we have known all along, that our relationship with India 
cannot be viewed in simply economic or political terms, but 
must be evaluated in terms of larger regional security and 
nonproliferation matters.
    India's renewal of nuclear testing puts nuclear 
nonproliferation front and center and is the overriding 
bilateral foreign policy concern between the United States and 
India today for three reasons. First, not a single nonnuclear 
weapons State has overtly tested a nuclear explosive device 
since 1974, and that was India that did that in 1974.
    Consider also that Russia is helping India build a sea-
launched ballistic missile which will extend India's nuclear 
reach beyond Southeast Asia to the world. The new Government of 
India, a Government which has been in power less than 2 months, 
committed to Ambassador Bill Richardson that there would be no 
change in India's strategic posture for the time being.
    Indeed, India did all it could to deny the international 
community forewarning of these tests, and at this moment the 
United States has to ask itself how we can ever trust this 
government again.
    Second, India's lack of restraint is a signal to the rogues 
of this world that they, too, can flout international opinion 
and international norms. I commend President Clinton for his 
decision to sanction India under the Arms Export Control Act. I 
hope that during the coming days at the G-7 meeting he will be 
able to prevail on our allies to follow suit and 
multilateralize the sanctions. The world must know that the 
United States and all other peaceful nations will not tolerate 
India's actions.
    Third, we must alert India's neighbors to our concerns. 
Neither Pakistan nor China should be provoked by India's 
irresponsibility. India's neighbors know the terrible 
consequences of any nuclear response to India's nuclear 
testing. I believe Pakistan is strong enough of a nation unto 
itself to avoid being sucked into an insane arms race with 
India.
    Now, there is a group of historians and thinkers that 
believe we are at a point in the cycle of history where we will 
see ongoing clashes of civilizations no longer in a bipolar 
world of conflict built around government ideologies, that we 
are proceeding into a period of history where civilization 
centered around different core beliefs enter into cold or even 
hot conflicts.
    Let us hope and pray and do everything we can to prevent 
this from being the case; and let us also prepare if, indeed, 
it is the case. Now, to illuminate us on the consequences of 
the actions this week taken by the Government of India we have 
several excellent witnesses.
    We will have two panels that will present the 
administration's view, and there will be a significant number 
of questions as well of the administration's response, and then 
a panel of individuals very familiar with India to look at the 
consequences for India, for India-U.S. relationships, and for 
relationships throughout the region, and I look forward to 
hearing from those panels.
    I am very pleased that we have been joined by the chairman 
of the committee, Senator Helms, who is with us today; and I 
would like to turn to Senator Helms for his opening statement 
as well.
    Senator Helms. Mr. Chairman, if you will permit me, I would 
prefer to yield to the distinguished Ranking Member of the 
subcommittee, Mr. Robb, for his statement; and then I will 
follow him, if you would.
    Senator Brownback. I would be more than happy to. Thank you 
for that gracious statement.
    Senator Robb, the Ranking Minority Member of the 
subcommittee.
    Senator Robb. Thank you, Mr. Chairman, and I thank the 
distinguished chairman of the full committee for his courtesy, 
and I will be very pleased to proceed.
    I would like to join you, Mr. Chairman, in expressing very 
serious, indeed, grave concerns about India's decision to 
engage in this series of nuclear tests. If Indian officials 
believe the decision to test bolsters their international 
credibility and enhances national security of their country, 
they are wrong. To the contrary, these nuclear tests 
destabilize an already fragile subcontinent and undermine 
global efforts at nuclear nonproliferation.
    The administration has moved swiftly, slapping 
comprehensive sanctions on India; and I strongly support these 
punitive steps, notwithstanding my longstanding support for 
India and my reservation about the utility of sanctions in many 
circumstances.
    I hope President Clinton will seriously consider as well 
canceling his trip to South Asia planned for later in the year, 
a trip I had strongly encouraged until this series of nuclear 
tests began.
    Congress and the executive branch have worked assiduously 
in the last few years toward achieving an international 
moratorium on testing, culminating in the opening for signature 
of the comprehensive test ban treaty in late 1996. Indefinite 
extension of the nuclear nonproliferation treaty signified a 
commitment by nearly every country in the world to limit the 
scourge of nuclear weapons.
    India's provocative actions strike a blow against those 
important multilateral regimes. Pakistan's Ambassador to the 
U.S. stated this week that India's actions show nothing less 
than contempt for nuclear nonproliferation generally, and I 
share that view.
    Nationalistic fervor in India probably underlies the 
decision to engage in nuclear testing. It raises a whole series 
of concerns in my mind, including whether there will be an 
interregnum in the ratification of CTBT by numerous signatory 
countries, whether Pakistan and China respond with tests of 
their own, with cascading effects to nuclear aspirants like 
Iran, the increased likelihood of a conventional Indo-Pak war, 
which would be the fourth since 1947, the possibility of either 
country shifting from its embryonic nuclear status to overtly 
deploying a weapon, accelerating the missile competition 
already underway between Islamabad and Delhi and so on.
    I have long considered myself a friend of India and enjoyed 
a productive working visit to Delhi late last year. In my 
meetings with senior Indian officials, including then-Prime 
Minister Gujral, I received no hints of plans to move ahead 
with testing.
    In any event, in my judgment Indian officials have badly 
miscalculated the overall effect and strategic implications of 
moving forward with their nuclear program. Sadly, they have 
moved India closer to being ostracized in the world community 
rather than being welcomed as a member of the nuclear club.
    I look forward to hearing from our witnesses today and in 
the hope of further understanding Indian motivations and 
identifying the new security risk evident in the subcontinent.
    With that, Mr. Chairman, I thank you, and I look forward to 
hearing first from our distinguished chairman of the full 
committee and then from our witnesses.
    Senator Brownback. Thank you very much, Senator Robb. 
Senator Helms.
    Senator Helms. Mr. Chairman, I thank you very much.
    Let me begin with a confession. I am absolutely astonished 
that the Indian Government was able to catch the U.S. 
intelligence capability so sound asleep at the switch, 
revealing the stark reality that the administration's 6-year 
cosying up to India has been a foolhardy and perilous 
substitute for common sense.
    A small squadron of Cabinet officers had visited in the 
past two years in India; and President Clinton, as has been 
mentioned here, had been planning a trip later this year. Even 
so, the Indian Government has not shot itself in the foot. Most 
likely it shot itself in the head.
    By conducting five nuclear tests India made a major 
miscalculation, not merely about the United States, but about 
India's own capability. The Indian Government has deluded 
itself into the absurd assumption that the possession of 
nuclear weapons will make India a superpower at a time when 
hundreds of millions of India's people are in abject poverty.
    The fact is that India is tangled in economic knots. 
Disease and misery are rampant, hence the absurd assumption 
that a big boom would make them a big power. Not so.
    This mentality is not merely dangerous. It is incredible. 
But the proliferation of nuclear weapons is certainly no 
laughing matter; and, pursuant to the Nuclear Proliferation 
Prevention Act of 1994, all manner of U.S. assistance to India, 
ranging from foreign aid to U.S. support for India in global 
financial institutions has been terminated.
    For whatever it is worth, I had hoped that India would 
march sensibly and with caution into the 21st century. I have 
tried to be a friend to India, but for so long as there is 
breath in me, Mr. Chairman, I will never support the lifting of 
the Glenn amendments sanctions on India unless they abandon all 
nuclear ambitions.
    Now, regarding Pakistan in all of this, I understand the 
position that Pakistan is in today. They are threatened 
politically and militarily, and no doubt the Pakistanis feel 
enormous pressure to act; and to Prime Minister Sharif I offer 
my advice, for whatever it is worth. This is the moment of 
truth for Pakistan as a nation as well.
    This is the moment of truth, indeed. Pakistan can be a 
partner to the United States in fighting nuclear proliferation, 
or it can be a schoolyard rival to India and engage in the 
folly of nuclear weapons testing; and I hope Pakistan will 
choose to be our partner.
    Additionally, Mr. Chairman, India's actions demonstrate 
that the components of a test ban treaty from a 
nonproliferation standpoint is scarcely more than a sham, and I 
hope that the Clinton administration has learned from its 
mistakes sufficiently to refuse to allow India to pay for its 
actions by signing this CTBT; because I, for one, cannot and 
will not agree to any treaty which would legitimize de facto 
India's possession of these weapons just so long as they are 
not caught further testing them.
    The appropriate U.S. response must be vigorous 
international sanctions against India to be lifted only after 
India's nuclear attack had been rolled back; and mind you, 
there are aspects of India's nuclear detonations which are 
extremely troubling.
    Today's two tests were clearly intended to fall below any 
seismic detection threshold, which is a clear indication that 
India intended to remain a nuclear power at all costs, which 
demonstrates India's intent to exploit the verification 
deficiencies of the CTBT by testing new designs in an 
undetectable fashion. I will be particularly interested in what 
former Director of Central Intelligence Jim Woolsey thinks 
about this, because he always comes up with a sound 
observation.
    Indeed, if the administration plans to pressure India 
regarding arms control treaties, it should focus on the nuclear 
nonproliferation treaty, Indian ratification of that treaty as 
a nonnuclear weapons State; and that will do infinitely more 
than Indian ratification of the comprehensive test ban treaty. 
We do not need to worry about the Indian nuclear test if India 
has agreed not to have these weapons in the first place.
    Now then, India's nuclear testing is compelling, additional 
evidence pointing to the need for national missile defense to 
protect the United States of America and the American people. 
Because India has a space launch capability which can readily 
be configured as an intercontinental ballistic missile, India's 
actions clearly constitute an emerging nuclear threat to the 
territory of the United States.
    It is high time that the antiquated 1972 antiballistic 
missile treaty which prohibits a national missile defense, and 
which hamstrings even U.S. theater missile defenses, is 
relegated to the ash bins of history.
    Finally, Mr. Chairman, India's actions underscore how vital 
the U.S. deterrent, nuclear deterrent, is to our national 
security. What is needed at this time is not a scramble for an 
arms control treaty that prohibits the United States from 
guaranteeing the safety of the American people and the 
reliability of its nuclear stockpile.
    What is needed, Mr. Chairman, in the judgment of this 
Senator, is a careful, top-to-bottom review of the state of our 
own nuclear infrastructure, and there should be no delay 
whatsoever in getting about it.
    I thank the chair.
    Senator Brownback. Thank you very much, Mr. Chairman.
    We now have Assistant Secretary of State for Near East and 
South Asian Affairs, Karl Inderfurth, who will testify. With 
him is the Deputy Assistant Secretary of State for 
Nonproliferation, Bureau of Political Military Affairs, Bob 
Einhorn.
    And Secretary Inderfurth, when we first set this hearing up 
about a month ago we had a different topic in mind. It was 
India, but it was about the booming relationship between the 
United States and India and where the BJP party might take that 
nation. I dare say this week has changed all of that. We have 
changed the other panels after you and examine this 
relationship, and what should be a growing relationship is in 
crisis.
    So we look forward to your testimony today, and then there 
will be questions, obviously, from members of the committee. 
Thank you for joining us.

 STATEMENT OF HON. KARL F. INDERFURTH, ASSISTANT SECRETARY OF 
 STATE FOR SOUTH ASIAN AFFAIRS, ACCOMPANIED BY ROBERT EINHORN, 
   DEPUTY ASSISTANT SECRETARY OF STATE FOR NONPROLIFERATION, 
              BUREAU OF POLITICAL MILITARY AFFAIRS

    Mr. Inderfurth. Thank you, Mr. Chairman, Senator Helms, 
Senator Robb, members of the committee. I do apologize for not 
getting my testimony to you the required 24 hours in advance. I 
think this was unavoidable, given the circumstances. I do 
apologize.
    You have introduced my colleague, Mr. Einhorn, who is our 
top nonproliferation expert in the Department, and he has 
graciously joined me for the opportunity to address the 
committee and answer your questions.
    Mr. Chairman, before I begin, I will, with your permission, 
read the President's statement this morning that he made in 
Germany announcing his decision to invoke sanctions against 
India for conducting nuclear tests, and this is what he stated.
    The President said:

    I think it is important that I make a comment about the 
nuclear tests by India. I believe they were unjustifiable. They 
clearly create a dangerous new instability in the region and, 
as a result, in accordance with the United States law, I have 
decided to impose economic sanctions against India.
    I have long supported deepening the relations between the 
United States and India. This is a deeply disappointing thing 
for me personally, but the nuclear tests conducted by India 
against the backdrop of 149 nations signing the nuclear 
nonproliferation treaty demand an unambiguous response by the 
United States. It is important that we make clear our 
categorical opposition. We will ask other countries to do the 
same.

    The President went on to say:

    It simply is not necessary for a nation that will soon be 
the world's most populous nation, that already has the world's 
largest middle class, that has 50 years of vibrant democracy, a 
perfectly wonderful country, it is not necessary for them to 
manifest national greatness by doing this. It is a terrible 
mistake.
    I hope that India will instead take a different course now, 
and I hope they will adhere without conditions to the 
comprehensive test ban treaty; and, as I mentioned to the 
Pakistani prime minister, Mr. Sharif, today, I also urge 
India's neighbors not to follow the dangerous path India has 
taken. It is not necessary to respond to this in kind.

    Now, Mr. Chairman, let me return to my statement. As you 
noted in your opening remarks, I, too, am deeply disappointed 
that I am compelled to deliver testimony that is far different 
than you and I had originally envisioned when we began planning 
for this hearing. I had hoped and expected to talk about our 
efforts to move forward with India across a full range of 
issues and to establish a new relationship befitting the size 
and strength of our two democracies.
    As you know, however, recent events in India have altered 
significantly the message that I am delivering today and will 
affect far more than just our discussion. These events will 
have a significant impact on the substance of our relationship 
with India and our overall approach to the South Asia region.
    On May 11, 1998, India announced it had conducted three 
underground nuclear tests. An official Indian spokesman said 
that these detonations occurred simultaneously, about 330 miles 
southwest of New Delhi, some 70 miles from the Pakistani 
border, at the Pokhran testing facility, the same location 
where India conducted its first test in 1974.
    On May 13, just this morning, the Indian Government 
announced that it had conducted two more tests at Pokhran. 
After the first test, the spokesman amplified that the tests 
were of a fission device, a low yield device, and thermonuclear 
device.
    This morning, a spokesman said that two more subkiloton 
nuclear tests were carried out. The official Indian spokesman 
stated that the first tests were intended, and I quote, ``to 
establish that India has a proven capability for a weaponized 
nuclear program.''
    He added that the government is deeply concerned, as were 
previous governments, about the deteriorating nuclear 
environment in India's neighborhood, and that these tests 
provide reassurance to the people of India that their national 
security interests are paramount and will be promoted and 
protected.
    After the second test, the spokesman said that the tests 
have been carried out to generate additional data for improved 
computer simulation of designs and for attaining the capability 
to carry out some critical elements if considered necessary.
    Indian officials in contact with us after the first test 
have been more specific. They have cited a variety of issues as 
a rationale for testing, all of which, I should add, we firmly 
reject as providing sufficient justification for this most 
unwise act.
    Specifically, they have pointed out two unresolved border 
problems with China, the great concern over China's ties with 
Pakistan, and to what they view as continuing hostility from 
Pakistan and Pakistani support for terrorism in the disputed 
territory of Kashmir. We cannot see, Mr. Chairman, how any of 
these concerns will be effectively addressed by testing nuclear 
weapons.
    We have also heard the argument from Indian officials that 
Indian military capabilities are no longer respected in the 
region and, thus, this series of tests were necessary. We find 
that, too, to be unpersuasive as a rationale, despite the 
reaction from India itself, where the decision to test has been 
greeted almost universally within India with firm support, but 
bordering on euphoria.
    Mr. Chairman, the international community clearly rejects 
India's decision to conduct these tests. Reaction by other 
nations has been swift and uniformly negative, and it accords 
with the sentiment that you expressed in the resolution that 
you introduced last night condemning India's actions.
    To give just a flavor of what has been said, Japan, the 
largest bilateral donor of economic assistance to India, 
denounced the test, urged India to stop development of nuclear 
weapons immediately, announced a suspension of grant aid, and 
undertook consideration of suspending loans and indicated its 
intention to bring the issue before the G-8 meeting in 
Birmingham.
    China expressed its grave concern, and pointed out the test 
would be detrimental to peace and security in South Asia.
    Malaysia deplored the action, calling it a setback to 
international efforts to ban testing.
    Russian President Boris Yeltsin criticized the tests, 
saying that India has let us down.
    Ukraine invoked the tragic memory of Chernobyl to 
underscore its view that the test was unjustified.
    Canada's foreign minister called these tests a major, a 
very major regressive step backward.
    Both Australia and New Zealand have lodged official 
protests with India and have recalled their ambassadors.
    France voiced its concern, as did Denmark, Sweden, and 
Finland.
    South Africa, a long-time friend to India and a country 
uniquely placed to comment, having given up its own nuclear 
program, likewise expressed its deep concern.
    United Nations Secretary-General Kofi Annan expressed his 
deep regret and noted that the test was inconsistent with 
international norms.
    Mr. Chairman and members of the committee, the reaction of 
the United States has been equally swift and determined. I have 
already read to you the President's statement from this 
morning. Yesterday, the President stated that he was deeply 
disturbed by the nuclear test, and that he does not believe 
that India's action contributes to building a safer 21st 
century.
    The President added that this action by India not only 
threatens the stability of the region, it directly challenges 
the firm international consensus to stop the proliferation of 
weapons of mass destruction. The President called upon India to 
announce that it will conduct no further test, and it will sign 
the comprehensive test ban treaty now and without conditions.
    The Secretary of State exercised her authority to invoke 
Eximbank sanctions and announced that we have recalled 
Ambassador Celeste to Washington for consultations.
    The President's action today places sanctions against India 
pursuant to section 102 of the Arms Export Control Act, 
otherwise known as the Glenn amendment.
    These actions, which meet the terms that you, Mr. Chairman, 
and your colleagues put forth in your resolution, will place 
stiff penalties on India and will affect a wide cross-section 
of our current activities in India, including development 
assistance; military sales and exchanges; trade in specified 
dual use goods and technology; U.S. loans, guarantees and 
credits to India; loans and credits by U.S. banks to the 
Government of India; and support for India within the 
international financial institutions.
    As this is the first ever instance in which we have invoked 
the Glenn amendment, we are still in some respects entering 
uncharted territory. We are working hard and will keep you and 
your colleagues fully informed as we develop the mechanisms and 
procedures for implementing these sanctions.
    I am certain that India will soon understand the far-
reaching impact of the President's decision. For instance, our 
current level of development assistance to India is 
approximately $143 million. By global standards this is not a 
particularly large figure, and a substantial portion of it is 
PL 480 food debt, for which there is a specific exemption under 
the law, but it does represent by far our largest program in 
South Asia.
    The requirement to oppose loans and assistance in the 
international financial institutions could potentially cost 
India billions of dollars in desperately needed financing for 
infrastructure and other projects.
    The prohibition on loans by U.S. banks to the Government of 
India and on Exim and OPIC activities could cost hundreds of 
millions of dollars, affect projects already approved or in the 
pipeline, and could cause major U.S. companies and financial 
institutions to rethink entirely their presence and operations 
in India.
    We are currently in the process of compiling a 
comprehensive study of the programs and activities to be 
affected, and the implementation process; and we will share 
this information with you as soon as it is available.
    Mr. Chairman, India's decision to conduct these nuclear 
test explosions is a serious violation of international 
nonproliferation norms and a repudiation of international 
efforts to contain the further spread of nuclear weapons and 
pursue nuclear disarmament. This action constitutes a dangerous 
precedent for the international nuclear nonproliferation 
regime.
    India is the only country defined by the NPT as a 
nonnuclear weapons state to have tested a nuclear explosive 
device now, three times over a 24-year period, twice within the 
last 3 days alone.
    Clearly, India's nuclear tests are a serious setback. They 
highlight the risks associated with the proliferation of 
nuclear weapons, and raise the specter of further proliferation 
on the subcontinent and in other regions of the world.
    But while India's tests have created new challenges for the 
international nonproliferation regime, we will continue to seek 
ways to create new opportunities. We will use these 
developments to call attention to the inherent risks associated 
with nuclear weapons proliferation, and to mobilize 
international support for all possible steps to guard against 
an escalation of confrontation and tension in South Asia.
    In announcing its decision to conduct these tests, India 
indicated some willingness to show flexibility on a 
comprehensive test ban treaty and to participate in a fissile 
material cutoff negotiation, although its statements fell far 
short of indicating any meaningful commitment to either accord.
    In the post test environment we will need to move 
energetically to strengthen the global nonproliferation regime 
and to take full advantage of any Indian willingness to move 
toward acceptance of international nonproliferation norms. In 
particular, we will intensify our efforts to achieve entry into 
force of the CTBT, to commence negotiations on and complete at 
an early date a fissile material cutoff treaty, and to promote 
nuclear and missile restraint in South Asia and beyond.
    Mr. Chairman, I join the President and the Secretary and, 
indeed, the sentiments that you expressed and other members of 
the committee in our deep dismay over the recent events. In the 
time since I assumed my position as Assistant Secretary for 
South Asian Affairs, I have worked hard, in accordance with a 
well-considered administration decision, to broaden and deepen 
our relations with India and the rest of South Asia, and to 
pursue our nonproliferation objectives vigorously within the 
context of our overall relationship.
    During my most recent trip to India, where I accompanied 
Ambassador Richardson and Bruce Riedel from the National 
Security Council, we were continuously reassured by the most 
senior levels of the new BJP Government that India appreciated 
our efforts to strengthen ties, and was looking forward to the 
President's scheduled trip and a far-reaching dialog on a vast 
array of issues.
    At the same time, we were assured privately and publicly 
that India would continue to show restraint in the 
nonproliferation field, and would do nothing to surprise us.
    As a direct result of India's decisions and actions, we are 
now compelled to look again at our approach to India. Instead 
of highlighting our cooperative efforts with India to promote 
trade and investment, to work toward protecting the 
environment, halting the spread of AIDS and other infectious 
diseases, and to emphasize science and technology cooperation, 
we will now need to put much of the cooperative side of our 
agenda on hold and deal with the consequences of India's 
actions.
    We must focus anew on seeking a meaningful Indian 
commitment to cease from further testing, to join the 
comprehensive test ban treaty immediately and without 
qualifications, and to respect other international 
nonproliferation norms.
    We will need to assess how we will deal with India in 
accordance with the Glenn amendment and other U.S. laws which 
require sanctions far more restrictive than those placed upon 
Pakistan under the Pressler amendment.
    Looking ahead, we will need to try to engage India on a 
number of issues, aside from the immediate crisis, but I must 
caution that India's actions have made such engagement far more 
difficult than would otherwise have been the case.
    At the same time, we will need to work closely and 
cooperatively with Pakistan, whom we judge also to have the 
capacity to test a nuclear device, and to show restraint in the 
face of India's provocative actions.
    Pakistan has the opportunity, now, to take the 
statesmanlike course in South Asia and to demonstrate that, as 
Chairman Helms said, it is committed to a peaceful future on 
the subcontinent. This is, indeed, a moment of truth.
    I know that Prime Minister Sharif is committed personally 
to improving relations with India and understands that 
Pakistan's long-term interests rest on regional stability 
through increased cooperation. Although Mr. Sharif's task has 
been made significantly more difficult with the events of this 
week, we hope very much that he will persevere with the course 
he has charted and avoid the temptation to demonstrate a 
capability which the world already believes to exist.
    Pakistan will earn the gratitude of the international 
community and will actually enhance its own security by 
following a policy of restraint.
    Mr. Chairman, we have arrived at an historic juncture in 
our relationship with India. We continue to respect India as a 
complex democratic society, and we wish neither to diminish 
India's achievements nor underestimate its potential; but we 
regret, we deeply regret, that its current leaders believe that 
they must detonate nuclear weapons in order to be taken 
seriously as a nation.
    There are reports from the Indian press which cite gleeful 
claims that India has now become the world's sixth superpower, 
a fact which is apparent only to those making the claim. 
Clearly, the world thinks otherwise.
    We deplore India's new tests not only because of the breach 
they represent in global nonproliferation policy, but also 
because of the harm that it does to India's reputation and 
stature. We and, I trust, the international community, still 
desire productive and cooperative relations with India; but we 
are now forced to move ahead under the burden of these tests 
and their inexorable consequences.
    The Government of India has chosen to separate itself from 
the responsible consensus of the world community on an issue of 
critical importance, and we must act accordingly.
    Let me end, Mr. Chairman, on a hopeful note, despite this 
week's very bad news. Last year we were encouraged by the 
resumption of high level dialog between India and Pakistan, and 
we were equally encouraged earlier this year when both Prime 
Minister Sharif and Prime Minister Vajpayee pledged to go the 
extra mile to improve relations between their two countries.
    I harbor no illusions about the difficult challenge that 
the current environment poses to the resumption of the Indo-
Pakistani dialog, but let me emphasize that the future 
prosperity and stability of the region depends upon it and we 
remain hopeful that progress can and will be made.
    I will now be happy to answer your questions and to hear 
your views and recommendations, along with my colleague, Mr. 
Einhorn.
    [The prepared statement of Mr. Inderfurth follows:]

                    Statement of Karl F. Inderfurth

    Mr. Chairman, before I begin, I will with your permission read the 
President's statement this morning in Germany announcing his decision 
to invoke sanctions against India for conducting nuclear tests:
    Now, Mr. Chairman, let me return to my statement. I am deeply 
disappointed that I am compelled to deliver testimony that is far 
different than you and I had originally envisioned when we began 
planning for this hearing. I had hoped and expected to talk. about our 
efforts to move forward with India, across a full range of issues, and 
to establish a new relationship befitting the size and strength of our 
two democracies. As you know, however, recent events in India have 
altered significantly the message that I am delivering today, and will 
affect far more than just our discussion. These events will have a 
significant impact on the substance of our relationship with India and 
our overall approach to the South Asia region.
    On May 11, 1998, India announced that it conducted three 
underground nuclear tests. An official Indian spokesman said that these 
detonations occurred simultaneously, about 330 miles southwest of New 
Delhi some 70 miles from the Pakistani border at the Pokhran testing 
facility--the same location where India conducted its first test in 
1974. On May 13, just this morning, the Indian government announced 
that it had conducted two more tests at Pokuran. After the first tests, 
the spokesman amplified that the tests were of a fission device, a low-
yield device, and a thermonuclear device. This morning, a spokesman 
said that ``two more sub-kiloton nuclear tests were carried out.''
India's Rationale
    The official Indian spokesman stated that the first tests were 
intended ``to establish that India has a proven capability for a 
weaponized nuclear program.'' He added that, ``the Government is deeply 
concerned, as were previous Governments, about the deteriorating 
nuclear environment in India's neighborhood,'' and that, ``these tests 
provide reassurance to the people of India that their national security 
interests are paramount and will be promoted and protected.'' After the 
second tests, the spokesman said that, ``the tests have been carried 
out to generate additional data for improved computer simulation of 
designs and for attaining the capability to carry out subcritical 
elements, if considered necessary.''
    Indian officials, in contacts with us after the first tests, have 
been more specific. They have cited a variety of issues as a rationale 
for testing--all of which, I should add, we firmly reject as providing 
sufficient justification for this most unwise act Specifically, they 
have pointed to unresolved border problems with China; to great concern 
over China's ties with Pakistan; and to what they view as continuing 
hostility from Pakistan and Pakistani support for terrorism in the 
disputed territory of Kashmir. We cannot see, Mr. Chairman, how any of 
these concerns will be effectively addressed by testing nuclear 
weapons. We have also heard the argument from Indian officials that 
Indian military capabilities are no longer respected in the region, and 
thus these series of tests were necessary. We find that, too, to be 
unpersuasive as a rationale, despite the reaction from India itself, 
where the decision to test has been greeted almost universally within 
India with firm support, bordering on euphoria.
International Response
    Mr. Chairman, the international community clearly rejects India's 
decision to conduct these tests. Reaction by other nations has been 
swift and uniformly negative, and it accords with the sentiment that 
you, Mr. Chairman, and your colleagues Senators Feinstein and Glenn 
expressed in the resolution that you introduced last night condemning 
India's actions. To give just a flavor of what has been said, Japan--
the largest bilateral donor of economic assistance to India--denounced 
the tests, urged India to stop development of nuclear weapons 
immediately, announced a suspension of grant aid and undertook 
consideration of suspending loans, and indicated its intention to bring 
the issue before the G-8 meeting in Birmingham. China expressed its 
``grave concern,'' and pointed out that the test would be detrimental 
to peace and security in South Asia. Malaysia deplored the action, 
calling it a setback to international efforts to ban testing. Russian 
President Yeltsin criticized the tests, saying that ``India has let us 
down.'' Ukraine invoked the tragic memory of Chernobyl to underscore 
its view that the test was unjustified. Canada's Foreign Minister 
called these tests ``a very major, regressive step backward.'' Both 
Australia and New Zealand have lodged official protests with India and 
have recalled their Ambassadors. France voiced its concern, as did 
Denmark, Sweden, and Finland. South Africa--a long-time friend of India 
and a country uniquely placed to comment, having given up its own 
nuclear program--likewise expressed its deep concern. United Nations 
Secretary General Annan expressed his ``deep regret,'' and noted that 
the test was inconsistent with international norms.
U.S. Response
    The reaction of the United States has been equally swift and 
determined. I have already read to you the President's statement from 
this morning. Yesterday, the President stated that he was ``deeply 
disturbed by the nuclear tests,'' and that he does not believe that 
India's action ``contributes to building a safer 21st century.'' The 
President added that ``this action by India not only threatens the 
stability of the region, it directly challenges the firm international 
consensus to stop the proliferation of weapons of mass destruction.'' 
The President called upon India to ``announce that it will conduct no 
further tests, and it will sign the Comprehensive Test Ban Treaty now 
and without conditions.'' The Secretary of State exercised her own 
authority to invoke EXIM bank sanctions, and announced that we have 
recalled Ambassador Celeste to Washington for consultations.
    The President's action today places sanctions against India 
pursuant to Section 102 of the Arms Export Control Act, otherwise known 
as the Glenn Amendment. These sanctions, which meet the terms that you, 
Mr. Chairman, and your colleagues put forth in your resolution, will 
place stiff penalties on India, and will affect a wide cross-section of 
our current activities in India, including development assistance, 
military sales and exchanges, trade in specified dual use goods and 
technology, U.S. loans, guarantees, and credits to India; loans and 
credits by U. S. banks to the government of India; and support for 
India within the International Financial Institutions. As this is the 
first ever instance in which we have invoked the Glenn amendment, we 
are in some respects entering uncharted territory. We are working hard, 
and will keep you and your colleagues fully informed, as we develop the 
mechanisms and procedures for implementing these sanctions. I am 
certain that India will soon understand the far-reaching impact of the 
President's decision. For instance, our current level of development 
assistance to India is approximately $143 million; by global standards, 
this is not a particularly large figure and a substantial portion of it 
is PLA8O food aid, for which there is a specific exemption under the 
law. But it does represent by far our largest program in South Asia The 
requirement to oppose loans and assistance in the International 
Financial Institutions could potentially cost India billions of dollars 
in desperately needed financing for infrastructure and other projects. 
The prohibition on loans by U.S. banks to the government of India and 
on EXIM and OPIC activities could cost hundreds of millions of dollars, 
affect projects already approved or in the pipeline, and could cause 
major U.S. companies and financial institutions to rethink entirely 
their presence and operations in India. We are currently in the process 
of compiling a comprehensive study of the programs and activities to be 
affected and the implementation process, and we will share this 
information with you as it is available.
Impact on Nonproliferation Efforts
    Mr. Chairman, India's decision to conduct these nuclear test 
explosions is a serious violation of international nonproliferation 
norms, and a repudiation of international efforts to contain the 
further spread of nuclear weapons and pursue nuclear disarmament. This 
action constitutes a dangerous precedent for the international nuclear 
nonproliferation regime. India is the only country defined by the NPT 
as a non-nuclear weapon state to have tested a nuclear explosive 
device--now three times over a twenty-four year period, twice within 
the past three days alone.
    Clearly, India's nuclear tests are a serious setback. They 
highlight the risks associated with the proliferation of nuclear 
weapons and raise the specter of further proliferation on the 
subcontinent and in other regions of the world. But while India's tests 
have created new challenges for the international nonproliferation 
regime, we will continue to seek ways to create new opportunities. We 
will use these developments to call attention to the inherent risks 
associated with nuclear weapons proliferation and to mobilize 
international support for all possible steps to guard against an 
escalation of tension and confrontation in South Asia. In announcing 
its decision to conduct these tests, India indicated some willingness 
to show flexibility on a Comprehensive Test Ban Treaty and a to 
``participate'' in a fissile material cutoff negotiation--although its 
statements fell far short of indicating any meaningful commitment to 
either accord. In the post-test environment, we will need to move 
energetically to strengthen the global nonproliferation regime and to 
take full advantage of any Indian willingness to move towards 
acceptance of international nonproliferation norms. In particular, we 
will intensify our efforts to achieve early entry into force of the 
CTBT, to commence negotiations on and complete at an early date a 
fissile material cut-off treaty, and to promote nuclear and missile 
restraint in South Asia and beyond.
Impact on U.S. Relations
    Mr. Chairman, I join the President and the Secretary in my deep 
dismay over the recent events. In the time since I assumed my position 
as Assistant Secretary for South Asian Affairs, I have worked hard, in 
accordance with a well considered administration decision, to broaden 
and deepen our ties with India and the rest of South Asia, and to 
pursue our non-proliferation objectives vigorously within the context 
of our overall relationship. During my most recent trip to India, where 
I accompanied Ambassador Richardson and Bruce Riedel from the NSC, we 
were continuously reassured by the most senior leaders of the new BJP 
government that India appreciated our efforts to strengthen ties, and 
was looking forward to the President's scheduled trip and a far-
reaching dialogue on a vast array of issues. At the same time, we were 
assured privately and publicly that India would continue to show 
restraint in the non-proliferation field, and would do nothing to 
surprise us.
    As a direct result of India's decisions and actions, we are now 
compelled to look again at our approach to India. Instead of 
highlighting our cooperative efforts with India to promote trade and 
investment, to work towards protecting the environment, halting the 
spread of MDS and other infectious diseases, and to emphasize Science 
and Technology cooperation, we will now need to put much of the 
cooperative side of our agenda on hold and deal with the consequences 
of India's actions. We must focus anew on seeking a meaningful Indian 
commitment to cease from further testing, to join the Comprehensive 
Test Ban Treaty immediately and without qualifications, and to respect 
other international non-proliferation norms. We will need to assess how 
we will deal with India in accordance with Glenn Amendment and other 
U.S. laws, which require sanctions far more restrictive than those 
placed upon Pakistan under the Pressler Amendment. Looking ahead, we 
will need to try to engage India on a number of issues aside from the 
immediate crisis, but I must caution that India's actions have made 
such engagement far more difficult than would otherwise have been the 
case.
    At the same time, we will need to work closely and cooperatively 
with Pakistan, whom we judge also to have the capacity to test a 
nuclear device, to show restraint in the face of India's provocative 
actions. Pakistan has the opportunity now to take the statesmanlike 
course in South Asia and to demonstrate that it is committed to a 
peaceful future in the Subcontinent. I know that Prime Minister Sharif 
is committed personally to improving relations with India and 
understands that Pakistan's long-term interests rest on regional 
stability through increased cooperation. Although Mr. Sharif's task has 
been made significantly more difficult with the events of this week, we 
hope very much that he will persevere with the course he has charted, 
and avoid the temptation to demonstrate a capability that the world 
already believes to exist. Pakistan will earn the gratitude of the 
international community, and will actually enhance its own security, by 
following a policy of restraint.
    Mr. Chairman, we have arrived at a historic juncture in our 
relationship with India. We continue to respect India as a complex, 
democratic society, and we wish neither to diminish India's 
achievements nor underestimate its potential. But we regret deeply that 
its current leaders believe that they must detonate nuclear weapons in 
order to be taken seriously as a nation. There are reports from the 
Indian press which cite gleeful claims that India has now become the 
world's sixth superpower--a fact which is apparent only to those making 
the claim. Clearly, the world thinks otherwise. We deplore India's new 
tests not only because of the breach they represent in global 
nonproliferation policy, but also because of the harm that it does to 
India's reputation and stature. We, and I trust the international 
community, still desire productive and cooperative relations with 
India, but we are now forced to move ahead under the burden of these 
tests and their inexorable consequences. The government of India has 
chosen to separate itself from the responsible consensus of the world 
community on an issue of critical importance, and we must act 
accordingly.
    Let me end, Mr. Chairman, on a hopeful note despite this week's 
very bad news. Last year, we were encouraged by the resumption of high-
level dialogue between India and Pakistan, and we were equally 
encouraged earlier this year when both Prime Minister Sharif and Prime 
Minister Vajpayee pledged to ``go the extra mile'' to improve relations 
between their two countries. I harbor no illusions about the difficult 
challenge that the current environment poses to the resumption of Indo-
Pakistani dialogue. But let me emphasize that the future prosperity and 
stability of the region depends upon it, and we remain hopeful that 
progress can and will be made. I now will be happy to answer your 
questions, and to hear your views and recommendations, along with my 
colleague, Mr. Einhorn.
    Thank you, Mr. Chairman.

    Senator Brownback. Thank you very much, Secretary 
Inderfurth. We will go back and forth on the committee with 5 
minutes for each Member to either make a statement or questions 
as we go through the process, if we have somebody run the time 
clock so that people can know what time they have.
    Secretary Inderfurth, I appreciate your statement. I 
certainly agree with your push toward Pakistan and to urge the 
Pakistan Government show all restraint possible in this 
situation. I think that would be very appropriate.
    I want to direct your attention to the need for a 
multilateral response, the president's with the G-7 countries. 
Now, the U.S. has automatic sanctions that kick in under the 
Glenn amendment. I think we all know the history of unilateral 
sanctions from the United States being less than a solid 
response. I think it is the appropriate thing, but a lot of 
times it does not get at what needs to be done.
    Will the President be pushing strongly for multilateral 
sanctions, and not just that India, say, sign on to the 
treaties now, but rather, roll back its nuclear program from 
where it has taken it today?
    Mr. Inderfurth. Mr. Chairman, I would like to begin with a 
response and also ask Mr. Einhorn, because this is very much 
his bailiwick at the Department. We recognize this must be 
multilateralized.
    I my statement I gave to you the reactions of many 
Governments around the world, all of whom have made strong 
statements about the Indian nuclear test as well as several of 
them taking strong actions, including our Japanese friends. We 
expect other Governments to be taking similar steps as well 
over the days ahead.
    We are also working at this time at the United Nations and 
the Security Council, where Britain and Sweden have taken a 
lead in drawing attention to this, and work is progressing 
there in the Security Council, and also the G-8 meeting in 
Birmingham will be a further opportunity, so now that we have 
made our determination nationally we will be working with 
friends in other countries to see what can be done on the 
international level.
    Senator Brownback. Mr. Inderfurth, I would push, too, that 
we not just push for India to sign these treaties, which I 
think you will find different Members on this committee finding 
of greater or lesser utility, but to roll back their nuclear 
program from where they are today, that is our focus and that 
is our effort, and I hope the administration takes an 
aggressive position to push that, that they eliminate their 
stockpiles and their nuclear program altogether.
    Mr. Einhorn. Senator, it certainly is our ultimate goal to 
have all nonnuclear weapons States join the NPT and give up the 
nuclear option. We think it is important to be realistic about 
what can be achieved in the near term.
    In the near term, the highest priority is to try to put a 
lid on the emerging nuclear and missile competition we see 
developing in South Asia, so while we fully support your goals, 
we have to set our sights on what is achievable, and we think 
in the near term what is achievable is to ban all nuclear 
testing and ban additional production of unsafeguarded fissile 
material, that is, material that can be used to make bombs, and 
to constrain missile programs in a variety of ways.
    We have to take it a step at a time, and we think this is 
the most realizable next step.
    Senator Brownback. I appreciate that. I just think that if 
we push that they join the CTBT, that this is not a verifiable 
step on their part.
    Now we have a Government that Ambassador Richardson was 
just there 2 weeks ago, that the foreign minister was here very 
recently, no clue that this was going to take place, and we did 
not know of the two additional nuclear weapon, or nuclear type 
of devices that were just exploded.
    We were not able to test that or to verify that, and to ask 
them to join a treaty that possibly we are not going to be able 
to verify their actions, my question is, is there validity to 
this treaty?
    Mr. Einhorn. Senator, we do believe there is validity to 
this treaty. Other administration officials have testified to 
that effect and explained the reasons why we believe this 
treaty is effectively verifiable and will protect U.S. national 
security interest.
    We believe it is important for India to join the treaty at 
the earliest possible date and, if India does, we believe there 
would be very good prospects for Pakistan to follow suit and to 
enable this treaty to enter into force, so this recent 
development in our view, as unfortunate as it is, could enable 
us to generate increased momentum toward entry into force of 
this agreement, which we think would be in everyone's best 
interest.
    Senator Brownback. But Mr. Einhorn, did we know that India 
set off these additional two devices within the past 24 hours, 
separate from their announcing it?
    Mr. Einhorn. Senator, we read the announcement, as you did, 
and our analysts are looking at the data now and assessing the 
situation, and I do not have any more to say at this point as 
they conduct their analysis.
    Senator Brownback. We did not know about it ahead of time 
on the additional two devices, not the first three, but the 
additional two?
    Mr. Einhorn. I understand the question.
    Senator Brownback. Is that correct?
    Mr. Einhorn. I understand the question, but as I say, we 
are allowing our analysts to look at the data. I do not have 
any further comment on it at this stage.
    Senator Brownback. You did not know about it ahead of it 
being announced by the Indian Government?
    Mr. Einhorn. Again, I would leave it to the analysts to 
sift through the data.
    Senator Brownback. I understand, but you did not know about 
it, did you?
    Mr. Einhorn. I personally woke up this morning and I did 
not know about it.
    Senator Brownback. Neither did the rest of us.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman, and I might add that 
I am not sure whether it is going to be an open or a closed 
hearing, but there will be a hearing by the Intelligence 
Committee tomorrow to look into some of those questions, and I 
suspect that whether it is open or closed, that there will be 
some announcements at least by the chairman and the vice 
chairman about some of the questions that you raise and are 
obviously on the minds of many.
    Secretary Inderfurth, you indicated, and it was on the news 
this morning, that the President had a phone call with Prime 
Minister Sharif. Do you know if, in the course of that 
conversation, Prime Minister Sharif was able to give President 
Clinton any, either guarantee or reassurance that their 
response to the testing by India would not be a testing by 
Pakistan?
    Mr. Inderfurth. He was not able, Senator, to give that 
assurance. He told the President that he appreciated his call. 
He told the President that he was under tremendous pressure to 
respond to the series of tests by India. He said that he would 
certainly take into account what the President had said to him.
    The President also offered to send to Pakistan a high level 
delegation to discuss this further with the prime minister and 
other Pakistani officials, and the situation in South Asia as a 
result of these tests.
    That delegation will be led by Deputy Secretary of State 
Strobe Talbott and General Zane. I will take part in that, and 
we leave tonight. We hope we will be able to have those 
discussions, and we hope that the Pakistani Government and 
Prime Minister Sharif will not move ahead with the tests.
    Senator Robb. We wish you well. I join the--the chairman 
made a comment that I think is very important here, in 
suggesting that Pakistan could enhance its stature in the 
international community in a very significant way if it is able 
to control what would be the natural, emotional reaction by the 
people of Pakistan to what is obviously a very provocative act 
on behalf of the Indian Government.
    I mentioned in my opening statement that I hoped the 
President would reconsider his planned trip to India this fall. 
Do you happen to know at this point whether any decision has 
been made, or whether any advice has been given to him by the 
State Department with regard to that particular trip?
    Mr. Inderfurth. That reconsideration is underway right now. 
I am not in a position to tell you the outcome of that review. 
Ambassador Celeste has been recalled. He is back at the 
Department. We are discussing that now.
    Senator Robb. What kinds of risks might the region, the 
international community be subjected to if India were to move 
forward beyond the stage that it is engaged with the first five 
tests in this series of two groupings of underground testing?
    Mr. Inderfurth. I would like to ask Mr. Einhorn to join me. 
I will tell you from my standpoint, looking at the overall 
relationship, what we are very concerned about is that we have 
seen the briefest of hints that these two countries, after 50 
years of hostilities and three wars, were beginning to move 
away from that.
    Last summer at the SAARC summit in the Maldives there was a 
handshake between the two prime ministers and they set up a 
mechanism at the foreign secretary level to start talking about 
all issues. They set up eight different issue areas, the first 
being peace and security, which is a way of talking about 
nuclear and missile competition, second, Kashmir, which has 
been the longstanding dispute between the two countries.
    We were hoping that they were moving in that direction, 
which is precisely why President Clinton met with the two prime 
ministers at the United Nations in September last year to try 
to give that very early process a nudge forward.
    We are therefore greatly disappointed that rather than 
pursuing talks they are pursuing tests, and that is a turn of 
events which we think will have significant implications for 
the region and for a global nonproliferation regime, but I 
would like to ask Mr. Einhorn to discuss that as well.
    Mr. Einhorn. The risk involved, Senator, in this testing 
activity is that, if either India or Pakistan engages in this 
kind of testing activity, the other feels strongly motivated to 
follow suit in part for technical and strategic reasons, but in 
part because of the strong domestic support to react in kind.
    And with this kind of cycle of action and reaction it is 
very difficult to break this chain of events and it continues 
to escalate, not just in the nuclear area, but almost as 
dangerous is you have the efforts by both sides to develop 
longer and longer range missile delivery systems, which 
increases instability.
    Senator Robb. You mentioned domestic reaction. Could you 
comment on that? In Secretary Inderfurth's testimony was one of 
the most troubling in terms of, I believe you used the word 
euphoria. I was following your text as you were delivering it.
    Could you comment on the extent of that euphoria and how or 
if it was promoted by the Government in any way, shape, or 
form, either in immediate anticipation of the tests without an 
announcement, or after the tests were completed?
    Mr. Inderfurth. Well, it is a nationalistic response to an 
achievement, as seen by the Indian people, which demonstrates 
scientific and technological prowess. It indicates that India 
has stepped onto the world stage, that it can do those things 
which only the major powers have been able to do in the past.
    We have five declared nuclear weapons States. It is an 
indication that India has arrived on the world stage, that it 
should be taken seriously, that along with China it is the 
important player in Asia. It will become the most populous 
nation.
    It is all of those things tied together. It is, we think, a 
mistake to be seen in those terms. Nuclear weapons do not make 
a great power. The principles and values that India has we 
think are far more important as a democratic society than the 
number of weapons they have of a nuclear variety, but 
nevertheless, it has created that reaction and it has probably 
been a boost to the Government as opposed to a setback, which 
will make our task of convincing them that this was a mistake 
that much more difficult.
    Senator Robb. Thank you. My time has expired. Thank you, 
Mr. Chairman.
    Senator Brownback. Thank you.
    Chairman Helms.
    Senator Helms. You know, Mr. Inderfurth, one of the sad 
things that has not been mentioned, but I have been thinking 
about it all day long, is how many Indians of dual citizenship, 
U.S. and India, and there has been for several years a 
concerted effort by these people with dual citizenship to build 
the relationship between the United States and India.
    Now, I myself visited with about 1,000 such people, good 
citizens who are prominent in business and have--several 
medical doctors right here in this area who are leaders in 
their particular fields, and they have been working hard to 
build this relationship, and I thought this morning when I was 
getting dressed that all of this has been wiped out, at least 
temporarily, all the work they have done, all the public 
relations and all the working together and so forth. I hope 
that something can come out of this that will be valuable to 
them, and to us.
    Now, having said that, it is my view that India at a 
minimum must sign the nonproliferation treaty and roll back its 
nuclear program completely prior to any lifting of U.S. 
sanctions. Do you agree with that?
    Mr. Inderfurth. Mr. Chairman, I want to first agree with 
what you just said about the Indian-American community, over 1 
million Indian-Americans in this country making an enormous 
contribution to our society, and I hope that what you said at 
least temporarily will prove to be the operative language.
    I hope that we can get this relationship back on track. It 
is too important to all of us for the future, which is 
precisely the theme, if you will, of the President's visit that 
had been planned for November, which is to look to our future 
relationship for the 21st Century and those areas where we have 
so many common interests.
    On the question of the NPT and a roll-back, again I would 
like to ask Mr. Einhorn to comment, but it is very clear that 
significant concrete steps will have to be taken by India 
before the administration will ever recommend to Congress any 
action with respect to removing the sanctions.
    This will be your action. We will have to recommend it, and 
I think we have a long way to go before we see concrete steps 
by India that would put us in a position of making that 
recommendation.
    Mr. Einhorn. Mr. Chairman, could I amplify a bit on that, 
on Ambassador Inderfurth's answer? We think it is too early to 
try to formulate the conditions under which these sanctions 
would be terminated. They have just only been imposed today. It 
is necessary to let them settle in, and we can begin to measure 
their impact, but it is clear, and this was the intention of 
the Congress in adopting this legislation, that these sanctions 
would be very hard to lift.
    In fact, the Glenn amendment does not even provide for the 
lifting of sanctions. What you need is new legislation that 
enables the administration to terminate, so this is a joint 
effort. We need the affirmative action of both Houses of 
Congress in order to terminate the sanctions, so you can be 
sure that we will be consulting with you and your staffs, and 
to figure out what are the appropriate conditions under which 
the sanctions would be terminated.
    Senator Helms. Well, I would say to you that, speaking only 
for myself, this having come up of late, if anything less than 
a roll-back happens I hope the administration will tell us that 
they agree with some of us that nothing happens about 
restoration of our relationship with them.
    I am going to yield back the balance of my time so there 
can be time for other Senators.
    Senator Brownback. Thank you, Mr. Chairman.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. May I 
ask that my statement be entered into the record, please?
    Senator Brownback. Without objection.
    [The prepared statement of Senator Feinstein follows:]

                Prepared Statement of Senator Feinstein

    Mr. Chairman, I would like to thank you for calling today's 
hearing. When this hearing was first announced, it was intended to 
provide an opportunity to discuss the growing U.S.-Indian trade 
relationship, and strategies to give new momentum to what at times has 
been a strained political and security relationship.
    With the announcement of the three underground nuclear tests 
conducted by India on Monday, and the two additional tests today, 
however, I believe that we are now faced with the need not merely to 
review, but rather to reexamine virtually every aspect of U.S.-Indian 
relations. This hearing could not be better timed.
    As someone who has considered herself in the past to be a friend of 
India, I must say that I am somewhat saddened by this turn of events.
    Indeed, freed by the constraints of the Cold War, the past few 
years--until Monday--have seen several positive developments in U.S.-
Indian relations. It was my hope that our hearing today would provide 
an opportunity to discuss how we could build on this record.
    With these tests, however, I fear that U.S.-Indian relations may be 
irretrievably damaged.
    The three underground nuclear tests on Monday, the two additional 
tests today, and the statement by the Indian government that ``[T]hese 
tests have established that India has a proven capability for a 
weaponized nuclear program'' are, to say the least, deeply troubling 
signs for future cooperation and partnership on nuclear and missile 
proliferation.
    Mr. Chairman, I can hardly think of a more important issue to the 
interests of the United States than preventing the proliferation of 
weapons of mass destruction. Each state that acquires nuclear weapons 
creates additional complications in maintaining international security.
    In South Asia today it appears to be too late to talk about 
preventing the acquisition of nuclear weapons. India has demonstrated 
her capabilities, and it is clear to all that Pakistan also has 
achieved the capability to assemble nuclear weapons. Both India and 
Pakistan are developing sophisticated ballistic missiles which can 
deliver nuclear warheads as well.
    The international community cannot successfully impose 
nonproliferation policies on India. Ultimately, India must determine 
for itself that its interests are best served by ridding South Asia of 
weapons of mass destruction--and not by turning the region into a 
potential nuclear battleground. We must seek ways to work with India to 
help it reach that determination, and structure our policies to make 
that outcome, even at this stage of the game, more likely.
    Yesterday, the Chairman of this Subcommittee, Senator Glenn, and I 
introduced a Resolution which expresses our condemnation, in no 
uncertain terms, of the decision of the Indian government to conduct 
these tests, and calls on the President to impose those sanctions 
specified by the Nuclear Proliferation prevention Act of 1994. The 
Resolution also calls on India to work to reduce tensions in the 
region, and to work with the international community to lessen the 
dangers of nuclear war in South Asia. It calls on the other states in 
the region to act with restraint.
    Earlier today the President announced that he would be implementing 
the sanctions called for under the Nuclear Proliferation Prevention 
Act. Although I believe that sanctions are sometimes too blunt a tool 
to be effective in pursuit of U.S. interests, in this case the law is 
clear, the violation is clear, and I applaud the President's actions.
    I believe that the United States and India the world's oldest 
continuous democracy and the world's most populous democracy--still 
have the opportunity for a constructive partnership. Mr. Chairman, I 
thank you for calling today's hearing, and I look forward to the 
testimony and discussions with our witnesses.

    Senator Feinstein. Let me just begin by saying this to both 
of the gentlemen in front of us. I think it is well- known that 
the two riskiest potential nuclear flashpoints in the world 
today are, 1) North Korea and 2) India and Pakistan. North 
Korea is being worked on, I hope successfully. So far, so good.
    Mr. Einhorn, for whom I have a great respect, you have 
briefed me on this situation between India and Pakistan on a 
number of occasions now, and I think it is a fairly foregone 
conclusion to the world that both these countries have nuclear 
capacities and therefore there is extreme danger.
    I, for one, think the President has done the right thing. 
He has moved forcefully. He has moved rapidly. I would like to 
thank him for that.
    I would also like to respectfully suggest that the next 
step ought to be American leadership in the organization of a 
wide international effort at condemnation of this detonation. 
Without it, I am afraid all is lost, because it is my deep 
belief that this is a political kind of nationalistic effort 
more than anything else.
    I am very concerned about what Pakistan might do in 
response and would be hopeful that Pakistan, whose Government 
officials have reassured this country and many of us in 
specific, that they have no nuclear intent and no intent on 
developing these nuclear materials, would certainly show to the 
world that they have not lied to us.
    I think we would urge restraint in the strongest of terms 
and, Mr. Inderfurth, I think in your comments you put it much 
more diplomatically than I would. Pakistan has nothing but to 
gain if they are restrained at this point in time, and this 
comes from one who has been a longstanding friend of India, who 
has tried in my small way to reconcile concerns with prior 
Ambassadors to the two countries related to certain problems.
    This explosion was a major shock and a major jolt to me. I 
do not believe that if the Congress Party were in control this 
would have happened, and so my first question to you is, to 
what degree do you attribute these nuclear tests to the 
domestic political weakness of the BJP Government?
    Mr. Inderfurth. Well, I think whether it be domestic 
political weakness or domestic political strength, the BJP has 
had a long period of time making its way to leading the 
Government in India, which it now is doing with Prime Minister 
Vajpayee, so it has arrived, and I guess it has signaled its 
arrival with these nuclear tests, which is extremely 
regrettable.
    There is no question that the decision to test had a very 
large domestic political content we have also seen in the 
statements, and that is why I wanted to read for you the 
rationale that the Indian Government gave for the testing.
    They see this as their security environment. They point to 
China, which has clearly a much larger nuclear and missile 
capability. They also point to what they refer to as the other 
neighbor, and the concerns it has about its nuclear capability, 
but I think that this was largely a domestic political 
decision.
    The BJP, in statements prior to taking office, had called 
for nuclear testing at times, had called for inducting nuclear 
weapons at times, had called for declaring formal nuclear 
status, so the answer is very much a domestic political 
consideration. We are hoping that the restraint that you said 
we should call for in the strongest possible terms will be 
followed.
    I should tell you that in every meeting that I have 
attended since taking office, in the meeting with the President 
in New York, in the meeting that Secretary Albright had when 
she traveled to India and Pakistan in November, in meetings 
that Under Secretary Pickering has had in pursuing our 
strategic dialog with India, in meetings that we attended with 
Ambassador Richardson, we always talked about nuclear 
restraint, not to move forward in nuclear programs, and with 
the new Government in India we had proposed to both countries a 
strategic pause.
    As you know, there was a Pakistani missile test just a few 
weeks ago. We had been saying, pause. Think about how to 
respond to the new political environment before any further 
actions are taken. Regrettably, that pause was not adhered to.
    Senator Feinstein. Thank you. I have one other quick 
question. I see the yellow light. Let me get it out there.
    In addition to concerns which have been raised about 
India's nuclear weapons potential there has also been concerns 
about its development of advanced ballistic missiles. What is 
your assessment of the capabilities of the Prithvi and Agni 
systems, and what is the status of India's Russian-assisted sea 
launch ballistic missile program? Does this program violate the 
missile technology control regime?
    Mr. Inderfurth. Mr. Einhorn can talk about both Prithvi and 
Agni and the sea-launched.
    Mr. Einhorn. The Indians have a very active ballistic 
missile development program. Its most advanced system is the 
short-range Prithvi. The Prithvi comes in three different 
versions, a short-range Army version, about 150 kilometers in 
range, a longer-range Air Force version, about 250 kilometer 
range, and a sea-based version that the Indian defense minister 
spoke about several weeks ago.
    About 16 flight tests have been carried out of the Prithvi 
missile. We do not assess that the Prithvi is operationally 
deployed. We believe that the units that have been produced are 
still in storage.
    As far as the Agni program is concerned, this started out 
as what the Indians called the technology demonstrator. They 
conducted three flight tests. We would categorize this as a 
medium-range ballistic missile. The last flight test was in 
1994.
    They have not flight-tested since then, but they have 
continued to do developmental work on what they now call the 
Agni-plus, and there have been official statements by the 
Indian Government recently that, especially in the wake of the 
Pakistani medium-range ballistic missile test, that the Indian 
Government would pursue and even accelerate a follow-on to the 
Agni. In other words, they will pursue the Agni-plus program.
    India is also working on submarine-based missiles. There is 
an Indian plan for a nuclear-powered submarine that would carry 
missiles, but the submarine itself is a long way off. It is in 
the development stage, and we do not anticipate operational 
capability for quite some time.
    They are also looking at missiles to be carried on that 
submarine, but those, too, we think are a long way off.
    Mr. Inderfurth. I think you can see, Senator, why I asked 
Mr. Einhorn to join me for this.
    Senator Feinstein. Yes. Thank you. Thank you very much.
    Senator Brownback. Thank you. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman. I also 
have a statement I would like to submit for the record.
    Senator Brownback. Without objection.
    [The prepared statement of Senator Grams follows:]

                  Prepared Statement of Senator Grams

    Mr. Chairman, I share my colleagues' anger and disappointment with 
India's decision to conduct three underground nuclear tests near the 
Pakistani border on Monday--and two more yesterday in the face of 
widespread condemnation. This is obviously a destabilizing development 
for South Asia--India has made it clear that these tests were conducted 
to establish that India has a proven capability for a weaponized 
nuclear program.
    The regional Cold War between India and Pakistan, which up until 
now has involved the development of missiles with increasing ranges, 
could openly escalate to the nuclear realm. The Pakistani Foreign 
Minister has already declared ``a headlong arms race,'' promising that 
his country would keep pace with India ``in all fields.'' But Pakistan 
is not the only country that is directly effected by this latest 
development. India's Defense Minister identified China as the principle 
military threat to his country, and we must ensure China keeps its 
promises and commitments not to transfer nuclear weapons technology to 
Pakistan.
    While the geopolitical ramifications of India's actions must be 
considered, I am particularly concerned about the failure of the 
Administration to detect that these tests were about to occur. It's 
hard to believe that our intelligence services were unable to detect 
the preparations for tests on this scale--not once, but twice. The 
possibility that India would take this path should have been on this 
Administration's radar screen. Pakistan test-fired a missile capable of 
carrying nuclear warheads that it claims has a range of nearly 1,000 
miles. We should have expected that India would counter with such a 
response.
    Both the campaign platform and the stated agenda of the newly 
elected Hindu nationalist party promised to ``exercise the option to 
induct nuclear weapons.'' The nuclear tests were conducted at the same 
site and on the same festival day as India's 1974 test. clearly, this 
had symbolic importance for a nationalist party. Pakistan warned our 
government last month about India's intentions So when a U.S. satellite 
clearly depicted activity last week at the ``wellheads'' where devices 
were ultimately detonated, I find it incredible that our analysts were 
not put on alert, and were asleep in their beds when the tests 
occurred.

    Senator Grams. Thank you very much, gentlemen, for being 
here today. While the geopolitical ramifications of India's 
actions need to be considered, I am particularly concerned 
about the failure of the administration to be able to detect 
that these tests were about to occur.
    I find it hard to believe that our intelligence services 
were unable to detect the preparations for these tests not 
once, but twice. The possibility that India would take this 
path should have been on the administration's radar screen.
    As you mentioned, Mr. Inderfurth, there was a test by 
Pakistan just a couple of weeks ago of a missile with a range 
of nearly 1,000 miles, and maybe we should have expected this 
type of a response. In a letter to the President the Indian 
prime minister stated that China's aid to Pakistan has helped 
Pakistan become a covert nuclear weapons State.
    I do not want to justify the actions by India this week at 
all, but Congress has repeatedly called on the administration 
to address this very concern. Is the administration willing to 
step up to the plate and confront the proliferation of missile 
and nuclear technology to Pakistan as well?
    Mr. Inderfurth. Again, Mr. Einhorn--but I would say that 
only in terms of the possibility of this. We were quite aware 
of the possibility that there would be further steps by both 
Governments in the nuclear missile field. We have been watching 
that very carefully.
    That is why, as I mentioned in the earlier response, we 
have been raising it at every opportunity from the prime 
minister, to the foreign secretaries, to the defense ministers, 
in each of our meetings urging there to be no further steps.
    The fact is, this could get worse, much worse, before it 
gets better. They have not deployed nuclear-capable missiles. 
They have certainly not exported nuclear missile technology 
beyond their borders, India or Pakistan, and so there are a 
number of things which could take place which would make this 
situation even worse than it is today, so we have been 
following it closely.
    We think your questions about what we knew and when are the 
right questions. I am afraid you have the wrong witnesses to 
answer those questions, but I am sure you will pursue that.
    But I would like Mr. Einhorn to say about the other 
question.
    Mr. Einhorn. Senator, the reality is that there is a lot of 
momentum in the strategic programs, including the ballistic 
missile programs of both India and Pakistan. I think it would 
be in the interests of both of those countries to curb this 
momentum and to put a lid on these strategic capabilities.
    In terms of the U.S. effort, as Ambassador Inderfurth has 
pointed out, we put a very high priority in trying to promote 
restraint in the ballistic missile capabilities of both sides, 
and I can say without fear of contradiction I believe that if 
it had not been for the persistent efforts of the U.S. 
Governments these missile programs would be much farther 
advanced than they are now. I would suspect we would see 
missiles operationally deployed today.
    Because of U.S. efforts with other supplier Governments, 
our multilateral efforts to constrain the export of missile 
technology, we believe we have managed to inhibit these 
programs because to varying degrees they depend on external 
sources of supply, the Pakistani program more than the Indian 
program.
    Senator Grams. Despite the sanctions by the U.S. and world 
condemnation, it appears both countries, Pakistan and India, 
feel that it is in their best interest to continue to move 
forward with these type of programs. Mr. Inderfurth, you 
mentioned that the President placed a personal call to 
Pakistan. Aside from threatening to impose the sanctions on 
Pakistan that are now being applied to India, is there anything 
else the administration is doing now to convince Pakistan that 
it is not in its best interests to continue to pursue or 
escalate its nuclear program?
    Mr. Inderfurth. I mentioned the President offered to send a 
high level delegation to Pakistan, which will depart this 
evening. I think we have to try to make our way through the 
next several days in terms of a possible Pakistani response and 
to see where we are.
    We will make the point that a test by Pakistan will bring 
about the same sanctions on Pakistan that we have now placed on 
India and, quite frankly, because of the already existing 
Pressler amendment sanctions on Pakistan, these will be very, 
very significant for Pakistan to have these sanctions placed 
upon that country.
    So we also--as I mentioned, we are working with others at 
the United Nations and the G-8 as well as going out to other 
capitals to see what can be done. We think right now the 
international community is responding in a very unified fashion 
to this. We want to see, as I think everyone wants to see, not 
only words but actions. I think that is our primary focus.
    The more fundamental issue is, why are they pursuing these 
programs, which we in the international community find to be so 
mistaken? It is because of their history.
    It is because of 50 years of hostility going back--and this 
is the fiftieth anniversary of both countries. One only has to 
read about those early days of partition, what happened there, 
and the lingering historical problems that that has created, to 
understand something of why they feel compelled to move ahead 
in these programs, including for India with the Chinese 
program.
    It is through those countries resolving their differences 
themselves and lowering their own view of the threat that they 
pose to each other that we will see a rolling back and 
hopefully an elimination of their nuclear and missile 
capabilities.
    Senator Grams. Mr. Chairman, I have just a parting comment 
about the bilateral sanctions. I think it is very important 
that we get our allies or other world members to condemn this 
as well. Is that something the administration also is working 
on very hard right now?
    Mr. Inderfurth. We are very much working on--in our 
discussions with other Governments either bilaterally or 
multilaterally we are working in that direction.
    But I will also tell you, as a case study in sanctions, 
there are 28 F-16's that are still sitting out in the desert 
which have gone nowhere that have already been paid for by the 
Pakistani Government and, despite their feeling that they have 
fallen further and further behind on the conventional side, 
they will not budge on their nuclear program to see those 
aircraft released.
    So sanctions can work to a point, but national security 
considerations by countries will often override even the 
harshest of sanctions.
    Senator Brownback. Senator Biden.
    Senator Biden. Thank you very much. Gentlemen, let me begin 
where you just left off, Mr. Secretary.
    You said until the mutual threat is perceived to have 
diminished, you are not likely to see a rolling back of any of 
these programs. I think that is what you said, the essence of 
what you said. I think you are right, if that is what you said. 
If you did not say it, you should have said it. It is a good 
idea.
    Mr. Inderfurth. We said we can have some impact.
    Senator Biden. I agree with you completely, and I would 
like to ask unanimous consent, Mr. Chairman, that my opening 
statement be placed in the record, if I may.
    Senator Brownback. Without objection.
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Mr. Chairman, this has not been a good week for nonproliferation. 
India's five nuclear detonations have reminded us in the most dramatic 
terms of the continuing perils of nuclear weapons proliferation.
    One would have hoped that the international outcry after Monday's 
tests would have convinced the Indian government to behave more 
responsibly. Instead, India has effectively thumbed its nose at the 
international community by conducting two additional tests this 
morning.
    These tests are sure to alter fundamentally the U.S.-India 
relationship which had begun to blossom in recent years after a lengthy 
chill.
    It is difficult to see what benefits India derives from its 
irresponsible actions.
    As required by law, the President has imposed sweeping sanctions on 
India. Other important donor nations such as Japan and Germany have 
also taken punitive economic steps.
    These measures and others promise to set back an economy that has 
only recently begun to show signs of improvement.
    India's claim to global leadership and its bid for a United Nations 
Security Council seat will certainly suffer because of an act that so 
clearly violates an international norm.
    If India thought that demonstrating its nuclear know-how would 
enhance its prestige, it thought wrong. These tests have stained 
India's reputation as a responsible member of the international 
community.
    It seems, Mr. Chairman, that a weak, minority government in India 
has thrown good international citizenship by the wayside for the narrow 
calculations of domestic political advantage.
    Mr. Chairman, let me outline a series of steps that I think are 
important at this point.
    First, preventing a Pakistani test should be our top priority. 
Pakistan faces enormous domestic pressure to respond in-kind. I commend 
the President for engaging Pakistan at the highest levels.
    The imposition of sanctions on India should be seen as an important 
signal to Pakistan. But disincentives may not be enough for a country 
that is already under a stiff sanctions regime for its own nuclear 
weapons activities. It may also be necessary to consider extending 
security assurances to Pakistan in order to dissuade it from conducting 
its own tests.
    Second, we need to coordinate our actions with key donor countries 
and step up the pressure so that India will cease and desist from 
further testing. If India is truly committed to promoting international 
security it should immediately and unconditionally sign the 
Comprehensive Test Ban Treaty and the Nuclear Non-Proliferation Treaty.
    Third, we should talk to China to ease any anxiety in Beijing. 
Recent comments by India's Defense Minister that China was his 
country's number one security threat created tensions between the two 
Asian giants. It is vital for Asian security that Sino-Indian relations 
not deteriorate.
    Fourth, we should step up our efforts to curtail missile 
development in South Asia.
    Fifth, and finally, we need to increase diplomacy to address the 
underlying sources of tension in South Asia.
    Mr. Chairman, in spite of our justifiable outrage at this moment, I 
think it is important to keep in mind our long-term strategic 
interests. We also need to make distinctions. Despite its grave 
miscalculation this week, India is not a rogue state. It is not a 
Libya, a North Korea, or an Iraq. It is the world's largest democracy 
and it is a country with which we share much in common.
    It is a country with which we should have good relations. But these 
tests will make a better relationship much more difficult.
    India should pay a steep price for its irresponsible acts, lest we 
encourage others to follow the Indian example.
    But a nation of India's size, importance, and stature cannot be 
isolated forever. We will have to engage India. India can hasten that, 
but only if it undoes some of the damage it has done. It can do that by 
signing the Comprehensive Test Ban Treaty and the Nuclear Non-
Proliferation Treaty immediately and without conditions.
    Finally, Mr. Chairman let me conclude by echoing comments President 
Clinton made this morning in Germany. India did not need to conduct 
these tests in order to be considered a great country. It already is.
    I only hope that it realizes this soon and comes to its senses.

    Senator Biden. This is a big problem, and big problems 
require big ideas, and we need a new idea. I support sanctions. 
I think they are the only alternative available at the moment, 
but you do not have to be--no pun intended--a rocket scientist 
here to figure out that you can trace India's nuclear program 
back to getting drubbed and humiliated in 1962 by China.
    You do not have to be a rocket scientist to understand 
Pakistan's lack of confidence when it is out numbered 100 
million to a billion, roughly, in terms of population.
    All you have to be is a plain old politician, an honest 
politician in the Democratic or Republican Party of the United 
States, to understand that when you have a real problem of 
putting together a majority, the one thing that unifies a 
country, that moves you from a minority position to a majority 
mode, is to do something that your whole country is going to 
rally around.
    I do not think you have to be real smart to figure out what 
that is. That may not have been the objective, but I would be 
dumbfounded if that was not the objective. They are dumber 
politicians than in most countries if that was not the 
rationale, because why would you risk going from being a good 
international neighbor to being a temporary and maybe long-term 
pariah? Well, the answer is real simple: solidification of your 
political position at home.
    I do not know many international leaders who have concluded 
that it is better to lose support at home in order to gain the 
international recognition, rather than have it at home, even if 
it is against your long-term interest. We have even seen that 
in America once in a while.
    So that all leads me to a couple of questions that I have 
not resolved in my own mind because, to be honest with you, I 
have been thinking in the traditional box that we have been 
operating in, in terms of how we deal with India, Pakistan, 
China, actually South Asia generally.
    Afterall, it has always kind of worked. There is a whole 
fiction associated with all of this. It is what we don't want 
to acknowledge, that there are those other countries that have 
nuclear capability. We all know they have it, but if they 
acknowledge it and we bring them in, then somehow we are 
encouraging other folks, the argument goes, to think they need 
not pay a price for seeking nuclear capacity and capability. We 
already know the countries that have the nuclear capacity and 
capability. We can name the countries.
    So I have two questions. Actually, three, and you might not 
get a chance to answer all three. The first one is, has there 
been any discussion--I am sure there has been no decision--
about whether or not there is a way in which the international 
community, we being part of it, could essentially become some 
form of a guarantor for Pakistani security in return for them 
acting appropriately from our perspective--that is, not 
testing, not matching, not dealing with India's tests? The 
irony is that Senator Helms, I think, has been right about 
this, although I think he is wrong on the test ban treaty, by 
pointing out he was one of the ones hollering the longest and 
loudest about China's sale of M-9 and M-11 technology to 
Pakistan. I cannot believe that has not significantly impacted 
upon the attitude in India about whether or not they should be 
doing what they are doing now. I think China is the bigger 
deal, but I cannot believe this does not feed on concern over 
Pakistan, and there has got to be something to a tourniquet 
here. Has anyone thought about or discussed the possibility of 
guarantee for Pakistani security relative to India? Now, 
granted, that then raises guarantees to India against China, 
but Pakistan is where we are now.
    The second question, and maybe you can answer them all at 
the same time, is that one of the most imaginative guys I ever 
served with is a guy who is going to testify next, Mr. Solarz, 
and he is going to make a proposal, as I understand it, that 
essentially says, hey, look, we know who they are. Let us bring 
them in.
    Now, regarding various countries, in this case particularly 
Pakistan and India, we could bring them both in, get them to 
sign the test ban treaty, get them to sign the nuclear 
nonproliferation treaty, acknowledge them as nuclear powers, 
and lock it down and be done with it, because South Asia is a 
particularly unique circumstance.
    You may not want to answer either of those, because I 
realize this is pretty short notice, but do you have any 
thoughts, even if there is no discussion now? What do you think 
about those two notions? I have not made up my mind on them, 
but it seems like we have got to move out of the traditional 
box here to figure out how to deal with this.
    Mr. Inderfurth. Senator, I think we do have to move out of 
the traditional box. Quite frankly, we have tried that in a 
traditional way, if you will, over the last several months by 
trying to place our concerns about nuclear and missile 
competition in the context of our broader relationship, tried 
to make it clear that the United States has an interest in the 
region that goes beyond the fact that they have fought three 
wars and the fact that they have a nuclear capability.
    We have been trying to focus on the economic dimension to 
the relationship. With economic reforms in India in 1991, this 
country is one of the big emerging markets.
    Senator Biden. Beyond that, India is not China. It is a 
democracy. This is a country that in the middle of the next 
century is going to have a larger population than China if the 
rates continue.
    Mr. Inderfurth. And that is precisely why we have wanted to 
establish a new relationship with India so they did not think 
that the only thing we talked to them about was their nuclear 
missile program, so we have tried to place in the context of 
all of these things, hoping that they would almost sort of have 
a drag effect, if you know auto racing, pulling things along.
    We are now at a point that has not been a productive 
approach with Pakistan. We also want to broaden that 
relationship. With the end of the cold war and the end of the 
Soviet occupation of Afghanistan we are trying to build a 
relationship with Pakistan for the future that is not going to 
be the one we had in the past, but we need new ideas, because 
quite frankly they keep coming back.
    We are now back in that box. We are now back in the 
traditional box, and whether it be guarantees for Pakistani 
security, or whether it be items that Congressman Solarz has 
talked to me about as well, about bringing them in, these are 
things that we I think will have to look at, because I also do 
not believe that sanctions in and of themselves will bring 
these countries around where we would like them to be. They are 
necessary, but I do not believe they will be sufficient for 
that purpose.
    Senator Biden. As a technical point, the test ban treaty 
does not speak to whether a country is nuclear or not, and were 
India to agree to cease further testing, it seems to me, all by 
itself, that would be a good idea, and so I disagree with 
Senator Helms about the test ban treaty.
    Mr. Einhorn. Senator Biden, that would be a good idea, also 
agreeing on a commitment not to produce more unsafeguarded 
nuclear material, so-called fissile material. Cutoff would be a 
good idea, even though it does not go all the way in giving up 
these nuclear options.
    Let me just say, the traditional approaches to 
nonproliferation in South Asia have helped. They have slowed 
things down. They have complicated these programs.
    Senator Biden. I am not criticizing.
    Mr. Einhorn. I accept the premise, though, that these 
traditional approaches have not succeeded. Clearly, this week 
demonstrates they have not succeeded. We need to think outside 
the box.
    On the two ideas you mentioned, the first one I am not 
going to comment on much, the question of security guarantees 
to countries in South Asia. You all have come through a debate 
on the expansion of the North Atlantic Alliance, where solemn 
guarantees were extended. This is always a tricky matter.
    Senator Biden. I agree. It is a big deal.
    Mr. Einhorn. It takes a lot of careful thought.
    On the more specific question, I have not seen Congressman 
Solarz' suggestion. You mentioned, I think, what if----
    Senator Biden. On what subject? [Laughter.]
    Senator Brownback. If we could, we are going to need to 
wrap this up. Senator Feinstein has one final question and 
quite an excellent resolution that I would recommend for a lot 
of Members to look at that I am cosponsoring on this issue.
    And if we could, then I would like to go to the next panel.
    Senator Feinstein. Just a final question that I did not get 
an answer to was when I was talking about the missile programs 
and you mentioned the submarine sea launch program. Do any of 
these programs violate the MTCR?
    Mr. Einhorn. The programs themselves do not violate the 
MTCR, which has to do with importing or exporting goods and 
technology. The question is whether any of the transactions 
themselves have to do with it. For India, most of these 
programs really are indigenous, very little outside assistance 
at this stage.
    We have raised questions about Russian cooperation, the 
cooperation of certain Russian entities with the submarine 
missile.
    Senator Feinstein. Yes. This would be the one, the Russian 
contributions to these programs.
    Mr. Einhorn. This is what we are exploring. We are 
exploring that now with the Russian Government. As you know, we 
have been dealing with the Russians on missile technology 
exports to Iran on a very intensive basis, but we also need to 
talk about India.
    Senator Feinstein. Thank you very much.
    Senator Brownback. Thank you very much, and we may have 
some additional written questions. We would appreciate it if 
you could get back to us in a timely fashion, and any 
statements any people want to put in will be included in the 
record as well for the witnesses that testified.
    I would particularly be interested in some of the dual use 
technology that has flowed to India recently, in looking at 
that, and also further into the future use of dual use 
technology.
    So I thank the panel very much. I appreciate you coming 
here.
    I thank the panel. I am sure we will have further 
discussions.

  Response to Additional Question Submitted for the Record by Senator 
                     Thomas to Secretary Inderfurth

    Question. One of the functions of the Indo-U.S. Economic 
Subcommission, chaired on the U.S. side by Undersecretary Eizenstat, is 
to address major policy issues that affect the bilateral realtionship. 
In this regard, what steps is the State Department considering in 
response to the two and one half year Indian embargo on U.S. soda ash, 
one of this country's largest chemical exports.
    The September, 1996, Monopolies and Restrictive Trade Practices 
Commission injunction, which was requested by India's monopolistic soda 
ash producers, remains in place. This highly protectionist and 
anticompetitive action was taken by the local producers shortly after 
the Indian Government reduced the import tariff on soda ash and after 
one U.S. shipment entered the country. If the Commission's action isn't 
onverturned, not only will tens of millions of dollars in U.S. soda ash 
exports be lost but other Indian industries will see this as a 
successful blueprint for circumventing new trade liberalization reforms 
to keep out U.S. goods.
    Answer. Following the decision by the Government of India in May, 
1998, to test nuclear devices, the U.S. government implemented 
Congressionally-mandated seanctions affecting our bilateral exonomic 
relationship. The sanctionsresulted in indefinite postponement of the 
next meeting of the Indo-U.S. Subcommission of Economic and Commercial 
Affairs which had been planned for July, 1998, in New Delhi.
    The Departments of State and Commerce and the Office of the U.S. 
Trade Representative have and will continue to place the resolution of 
the soda ash embargo at the top of our trade agenda notwithstanding 
India's decision to test and the resulting change in our economic and 
commercial relations. Most recently, Ambassador Celeste met with Indian 
Minister of Industry Sikander Bakht on June 22 and forcefully raised 
the soda ash issue. In a May 29, 1998 letter to Indian Minister of 
Commerce Hegde, Ambassador Barshefsky stated that ``the facts in the 
Soda Ash case demonstrate forcefully that there is no basis for the 
Indian industry allegation of predatory pricing or for the Indian 
Monopolies and Restrictive Trade Practices Commission (MRTPC) 
injunction, and that the Indian producers have sought this avenue of 
restriction in the absence of being able to quialify for WTO-compatible 
relief * * * I request your assistance in obtaining immediate relief 
from the preliminary injunction and expeditious and objective review by 
the MRTPC of the facts of the American Natural Soda Ash Corporation 
petition.''

    I now call up the next panel: the Hon. James Woolsey, 
former Director, Central Intelligence Agency. The second 
presenter will be Dr. Fred Ikle, former Director, U.S. Arms 
Control and Disarmament Agency. And the final witness will be 
the Hon. Stephen J. Solarz, the former U.S. representative from 
New York and the former Chairman of the Subcommittee on Asian 
and Pacific Affairs for the House Committee on Foreign Affairs.
    Gentlemen, we very much appreciate you joining us today. 
What I will do is I think run a time clock on 7 minutes, if you 
do not mind, so that you can see how much time you have got 
pending up here. I will not hold you too much to it, but do not 
push me too much either, if you would not mind, so that we 
could have your testimony and then go to a series of questions.
    I appreciate you joining us on such short notice, Mr. 
Woolsey.

    STATEMENT OF R. JAMES WOOLSEY, FORMER DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you, Mr. Chairman. And I appreciate the 
opportunity. If it is all right, I will, for the second time 
this spring, speak extemporaneously under the circumstances.
    Senator Brownback. That would be fine.
    Mr. Woolsey. There are two points to make, I think, with 
respect to the Indian test. First, their substantive effect; 
and, second, the issue about warning and the role of 
intelligence.
    With respect to the substantive effect, clearly this was a 
major and very negative development. Mr. Chairman, your opening 
statement, I think, said it well in addressing the key issues. 
It pushes the world toward proliferation and toward an arms 
race in South Asia. I am glad that the President promptly 
invoked sanctions.
    We have been treated for some decades now to Indian 
Government officials and diplomats dining out by striking very 
moralistic stances with respect to the United States and a 
number of other countries on weapons issues. And I believe that 
memory, plus the fact that the world really expects something 
better from Mahatma Gandhi's nation, adds a certain particular 
poignancy and feeling of betrayal, essentially, to the world's 
reaction to what India has done here.
    Clearly, the impact on Pakistan and its possible move 
toward nuclear testing is salient. My own view is that Iraq and 
North Korea are likely to do whatever they are going to do 
anyway and are not too likely to be affected by this. Over the 
long run, Iran, however, may learn some lessons about how to 
move into the nuclear club from India's tactics. And all of 
these effects are ones that we should be concerned about.
    The Speaker of the House appointed me to a commission 
chaired by Don Rumsfeld that reports in July on ballistic 
missile threats to the United States. And I am sure the issues 
that are raised by these Indian tests, as well as the many 
other things we are studying, will be more fully explained to 
the Congress then. But it is, I think, important to note, as 
the Wall Street Journal did today, that India was, in this 
matter, taking a leaf from the book that was written by France 
and China in 1995 and 1996. This did not come out of nowhere.
    Ultimately, one of the serious problems, I believe, is 
going to be the encouragement, directly and indirectly, of 
other countries to move in the nuclear direction. That means 
more fissionable material in the world. That means the 
possibility of nations and also terrorist groups finding it 
easier to get their hands on nuclear materials for weapons.
    Part of the lesson here, I think, for the United States is 
that to some extent weakness begets weakness. We have not taken 
a strong stance up until the last two days or so with respect 
to Indian proliferation, just as we have, I think, been too 
weak with respect to dealing with Russia's aid to Iran, China's 
aid to Pakistan, and others. And we signed on to an agreement 
with North Korea that, although on balance probably was the 
best we could have done, nonetheless led many in the world to 
believe that a vigorous nuclear program could get you some 
substantial benefits from the West.
    I have testified before, before you, Mr. Chairman, on what 
I have termed our flaccid and feckless policy toward Iraq since 
1991, and I will not burden these hearings with any further 
description of that.
    So, substantively, I think we have a very negative 
development. Part of it we can understand from South Asian 
history. Part of it we can understand from some of our own 
steps over the course of the last several years.
    Let me turn to the issue of warning and the role of the 
intelligence community about this particular event. You should 
always divide warning into two parts. Fred Ikle will talk about 
it in terms of strategic and tactical. One could talk about it 
in terms of long term and short term. But long-term or 
strategic warning is often given in rather vague indications, 
which look clear when you look back with 20/20 hindsight. But, 
nonetheless, if you assess it accurately, when you think you 
should have had strategic warning events should have put you at 
least on notice that something was likely to happen.
    Here--and I want to stress this--the elements of strategic 
warning with respect to what this Indian Government might do 
were not matters of subtlety, not matters only available to the 
intelligence community. Insofar as there has been a failure of 
the U.S. Government or anyone else to understand what direction 
the BJP might take, it is a failure of academics, of think 
tanks, of the press--if I may say so--of the Congress, of the 
executive branch as a whole, and is not just an intelligence 
failure, per se.
    The BJP has a platform which quite clearly issued a blast 
at what they called nuclear apartheid. When Mr. Vajpayee was 
Prime Minister-designate in mid-March he stated publicly that 
he was not at all worried about American annoyance about 
nuclear proliferation. The Economist magazine, one of my 
favorites, on March 28th ran a lead article on India as a 
nuclear power, and included the following:

    What cause would be served by setting off a nuclear chain 
reaction? The answer lies in the weakness of India's 
Government. The new coalition will be fractious. With the 
nuclear issues popular with voters, proud of India's 
technological prowess, building nuclear weapons could be one of 
the few policies the coalition can agree on, and thus the 
easiest way for the BJP to trumpet its Hindu nationalist pride.

    Another issue which should have given us all some strategic 
warning is that the Indian Government has for many months, back 
before the BJP became the governing party, been maintaining 
their nuclear weapons test facility in a very high state of 
readiness. They probably learned--in late 1995, early 1996, 
when we protested--what we knew about their test program, and 
decided to bring the test range up to a state such that they 
could test with very, very little advance warning.
    They probably learned something about our own 
reconnaissance satellite capabilities by the way in which we 
delivered our demarche. This often happens. I have had 
demarches delivered over my objections when I was DCI. And, if 
I am to be fully honest about this, I would have to admit that 
I have delivered remonstrances to Soviet diplomats when I was 
an arms control negotiator that disclosed indirectly 
information from reconnaissance satellites; I did this when 
Washington approved it, but I knew there was a debate in 
Washington about whether or not it was a good idea. So I have 
been on both sides of this argument. It is a natural tension.
    But it is important to realize that insofar as we go around 
delivering demarches to the world on what they should and 
should not do, almost always the information comes from 
intelligence, and it therefore reveals something about 
intelligence sources and methods. It is also, I think, clear 
that over the course of the last several years, beginning in 
the late 1980's, the beginning of the nineties, we have been 
through inflation, principally, cutting the intelligence budget 
substantially.
    I said when I was DCI that the number of reconnaissance 
satellites were unfortunately going to have to be cut in about 
half during the 1990's. I had many debates with Senator 
Shelby's predecessor once removed, Senator DeConcini, about 
cuts in reconnaissance satellite programs, which I did not 
believe were wise. And reconnaissance satellites are a bit like 
aircraft carriers. No matter how capable they are, if you go 
from a large number to a small number, no one of them can be in 
two places at once.
    So, the fact that the intelligence community did not detect 
the immediate event within a day or so of--when the Indians 
were probably giving some type of last-minute indication that 
they were going to do something on the range--I think should 
not be particularly surprising. It is unfortunate, but we all 
had some degree of strategic warning. If the intelligence 
community had been tweaked to be watching specifically that 
test range, day in, day out, 24 hours a day, they might have 
given the government another day or so of warning.
    My hunch is that would not have been enough time for the 
United States to have dissuaded the BJP from the course of 
action it was embarked on, certainly given the strength of its 
position. It would have prevented a lot of people in Washington 
from being embarrassed by having the announcement made by India 
rather than by the U.S. Government, but that is a somewhat 
different matter.
    Let me close, Mr. Chairman--I know I am over time--with one 
point that I know was of interest to Senator Helms. With 
respect to these two most recent tests announced by the Indians 
to be of sub-kiloton yield, it is important to realize that 
once one gets down in the range of a kiloton, and certainly 
below, the capacity to verify detonations from afar is limited 
in the extreme--almost, I would say, to the vanishing point, 
particularly if those detonations underground are isolated from 
the Earth by taking place in caverns, either natural or 
artificial--as it is called ``decoupled'' from the surrounding 
geology.
    Under those circumstances, seismic signals are really 
virtually nonexistent that could distinguish these types of 
low-yield detonations from normal seismic events. Consequently, 
as one is thinking about a comprehensive test ban treaty with 
an absolutely zero yield limitation--not a ton, not 20 tons, 
not 100 tons, but zero nuclear yield is permissible under the 
CTBT as negotiated--one has to realize that law-abiding nations 
will of course, if they sign and ratify it, go along with it 
and behave themselves under such a regime. But nations that are 
willing to cut corners, whether it is India or any others, in 
my judgment, would probably find it quite easy to have sub-
kiloton-yield detonations in secret, even after they have 
signed a CTBT.
    So if that should occur at some time in the future, I would 
simply like to suggest to the committee that the cause will not 
be an intelligence failure.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Mr. Woolsey. And I 
look forward to some good questioning. And thank you for your 
statement, and on short notice. Dr. Ikle, thank you for joining 
us.

STATEMENT OF FRED C. IKLE, PH.D., FORMER DIRECTOR, ARMS CONTROL 
                     AND DISARMAMENT AGENCY

    Dr. Ikle. Thank you, Mr. Chairman, for inviting me.
    I would like to draw some lessons from this experience we 
are talking about today. My first one relates to intelligence. 
I think Mr. Woolsey made the point so well I shall skip over 
that essentially to save time, except to put down the other 
side of the coin of strategic intelligence. As we gnash our 
teeth and castigate the poor intelligence community for not 
having given us tactical warning to make us feel better, we 
should remind ourselves--Congress, the public--that we have a 
lot of strategic warning about things for which we are not 
making the effort properly to prepare ourselves.
    What comes to mind here, just to mention one example, is 
the many warnings about the loose nukes, the tens of thousands 
of nuclear weapons, inherited from the Soviet Union, in various 
areas, which may be stolen, diverted, get on a journey by a 
ship or airplane, with the destination of this country, reach 
this destination. Here is something to which we are woefully 
unprepared.
    But let me move on--the rest Mr. Woolsey said much better 
than I could--let me move on to the second lesson learned. And 
that is the inseparable entanglement of military and peaceful 
uses of nearly all important technologies. High-powered 
computers can be used for improving nuclear weapons or for 
predicting the weather, plutonium to fuel reactors or to make 
nuclear weapons. And there is ample evidence in the case we are 
discussing today that India's nuclear weapons capability was 
accelerated and enhanced by the assistance India received since 
the 1950's which was intended for peaceful purposes--assistance 
from Canada, the United States, Great Britain, and other 
countries.
    Now, in our lawyerly fashion, we usually ask the nations to 
whom we give assistance, technological assistance intended for 
peaceful purposes, to sign a promise that they will not use it 
for weapons. And sometimes we even try to add an elaborate 
verification system. But now, some 30 years later, we should be 
wiser and should have realized that this can easily be 
circumvented.
    One of the clearest recent examples of course is North 
Korea, which had an IAEA inspection, but they simply shoved the 
IAEA inspectors aside; or Iraq, before the Gulf War, which got 
a clean bill of health from the IAEA inspection. (The IAEA is 
the International Atomic Energy Agency.) And this lesson will 
be particularly serious for biological technology, where the 
peaceful and the weapons applications are even more 
inextricably intertwined, back in the laboratory.
    So let us absorb this lesson. But somehow with a triumph of 
hope over experience, we keep perpetrating the same mistake. In 
his State of the Union Address this year, President Clinton 
told Congress that he is seeking a treaty to verify the 
existing ban on biological weapons, and thus ``enforce'' the 
ban. But the administration's proposal provides for no 
enforcement whatsoever. It provides for an elaborate 
verification scheme, which every competent scientist will tell 
you cannot work. So, that is going down a blind alley at best.
    And this leads into the third lesson relevant for today, 
that the global spread of technology is a force so powerful, so 
elemental, that it cannot be stopped with dikes and dams made 
of the parchment of arms control treaties. To be sure, 
sometimes these treaties can keep the good intentions on the 
right track. But they can also be bypassed, even by relatively 
friendly nations, as is the case with India with the peaceful 
assistance it got on nuclear reactors, or with impunity almost 
openly by dictators.
    Let us remember again what happened not too long ago with 
North Korea. After they violated the Nonproliferation Treaty 
that that country has signed, it got rewarded with the gift of 
oil deliveries--and Congress is being asked this week, I think, 
to make the appropriations for the reward to North Korea--and 
with a gift of two reactors, costing billions, for which we put 
pressure on our allies to put up the money.
    And this leads to my last point, the lessons we ought to 
teach, not the lessons we ought to learn. If halting nuclear 
proliferation is really so high on our priority, as the 
language here in Washington seems to suggest, then we should 
seek to convince other countries that acquiring nuclear weapons 
will cost more than it is worth. Instead, we often purchase 
ambiguous promises from these countries for which we then pay 
with handsome gifts. I mentioned the Korea example.
    Now, I had made a prediction--and I wrote this in my 
written testimony last night--that was a bit more pessimistic 
than what Assistant Secretary Inderfurth mentioned today that 
tentatively may promise a more effective response. But let me 
give you the pessimistic prediction if the more effective 
response does not materialize, which is quite possible because 
our allies, our close allies, will not support us in the 
sanctions, particularly in the World Bank, where it would 
count.
    I think then we will be under pressure to minimize the 
economic sanctions. And I think Congress will be under 
pressure. I would not be surprised if some of you, when you go 
back to your office, already find lobbyists saying that we 
should not be too harsh, it would hurt exports, it would hurt 
business in your district. And the President has announced, of 
course, as we heard, that he will try to induce India to sign 
the Comprehensive Test Ban Treaty. There is some differences 
about the language. I could easily foresee some compromise will 
be reached with New Delhi, and that the compromise will be 
sweetened with the promise of then resuming U.S. technical 
assistance, computer sales, aid, and get the Test Ban signed 
with India and this will be presented by the spin masters as a 
great victory in nonproliferation.
    Now, if this happened, what will we have taught Pakistan 
and Iran and other countries?
    We will have taught them: ``go ahead, carefully design a 
series of five or seven tests, accept the American tongue 
lashing, let it roll off your back; then sign on to the 
Comprehensive Test Ban; then hold out the tin cup for more aid 
from the Japanese, from the Europeans, from the Americans 
again; and by signing the Comprehensive Test Ban you are then a 
member in good standing in the international nonproliferation 
community and you will not be prevented from building a large 
nuclear arsenal with the weapons that you had just tested.''
    Now, maybe the fissile material restriction that Mr. 
Einhorn mentioned would make a difference here. But maybe, 
again, it would not. These materials are good for peaceful as 
well as for military purposes. And you again get back into the 
problem of that hard to define dividing line.
    Well, that is a pessimistic prediction. Let me close with a 
more positive note. Since the beginning of the nuclear age more 
than 50 years ago, the United States policy has been to fight 
against nuclear proliferation, in our own interests of course. 
And it can be said with all our hindsight that we have 
succeeded--we the United States--in slowing down the spread of 
nuclear weapons significantly. Each administration has 
contributed some successes and some mistakes to this long-term 
policy.
    I think if we can learn from our mistakes, stop repeating 
them, we will be more successful in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Ikle follows:]

                   Prepared Statement of Fred C. Ikle

The Lessons from India's Nuclear Tests
    Mr. Chairman, we have important lessons to learn from India's most 
recent series of nuclear weapons tests.
    The first lesson is about our intelligence capability--or rather, 
about our expectations that our fine intelligence services are so 
omniscient that the United States will not have to wake up to 
unpleasant surprises from time to time. To be sure, I agree with the 
deep concern expressed by Senator Richard Shelby and other members of 
Congress that in this instance we did not take advantage of long-term 
strategic warning to use our capabilities for timely tactical warning. 
But that is an old story, it goes back to Pearl Harbor.
    A more important aspect of the intelligence lesson, I believe, is 
our difficulty to respond to strategic warning, not necessarily by 
trying to prevent every untoward happening--we are not so omnipotent--
but by being prepared to cope with the calamity when it occurs. We now 
have strategic warning, plenty of it, that among the tens of thousands 
of nuclear weapons left behind by the former Soviet Union, one (or 
more) might be diverted by theft, by accident, or a combination of 
mishaps, and then begin a journey--by ship, by airplane, or other 
means--that ends in our country. We do have the strategic warning now! 
But we are woefully unprepared. Likewise, for similar warnings about 
biological weapons.
    Our reliance on precise intelligence warnings must not become an 
excuse for being unprepared should the feared event, one morning, come 
as a surprise.
    The second lesson to be learned, or re-learned, Mr. Chairman, is 
the inseparable entanglement of military and peaceful uses of nearly 
all important technologies. Highpower computers can be used for weather 
predictions, medical research--and to perfect nuclear weapons. 
Plutonium can be used to fuel nuclear reactors and to build bombs. 
There is ample evidence that India's nuclear weapons capability was 
greatly accelerated enhanced by the assistance on ``peaceful'' nuclear 
technology that India received since the 1950s from Canada, the United 
States, and other countries. (This is not to belittle the great 
competence of Indian scientists and engineers).
    In typical American lawyerly fashion, we ask the nations to whom we 
sell or donate these technologies to sign a piece of paper promising 
they won't divert the technology to make weapons. With countries that 
are truly determined to misuse the technology, the piece of paper will 
not help much. And elaborate international inspection regimes to back 
up such promises can always be circumvented, especially by the most 
dangerous and secretive regimes like Iraq and North Korea, but even by 
an open democracy--as we discovered in 1974 when India exploded a 
nuclear bomb it called ``peaceful.''
    This lesson is particularly serious for biological technology, 
where the most beneficial peaceful uses and the most evil weapons uses 
are much more intertwined than in nuclear technology. Yet, with a 
triumph of hope over experience, we keep repeating the same mistake. In 
this year's State of the Union address, President Clinton told Congress 
that he is seeking a treaty to verify the existing ban on biological 
weapons and thus to ``enforce'' the ban. The Clinton Administration's 
proposal here provides for no enforcement whatsoever, and the 
verification envisaged--every competent scientist will tell you--cannot 
work.
    This leads to the third lesson, that the global spread of 
technology is a force far too powerful, too elemental, to be stopped 
with dikes and dams built with the parchment of arms control treaties. 
Sometimes these treaties help to reinforce and keep on track good 
intentions. But they can be by-passed even by relatively friendly 
countries, and can be violated--usually with impunity--by 
dictatorships. We did not punish North Korea for violating the Non-
Proliferation Treaty it had signed. The Clinton Administration rewarded 
North Korea with the gift of oil deliveries (which Congress is being 
asked to pay for) and with the gift of two new nuclear reactors (which 
the Administration presses our allies to pay for).
    Now my last point--the lessons we ought to teach. If halting 
nuclear proliferation was as high a priority for the United States as 
the talk and complaining here in town pretends, the United States would 
seek to convince other countries intent on nuclear arms that acquiring 
these arms costs more than it is worth. Instead we purchase ambiguous 
promises from these countries by offering handsome gifts. We purchased 
an ambiguous promise from North Korea to halt their illicit bomb 
program with the billion dollar gifts I just mentioned. My prediction, 
Mr. Chairman, is that we will do the same for India. The Administration 
will seek to minimize the impact of the economic sanctions (mandated in 
1994 by Congress); and Congress will come under fierce pressure from 
the business community to wink and to blink. The President, as he has 
already announced, will try to cajole India into signing the 
Comprehensive Test Ban Treaty. Perhaps some compromise in the treaty 
language will be offered to New Delhi; a compromise sweetened with new 
US computer sales to India, more US technical assistance, more aid. And 
when this treaty is signed by India, it will be presented by the White 
House press office as a victory over proliferation.
    And, by the way, we will have taught a lesson to Pakistan, to Iran, 
to every aspirant for building some nuclear bombs. Go ahead! Carefully 
design a series of five or seven tests and let the American tongue-
lashing roll over you. Then sign the Comprehensive Test Ban. Hold out 
the tin cup for US aid, Japanese aid, European aid; and make the 
donations pile in by going along with the charade that this Test Ban 
will somehow prevent you from building an arsenal of the weapons you 
just tested.
    Let me not end, however, on so pessimistic a note. Nuclear 
proliferation has been slowed down significantly by American policy 
since the beginning of the nuclear age. Each administration has 
contributed some successes and some mistakes to this long-term policy. 
Let's learn from the mistakes to enhance our success rate.
    To date, the only response from Administration officials has been 
shock that their diplomatic counterparts in India were not more 
forthcoming with their plans. John Holum, the Acting Undersecretary of 
State for Arms Control and International Security Affairs, commented 
that India had promised restraint in the nuclear area until it 
completed its review. Not all countries find it in their interest to 
telegraph their punches; that is not an adequate explanation--that is 
not an adequate excuse.
    This is just the latest example of the Clinton Administration 
reacting to foreign policy developments, instead of shaping them 
according to a coherent foreign policy. The Administration has lurched 
from one crisis to another, acting on an ad hoc basis according to the 
developments of the moment, confusing our allies and emboldening rogue 
nations. North Korea was emboldened to further the development of their 
nuclear weapons capabilities; Saddam Hussein was emboldened to 
strengthen his position in northern Iraq; and now India has been 
emboldened to conduct nuclear tests near the border of Pakistan.

    Senator Brownback. Thank you, Dr. Ikle. A very wise 
statement.
    Representative Solarz, thank you for joining us. I 
appreciate your being here. The floor is yours.

STATEMENT OF HON. STEPHEN J. SOLARZ, FORMER U.S. REPRESENTATIVE 
                         FROM NEW YORK

    Mr. Solarz. Thank you very much, Mr. Chairman. It is good 
to be here and to see some of my old friends on the other side 
of the table.
    Let me begin by paying tribute to you for your exquisite 
sense of timing in scheduling the hearing this afternoon. If it 
is true, as I am told it is, that you picked this date for the 
hearing several weeks ago, it strongly suggests that unlike the 
CIA, unlike the State Department, unlike the Pentagon, unlike 
the White House, unlike even our embassy in New Delhi, you knew 
what lay ahead. And that is a truly impressive feat.
    Senator Brownback. If this panel had been invited at that 
point in time, I would take credit for that. We had planned a 
different type of hearing; unfortunately, it went another 
route.
    Mr. Solarz. Let me also say, Mr. Chairman, particularly in 
light of some of the observations I will offer toward the end 
of my testimony, that I fully share the concerns which have 
been expressed by all of the members of the committee, as well 
as the previous witnesses and the administration.
    The events which have taken place in India in the last 
couple of days are, to put it mildly, not a very positive 
development. It will stimulate an overt nuclear arms race on 
the Subcontinent. It will almost certainly lead to a decision 
by Pakistan to test its own nuclear devices. It has put a deep 
chill on Indo-American relations. And it could easily lead to a 
significant downward spiral in the relationship between the 
world's most powerful and the world's most populous 
democracies.
    Under these circumstances, and particularly given the 
mandatory character of the sanctions that were enacted a few 
years ago, the President clearly had no choice but to impose 
the sanctions which were required by American law. Yet it is 
important, I think, to keep in mind that however unwanted and 
unhelpful these tests may have been from an American 
perspective, they do not really tell us anything we have not 
already known for close to a quarter of a century about India's 
nuclear program.
    Now, the chances that India will totally abandon its 
nuclear option under existing circumstances, however desirable 
that would be--and it clearly would be desirable--are somewhere 
between nil and negligible--probably closer to the former than 
to the latter. At the same time, I think it is probably fair to 
say that the prolonged application of these sanctions, 
especially if they lead to a suspension of lending to India by 
the World Bank and the other international financial 
institutions, could put the relationship between the United 
States and India into a deep freeze for a prolonged period of 
time in a way that cannot possibly serve our longer-term 
political, economic, humanitarian, and even strategic 
interests.
    Yet it is also clear, I think, that absent some change in 
Indian policy, there is no prospect whatsoever that the 
administration would request, or that the Congress would enact, 
legislation to repeal or waive the sanctions imposed by the 
Glenn amendment.
    So what can be done? Senator Biden asked if there was any 
new thinking here.
    Is there a way out of this mess? Can we find a formula 
acceptable to both the United States and India which would 
simultaneously enable us to advance our nonproliferation 
objectives and avoid a deepening and downward spiral in our 
bilateral relationship with India?
    I believe there is a way to reconcile these seemingly 
conflicting objectives in a way that would be entirely 
consistent with our national interests and values. But first, 
and very briefly, some home truths. Because this is, I think, a 
moment when we need to go back to basics and to consider not 
only what is desirable, but what is possible. Too much is at 
stake to let our policy be shaped by either legitimate outrage 
or wishful thinking.
    From an American perspective, it would obviously be 
desirable, as Senator Helms and others have suggested, if India 
entirely abandoned its nuclear weapons program. India, of 
course, has said that it would forego its nuclear option in the 
context of universal nuclear disarmament.
    The truth of the matter is, as we all know, that China is 
not going to give up its nuclear weapons so long as Russia has 
them. And Russia will not give them up so long as we have them. 
And we are certainly not going to give them up so long as there 
are rogue regimes like Iran and Iraq which are trying to obtain 
them. And even if Iran and Iraq did not exist, we all know 
there is no way the Senate would ever ratify a treaty, nor 
should it, which is not verifiable. And no such treaty would be 
verifiable.
    Some will say that just as other countries, such as 
Germany, Japan and Korea, that have also faced nuclear armed 
adversaries have unilaterally foregone a nuclear option, so too 
should India. Yet, if you think about it, each of these other 
countries, particularly Germany, Japan and Korea, has been 
placed under the American nuclear umbrella. And I see no 
indication whatsoever that we have been prepared, in the past 
or in the future, to give such a commitment to India.
    Yet without such an assurance, and perhaps even with it, I 
fear that so long as a nuclear armed China continues to hold 
large swathes of Indian territory, there will be no way to 
convince India to unilaterally abandon its nuclear project.
    So what can be done?
    After the dust settles, I believe we should invite India to 
join the Nuclear Nonproliferation Treaty as a declared nuclear 
weapons state, and to simultaneously sign the Comprehensive 
Test Ban Treaty, the Missile Technology Control Regime, and to 
join in a new treaty banning the unsafeguarded production of 
fissile material. This would of course require an amendment to 
the NPT. But if it were amended to permit India, and presumably 
Pakistan, to join the NPT as a declared nuclear weapons state, 
I believe that India--which would at long last be treated on an 
equal basis with the other members of the nuclear club--would 
accept and would be willing not only to join the NPT but to 
sign the CTBT, the MTCR and a new treaty banning the 
unsafeguarded production of fissile material.
    Looked at in these terms, the real issue is whether we want 
a nuclear-armed India, constrained by the nonproliferation 
provisions of the NPT, the CTBT, the MTCR and a treaty 
prohibiting the unsafeguarded production of fissile material, 
or whether we would prefer a nuclear-armed India which is 
unconstrained by the international nonproliferation regime.
    Now, the argument against this approach, obviously, is that 
it would send the wrong signal about the determination of the 
U.S. and the international community to prevent nuclear 
proliferation. In the abstract, as we have just heard, this 
argument has considerable merit. But looked at closely, I 
believe that it is not very convincing.
    The truth is that it is impossible to think of a single 
country that is now trying to obtain nuclear weapons, such as 
Iraq or Iran, that would desist from their effort to produce or 
acquire such devices merely because of the prolonged 
application of sanctions against India. If far more 
comprehensive sanctions against Iraq and Iran have not 
convinced them to abandon their nuclear ambitions, I rather 
doubt that sanctions against India will do so.
    Conversely, I find it hard to believe that the admission of 
India as a declared nuclear power to the NPT, combined with 
India's acceptance of the CTBT, the MTCR and a new treaty 
prohibiting the unsafeguarded production of fissile material 
would induce any country that is not already trying to obtain 
nuclear weapons to embark on a nuclear weapons program they had 
previously eschewed.
    In conclusion, Mr. Chairman and members of the committee, 
let me just say that as we all know, the perfect is often the 
enemy of the good. In this case, by eschewing an unachievable 
perfection, we may be able to achieve a demonstrable good by 
bringing India largely into the international nonproliferation 
regime in a way that would justify, after they took these 
actions, a decision to waive these sanctions, thereby avoiding 
a totally counterproductive and perhaps quasi-permanent 
downturn in the Indo-American relationship.
    Senator Brownback. Thank you very much, Mr. Solarz.
    We will go through a round of questioning, where each 
member will have 5 minutes to question. And we would appreciate 
short, concise answers, if that would be possible, as well, so 
we can get in as many questions as possible.
    Mr. Woolsey, let me start with you if I could. You had 
stated sometime back, perhaps clairvoyantly as well, that the 
most likely flash point in the world for nuclear war is the 
Asian subcontinent. Obviously, with the recent developments 
this week, whether you foresaw those or not or just the 
confluence of events, do you believe that will move on forward, 
that Pakistan will be able to resist setting off a nuclear 
weapon? And do you have any advice for us on dealing with 
either Pakistan or China at this point, given the state of 
events now set up by India?
    Mr. Woolsey. I believe I said that when I was Director of 
Central Intelligence several years ago, Mr. Chairman, and I 
believe it is even more true today. The fact that neither India 
nor Pakistan threatens the United States, and therefore we are 
not intimately involved in this in the same way we are, for 
example, in protecting our troops in South Korea from a 
potential North Korean weapon of mass destruction--even though 
that is in fact the case--it seems to me that if one looks at 
it objectively from the point of view of where in the world 
might a nuclear weapon most likely be used in anger by a 
government in combat--set aside terrorism for a moment--I 
thought several years ago, and I think now, that the Asian 
subcontinent, and particularly an Indian-Pakistani war, would 
be the most likely circumstance.
    One has now, with the BJP, a strongly religious/nationalist 
party. One has the festering dispute over Kashmir. One has the 
history of 1947. And one has three wars since then.
    The one halfway bright spot--I would not put it more than 
that--is that these are, at least up until now, two more or 
less rational states, and most of the time both of them are 
democracies. And the possibility of some type of long-term 
stand-off is certainly what one would hope for, if we cannot 
have a better solution. Neither one is a rogue regime in the 
same sense that, say, North Korea or Iraq is. But it is still a 
very serious circumstance.
    I think the cutting edge of the problem here now is 
Pakistan. I think if I were a Pakistani politician, I would 
feel under exactly the same type of pressure that the Prime 
Minister said he was, apparently in the conversation with 
President Clinton in the last day or so. This is Pakistan's 
traditional enemy. Pakistan is outnumbered 10 to 1 by India. 
And India's technology is better on most major matters. And 
India has now tested.
    So, it will be a real act of statesmanship and courage for 
the Pakistani Government to forego testing. And in my judgment, 
we should do everything we can to try to encourage that. I 
would suggest including making it clear that many in Congress 
and the administration would stand behind repeal of the 
Pressler amendment if Pakistan were willing to forego testing.
    I think it is worth a great deal of hard effort right now. 
I do not know that it would succeed. My hunch is it is 
considerably less likely to succeed than not. But it is worth a 
good college try.
    Senator Brownback. That is a good point.
    Are we, in a long-term basis now, past the bipolar world? 
Are we heading into this sort of clashes of various 
civilizations that the United States is going to have to 
prepare differing types of responses to head that off?
    Mr. Woolsey. I hope not. I have been a long-time admirer of 
Sam Huntington. But I believe that thesis is somewhat 
overdrawn. I think that--and I hope India and Pakistan are not 
the first major exception--generally speaking, democracies do 
not go to war with one another. And the spread of democracy in 
the world has been, indirectly at least, a move toward peace.
    I think that people of different cultures--any of the half 
dozen or so that the Huntington thesis has emphasized may 
clash--I think the peoples of those cultures can work things 
out between themselves. And with our help and the help of our 
friends and more prosperous allies, including Europe and Japan, 
I think we can help avoid hostilities in places like the Asian 
subcontinent.
    But it takes continual effort. It is a lot of work. And 
this last few days has been a big setback.
    Senator Brownback. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    Mr. Solarz, provocative as usual, stimulating. Let me play 
the devil's advocate for just a minute with you, and suggest 
that the plan that you have suggested--and I fully appreciate 
the wisdom of the perfect being the enemy of the good, and we 
frequently see that in other situations where we are sometimes 
just too stubborn to recognize that part of a loaf is better 
than no loaf at all, so I do not take issue with your basic 
premise, but would you not suggest to other wannabes as members 
of the nuclear club a rather different scenario than they might 
believe was in their best interest by, in effect, saying you 
are free to bully your way into the club, and if you can make 
it through all of the obstacles that we in the international 
community put up for you, then we will put out the welcome mat 
and you will get a locker number and the whole 9 yards?
    Just respond to that if you would, please.
    Mr. Solarz. Senator, I do not deny the force of that 
argument. In the abstract, I think it in fact is a compelling 
argument. What I am trying to suggest is that in the 
particulars of the case that confronts us, not just with India 
but with the countries that we know are trying to obtain 
nuclear weapons, I do not believe, if you think about it hard 
and deeply, that it is likely to produce the result which at 
first blush, as your argument suggests, it will produce.
    Because who are we really talking about here? Essentially, 
we are talking about Iran and perhaps to some extent Iraq. I 
gather Iraq seems to have momentarily stopped its nuclear 
weapons program, but no one doubts it will resume doing so as 
soon as it feels it has the chance, in spite of the sanctions 
that have been imposed against it.
    And my point here is that we already have far more 
comprehensive sanctions against Iran, which have been imposed 
to a large extent precisely because of their nuclear weapons 
program. Those sanctions--and I am not suggesting we lift them, 
because I do not think under existing circumstances we should--
but those sanctions have apparently not succeeded in inducing 
Iran to give up its nuclear weapons program. And I see no 
indication that they are about to do so.
    Consequently, I fail to see how lifting sanctions against 
India in the context of India's agreeing to all of these other 
things, which so far they have not agreed to do, would send the 
clear signal to Iran or Iraq that it is permissible for them to 
continue with their nuclear weapons program because you know 
and I know--and I would hope the Iranians know, and I believe 
they do know--that so long as they continue their nuclear 
weapons program, far more comprehensive sanctions will remain 
in place by the U.S.
    So, I think, set against these considerations, the ones you 
have advanced and the ones I have advanced, there is another 
set of realities which need to be taken into account. And that 
is, is it in the long-term political, economic, humanitarian, 
and strategic interests of the U.S. to have a frigid 
relationship with India for the next 20 years?
    I do not think anybody here thinks that it is.
    Senator Robb. Indeed, it is clear that the United States 
and most of those who consider themselves friends of India were 
working in exactly the opposite direction.
    Mr. Solarz. Right. If we could get India to agree to 
abandon its nuclear weapons program and do all of these other 
things, without admitting them as a declared nuclear power to 
the NPT, I would be next in line after Senator Helms and 
yourself and the chairman and others in celebrating. I think it 
would be wonderful.
    What I am trying to suggest is we have tried that approach 
for close to 25 years. It has not worked. I think we can get 
India into these agreements if we recognize them as a nuclear 
power. And if we were to do that, I do not think we would be 
saying anything to the world it did not already know for over 
two decades. Everybody knows India and Pakistan have nuclear 
weapons. Better sometimes to adjust to reality if by so 
adjusting you can get some significant progress on related 
issues than continue to sort of bay into the wind like a wolf, 
hoping that the prey will fall into your clutches when there is 
no chance that it will do so.
    Senator Robb. I see my time has expired. Thank you, Mr. 
Chairman.
    Senator Brownback. Thank you, Senator Robb.
    Senator Helms.
    Senator Helms. Thank you, Mr. Chairman.
    I want to direct a question to the Hon. Ambassador, and 
perhaps to Fred Ikle, as well. Now, as I understand it--and if 
I am not correct about this--when India detonated the two low-
yield devices this morning, neither of were detected by the 
United States; is that your understanding, as well?
    Mr. Woolsey. I believe that is true, Senator Helms. But I 
am not certain of that. I have not had any direct contact or 
information from the people who would know. But I believe it is 
the case that we all learned about it through the Indian 
announcement.
    Senator Helms. Well, let us assume just for the purpose of 
discussion that it is true. In that case, I want you to think 
with me what in your opinion--and both of you are experts--are 
the implications for this for verifying the Comprehensive Test 
Ban Treaty?
    Mr. Woolsey. I will take a first cut at that, Senator 
Helms.
    I believe that a zero-yield comprehensive test ban treaty 
is extraordinarily difficult, to the point of near 
impossibility and possibly to the point of impossibility, to 
verify from afar. I suppose I do not have a view yet on how 
verifiable it would be with a very large number of extremely 
intrusive presences in a country, with sensors and the like at 
many, many locations. But if one gets down, let us say, below a 
few hundred tons, down into a few tons of equivalent high 
explosives in a very small experimental nuclear detonation, I 
think verifying that through such things as seismic sensors and 
the like is virtually impossible.
    Now, frankly, I would have preferred a CTBT--if we were 
going to have one--with a yield permitted something below a 
kiloton. I do not know how many tons would have worked, but I 
believe the possibility of maintaining the reliability of the 
stockpile would have been greater with the possibility of some 
of these very low yields. And most importantly, in a way, I 
think the possibility of ensuring that we could disarm and 
neutralize small terrorist weapons, roughly constructed, 
primitive nuclear weapons, would be much greater if we were 
able to have yields down in this sub-kiloton range be legal and 
proper under the treaty.
    With the yield at zero, I have very serious doubts that we 
would be able to verify. It is difficult to go into many of the 
details of this in open session. And anyway, you are talking to 
a lawyer/history major here, not a physicist. But this is 
something that I think deserves extremely careful and thorough 
study, especially because of the zero-yield part of the CTBT.
    Senator Helms. I agree with you. And I want to ask you and 
Fred Ikle--and maybe Steve will want to chime in--do you think 
that the Test Ban Treaty is effectively verifiable, yes or no?
    Mr. Woolsey. I have a hard time giving an absolute yes or 
no answer on that. But with a zero yield, I am skeptical to the 
point of just about saying it is unverifiable. I am willing to 
listen to other views. I am willing to look at what types of 
extremely intrusive verification procedures might be proposed. 
So I am not ready to plant my flag in the sand here today and 
say it simply cannot be verified. But I am quite far along the 
spectrum in that direction, Senator Helms.
    Senator Helms. So am I.
    Fred?
    Dr. Ikle. I do not think it is effectively verifiable if 
effective means low yield and if it means you have to have 
evidence on which you could act. But if I would be permitted, 
despite the yellow light, to also answer the gentleman on my 
left who argued rather persuasively that Indians cannot be 
easily dislodged from the course they are set on; I would say 
it sometimes happens. Brazil and Argentina were on the track of 
building nuclear weapons. They both gave it up. South Africa 
was.
    On another issue, my friend, Steve Solarz, and I were 
totally in agreement: the only solution for the nuclear and 
biological programs in Iraq is a change in regime.
    Now, if you reward the BJP with all these treaties, which 
cannot be verified in the fine detail, then we entrench and 
empower them. If, in contrast, our sanctions make things go a 
bit sour in India, and instead the people in the streets of New 
Delhi and Bombay do not dance and celebrate the nuclear tests, 
but demonstrate like they do now in Indonesia, you may get a 
regime again, as we had in India before, which is much more 
restrained, which will pull things back; they will not go down 
to zero, I agree, but we will accomplish more.
    Senator Helms. I ask unanimous consent that Steve have an 
opportunity to comment, too.
    Senator Brownback. Absolutely.
    Senator Helms. But before I do that, I want to make clear 
that my question is prompted by the administration's claim that 
it is effectively verifiable. And I do not believe it is. And I 
do not think the American people ought to be misled on that 
point.
    Steve?
    Mr. Solarz. Thank you, Senator and Mr. Chairman. Three very 
brief points.
    First, on the verifiability of the Comprehensive Test Ban 
Treaty, I was no longer here when that came up. I had been 
involuntarily retired, so I am really not fully competent to 
address the question. But I will say this. I do not believe we 
should sign on to any arms control treaties which we do not 
believe are verifiable.
    Dr. Ikle. We would not have any treaties then.
    Senator Helms. Now we are getting down to the nitty-gritty, 
Mr. Chairman.
    Go ahead.
    Mr. Solarz. We can differ about whether a particular treaty 
is verifiable. From my view, a principal position is that if it 
is not verifiable, we should not enter into it.
    As for the other points, I do not think we would be 
rewarding India if India agreed to sign the various 
international proliferation regimes. I think that has been an 
objective of American policy for some time. And I think it is 
far better to have India constrained by the provisions embodied 
in these treaties than to have them outside them.
    Finally, if the prolonged application of American sanctions 
against India produces demonstrations, if I know anything about 
my Indian friends, those demonstrations are much more likely to 
be in front of the American embassy than in front of the Prime 
Minister's residence.
    Senator Helms. Next-to-the-last word, Fred.
    Dr. Ikle. It is a risky cause whichever way we go. But 
making the nuclear testing a portal to become a great power 
status could stimulate others. Maybe not in this decade, but in 
the next decade. Brazil again comes to mind. They are capable 
of building nuclear weapons. Who knows how things will develop 
in Nigeria. They make a claim to Security Council membership. 
So instead of closing a door, we tend to open it and make it 
attractive to walk through it.
    Senator Helms. All right.
    And quickly, Ambassador?
    Mr. Woolsey. I tend to agree with Dr. Ikle on this point.
    Senator Helms. Very well.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Senator Helms.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Welcome, gentlemen. And, Mr. Solarz, good to see you again.
    Mr. Woolsey, help me understand some of this. Because, like 
other members, I have seen some pretty sophisticated satellite 
photos, particularly in desert areas, where you can virtually 
identify a single individual. You have said that it is not 
possible to verify the explosion of a device of a kiloton or 
below, and yet Hiroshima was 10 to 15 kilotons. And I can see 
the devastation that was done at Hiroshima. So if we cannot, 
either by satellite photos or human intelligence, tell if 
huge--oh, I have lost the word for what you carry wires in or 
implanted under the desert; I have just lost the word--but if 
we cannot detect the wiring----
    Mr. Woolsey. Those are seismic sensors, right, yes.
    Senator Feinstein. If we cannot detect unusual movements 
around the facility, I would have to assume that the nuclear 
facilities in both India and Pakistan are sort of on a constant 
watch now with what we all know is possible in this area of the 
world, and yet this could not be detected. And it makes me 
wonder, you know, if Senator Helms really was not correct that 
this means that we really cannot have any kind of meaningful 
verification, because obviously most of these explosions or 
detonations are going to be to avoid knowledge of others.
    Mr. Woolsey. Senator Feinstein, this is a question of 
degree. Again, you are getting this from a lawyer/history 
major, but I will tell you at least my----
    Senator Feinstein. No, I am not a lawyer; I am a history 
major, too.
    Mr. Woolsey. I meant me. I am the lawyer/history major.
    Senator Feinstein. Oh, I see.
    Mr. Woolsey. That is why I am saying this with a sense of 
hesitancy, because you really ought to be getting this from a 
physicist. But, first of all, tests will be undertaken 
underground. Second, if one decouples the nuclear device from 
the surrounding ground, by detonating it in either an 
artificially constructed cavern or a natural cave of some sort, 
that radically reduces the amount of seismic activity that the 
test produces.
    This is a question of degree. And it depends probably in 
part on how near the test site would be to some sensors that 
might be deployed. It depends on a number of factors of that 
sort. And clearly a 1-kiloton test is going to be easier to 
verify than a 100-ton test. So there is sort of a sliding scale 
here.
    My concern is that the CTBT is set at absolute zero. And 
there are things, useful things, one can learn from the point 
of view of developing nuclear weapons in tests of, let us say, 
tens of tons or a few hundred tons, well below the 1-kiloton 
level. So what I was referring to was the possibility that 
under a CTBT, India or, if it should sign one, some country 
that we know would cheat, such as say North Korea or Iraq, 
could take a public posture that it was abiding by the treaty, 
but in reality be undertaking some tests. They would not be as 
useful as large tests, but they could be extremely useful in 
perfecting nuclear weapons and in maintaining their reliability 
and the like.
    So I would simply encourage the committee, as this issue 
comes up, to get a spectrum of scientific opinion from 
physicists, including, if I may say so, people who are retired 
from places like Livermore and Los Alamos, not only people who 
are there now, and to get a full spectrum of views about 
verifiability and what would be required.
    The reason I was not willing to go the entire way on 
Senator Helms' question is I think this could vary with the 
number of sensors that were deployed, the degree of 
intrusiveness and the like. But at this level of zero yield, 
which is being negotiated--and we were not always on that 
wicket; there were other important countries that wanted 
somewhat higher levels, above zero but well below a kiloton--if 
we had done that, verification would be easier. At zero, I 
think it may be difficult, as I said, to the point of virtual 
impossibility.
    Senator Feinstein. One more quick question.
    Senator Brownback. Sure.
    Senator Feinstein. The good Doctor mentioned something 
that, Mr. Solarz, Steve, I would like you to comment on. One 
has to speculate on why now. Why was this done now? Things 
seems to have been engaging into some period of rapprochement 
between the two countries. The only kind of new addition is a 
new party in power. And therefore, as the good Doctor 
speculated, American policy is left with the concept that there 
is now a ruling government in India which is very different in 
its approach to these matters, and would cause some major alarm 
for us in developing a policy to deal with a country, a 
democracy, a booming economy, a very significant country as a 
friend of the United States.
    Would you comment on that, and do you agree?
    Mr. Solarz. It is a very thoughtful question. And my answer 
is that, as best I can determine, Senator, the decision had 
much more to do with the imperatives of domestic politics than 
the requirements of nuclear strategy. It resulted, I think, 
from several factors. First, you have a narrowly based 
government, with a fragile coalition of eight different 
parties, and a relatively small margin in the Lok Sabah, the 
Indian lower house.
    In order to create that coalition and to stitch together 
this disparate governing majority, the BJP, which constitutes 
the main phalanx in this political formation, was obligated to 
back away from most of the essential planks in its party 
platform, precisely because those planks were very 
controversial in a domestic political context.
    For example, they abandoned their commitment to build a 
Hindu temple on the site of the Babri Massid, the Muslim mosque 
that had previously been destroyed. They walked away from their 
commitment to have a comprehensive secular code that would 
apply to all of the groups in India, as distinguished from the 
current arrangement in which the Muslims are governed for 
social and family matters by Islamic law. And they put on hold 
their commitment to repeal Article 370 of the Indian 
Constitution, which accords a special status to Kashmir.
    The one element of their party platform which distinguished 
them from the other parties, which they had not definitively 
walked away from, was the commitment to make India a declared 
or overt nuclear power. Unlike the other provisions, however, 
which were all very controversial, in an Indian political 
context, the commitment to go overtly nuclear was actually, and 
as we can see from the events of the last 2 days, quite 
popular. I mean, this has been supported, rightly or wrongly, 
not only by their own activists, but even by the opposition, by 
and large, and by the Indian press.
    So I think they saw in this an opportunity to solidify 
their position by taking an action that would be widely 
approved.
    And, finally, even though those of us who run for office 
periodically tend, over the years, to get a little bit cynical, 
one can never completely dismiss the extent to which, from time 
to time, there are parties and political leaders who believe 
what they say. And I think the BJP, and particularly the 
current Prime Minister, genuinely believe that India, as they 
see it, is a great power, it is a great civilization, it does 
face threats which look much more serious to them than they 
perhaps do to us. And I think he genuinely felt the time had 
come for India to come out of the nuclear closet and openly 
demonstrate its nuclear capabilities.
    Now, I gather, in his previous incarnation as Prime 
Minister, which lasted about 12 days or so, he wanted to move 
in that direction, but was told, according to reports in 
today's press, by the technocrats that they did not want to go 
ahead with an explosion until his government received a vote of 
confidence in the Lok Sabah. It never got that vote of 
confidence.
    Now, I think he felt he had gotten that vote of confidence, 
he had a governing majority, and why wait. And in the internal 
discussions that must have taken place about what to do here, I 
suspect the argument must have been made that in terms of the 
international implications of such an action, in terms of its 
implications for the Indo-American relationship, no time is a 
good time. It will generate a furor no matter when they do it, 
so let us get it behind us and move on. Show the faithful that 
we keep our commitments when we can, solidify our position in 
the Parliament, and demonstrate to the rest of the world that 
we are entitled to do the same things that China and Russia and 
the U.S. and others have done to protect their security.
    That, I would imagine, is why they came to the decision 
they did. I do not believe it reflected a careful strategic 
analysis. Indeed, one of the reasons I think we were put off 
and did not anticipate this is that when the government was 
established, at the same time that they said we are putting all 
these other commitments on hold--on the mosque, on 370, on the 
secular code for the Muslims--they also said, with respect to 
the nuclear project, we are going to appoint a commission to 
study it, with a view toward inducting nuclear weapons into the 
Indian arsenal.
    But that was almost universally regarded by our people as 
an Indian version of the classic political technique in our 
country, where executives appoint commissions to avoid having 
to make decisions. And, in any case, we certainly thought, if 
they did make the decision, they would wait until the study had 
been completed. My impression is the study has not even 
commenced. Or, if it is has, it has not gotten very far.
    So, if you ask me why they did it and why they did it now, 
that is basically what I think is the reason.
    Senator Feinstein. I think Dr. Ikle wanted to say 
something.
    Senator Brownback. Yes, Dr. Ikle, we wanted to hear from 
you, as well.
    Dr. Ikle. Yes, I have a very brief point. Another 
possibility is, in addition to the political reasons that I 
largely agree with, that the timing was also primed by the very 
desire of this government to have good and expanding economic 
and technical relations with the United States, but they found 
themselves under pressure to sign this CTBT, this comprehensive 
test ban, and they did not want to stop their nuclear ambition, 
as Steve Solarz correctly says.
    How do you get out of it? You do your tests and get it over 
with, and then you sign the Test Ban and you continue with the 
economic expansion and relations with the United States. So, 
paradoxically, the pressure on the CTBT could have accelerated 
the decision to test.
    Senator Brownback. That seems to make some sense to me, 
Because although what you say, Representative Solarz, makes 
some good sense about here is a political party complying with 
a promise that they had made during the campaign, and it is one 
we can do and we are going to get it done, but they did five 
tests of weapons--three yesterday and two today--which would 
also seem to signify not only a domestic political component, 
but also a component of saying we want to get past the Test Ban 
Treaty, let us get all this done, let us get all the data we 
need; we will be a certifiable power; therefore, we have 
accomplished what we want to, and we can move on forward--that 
there was also a military objective, along with the domestic 
one.
    Mr. Solarz. I think that is a very intriguing analysis. And 
if in fact India now indicates that it will sign the CTBT on 
the same basis as the other signatories, I think that would 
tend to confirm the accuracy of what Dr. Ikle has suggested.
    But if India, as it turns out, is not prepared to sign the 
CTBT for the same reasons it has not signed it until now, which 
I suspect is likely to be the case, then I would think, in 
retrospect, it would turn out that analysis is not accurate. 
So, the proof will be in the pudding.
    My view has been--and I may be wrong here, but my view has 
been that we could get India to sign the CTBT if we could get 
them admitted to the NPT as a declared nuclear power. Because I 
think one of the major motivations for the India nuclear 
weapons program has been the extent to which, politically and 
psychologically, they have genuinely felt diminished and 
discriminated against by virtue of the fact that the rest of 
the world treats China and the other members of the nuclear 
club differently. And I think if they were accorded that equal 
status, which they believe as a great civilization and country 
they are entitled to, that most of their objections to these 
other treaties would vanish very quickly.
    Senator Brownback. My problem with that analysis--and I 
understand your point, and I think it is well made--is you seem 
to set the template for other nations that seek to do that same 
route, whether it is the Iranians or if it is the Brazilians, 
in the future. You almost say, OK, you want to get in the club, 
here is the way to do it. And it is a very dangerous mode.
    Plus, if I might point out, I have been notified that the 
Indians have offered to sign the CTBT today, but only as a 
declared nuclear power.
    Mr. Solarz. Well, I would say to you, Senator--and, you 
know, we are talking about a very complex question; obviously 
there are good arguments on both sides--I would say to you the 
difference between India--and, by the way, everything I said to 
India more or less applies to Pakistan--the difference between 
India and Pakistan and Brazil or Nigeria, for example, is that 
everybody knows India and Pakistan have had nuclear weapons for 
a long time--India longer than Pakistan. So, it is not as if a 
country which has never had them suddenly develops them and 
then we say, OK, join the nuclear club. These people have been 
de facto members of the nuclear club for a long time.
    Yet, by virtue of the fact that they are not in the NPT, 
they have no legal obligation to refrain from exporting nuclear 
weapons or nuclear weapons technology. And therefore, I think 
admitting India and Pakistan as declared nuclear powers does 
not tell the world anything the world did not already know. I 
think a distinction in that sense can be made between India and 
Pakistan and these other countries.
    And, finally, the Indian and the Pakistani nuclear programs 
clearly emanate from what are directly perceived serious 
threats to their security--in the case of India, first, from 
China; in the case of Pakistan, from India--which, in their 
view, requires them to have a nuclear deterrent. I do not see 
the same kind of analysis being applicable to Brazil or 
Nigeria.
    Senator Brownback. But to Iran it certainly would, Mr. 
Solarz.
    Mr. Solarz. On Iran, we have comprehensive sanctions, and I 
do not think the Iranians would believe for a moment that we 
are going to lift our sanctions against them if we were to do 
what I suggested vis-a-vis India.
    Mr. Woolsey. Mr. Chairman, just one sentence.
    Senator Brownback. Yes, please.
    Mr. Woolsey. If I were the Prime Minister of Pakistan, I 
would say that is an interesting proposal and I would be 
willing to consider seriously joining the NPT, the CTBT, the 
MTCR and this new treaty barring unsafeguarded production of 
fissile material as soon as my five-test series is completed.
    Senator Brownback. This has been a very good panel. I 
appreciate all of your thoughts on it. I particularly 
appreciate the thought about repealing the Pressler amendment 
and its notion as a statement toward the Pakistanis that, 
please do not--and here is something we are going to try. We 
are going to look at that very carefully, very quickly, because 
I think time is absolutely of the essence on that.
    I might say, as well, I think our initial and our near-term 
goals have to be to assure Pakistan in order to forestall their 
testing of a nuclear device--of a premier, near-term action--
that is something that we have got to do in the utmost. I hope 
the President--and I understand from the administration's 
testimony today they will be calling for multilateral responses 
to India, and hopefully to push toward the rollback of the 
nuclear program, which to me is the standard we should push 
toward.
    And, finally, I hope we will consider U.S. actions to 
protect ourselves in broader, long-term interests the United 
States has. We are approaching, and I think have entered into 
now, a new phase of world history. And I think we are going to 
need to really be thinking about how do we respond in these 
sorts of circumstances. It is not as simple and clear perhaps 
as it was, and we have now entered the more complicated phase.
    Thank you very much. This was an excellent panel.
    The hearing is adjourned. [Whereupon, at 4:35 p.m., the 
hearing was adjourned.]


                         CRISIS IN SOUTH ASIA:



                        PAKISTAN'S NUCLEAR TESTS

                              ----------                              


                        WEDNESDAY, JUNE 3, 1998

                               U.S. Senate,
       Subcommittee on Near Eastern and South Asian
                   Affairs, Committee on Foreign Relations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senators Brownback, Hagel, and Robb.
    Senator Brownback. In the interests of time and everybody's 
timely attendance that's here, I think we will go ahead and 
start the hearing. Senator Robb will be joining us shortly--he 
is coming from another meeting--and I think we will also be 
joined by some additional members as well. I appreciate all 
those in attendance and the witnesses that are here.
    It is a bit unusual that we are holding the hearing. It is 
a tough topic, and the Senate is not in session today in honor 
of Barry Goldwater and his funeral that is taking place, but we 
decided that the importance of the hearing was such that we 
wanted to go ahead and hold it today, but in deference to 
Senator Goldwater's funeral I wonder if you might all join me 
in a moment of silence just in recognition of him.
    [A moment of silence was observed.]
    Senator Brownback. Thank you.
    The world became a much less stable place just 3 short 
weeks ago. I do not think it is an exaggeration to say that as 
the world looks on, India and Pakistan are playing nuclear tic 
tac toe. South Asia is in a nuclear cold war and an unstable 
one at that. Neither State has a nuclear doctrine. Neither 
State has made a credible commitment to forswear first use. 
Indeed, neither State has promised to end testing. Nuclear war, 
the horrible potential of it, is only a small step away.
    In May, I introduced an amendment to the Defense Department 
authorization bill repealing the Pressler amendment. In doing 
so, I hoped to give Pakistan a tangible alternative to 
conducting its own nuclear tests. My efforts, as well as 
incentives offered by the administration, were rebuffed. 
Needless to say, I am withdrawing my amendment to repeal 
Pressler and, at the same time, I intend to offer a resolution 
strongly condemning India and Pakistan for conducting these 
nuclear tests.
    However, the question before us today is simply what to do. 
While the imposition of wide-ranging sanctions was an 
inevitable first step, given the Glenn amendment, we are going 
to have to look beyond sanctions to solve the current crisis. 
There are a number of key steps which I believe we can take. It 
is not enough that the United States sanction India and 
Pakistan. We must get the international community to act in 
concert with us toward South Asia, and I am hopeful we can hear 
about some positive results even today at this hearing about 
United international action.
    We must begin to focus on the heart of the India-Pakistan 
conflict, Kashmir. We are not only talking about the fate of a 
disputed State in the Himalayas. We are talking about the 
national security interests of the United States and its 
allies, indeed, the rest of the world, in averting war. We 
plead with the leaders of India and Pakistan not to make any 
provocative moves or actions in or around Kashmir.
    I believe we must continue to engage India and Pakistan. To 
do otherwise would be folly. Yesterday, I met with the Pakistan 
Senate Foreign Relations Committee chairman, and tomorrow I 
will meet with the Indian ambassador to the United States. I am 
hopeful, as well, that we can have a congressional delegation 
going to India and Pakistan to engage in a dialogue, a 
discussion with the leaders of those countries.
    Today's hearing is an indication of the concern we have in 
the Senate over events in South Asia. I look forward to a good 
discussion with our witnesses about, what do we do.
    We have with us today Assistant Secretary of State for Near 
East and South Asia, Hon. Karl Inderfurth; Dr. William 
Schneider, Jr., president of International Planning Services, 
Inc. and an adjunct fellow of the Hudson Institute--Dr. 
Schneider formerly served as Under Secretary of State for 
Security Assistance, Science and Technology--and, finally, we 
have Dr. Richard Haass, director of foreign policy studies at 
the Brookings Institute. Dr. Haass formerly served as Senior 
Director for Near East and South Asia at the National Security 
Council.
    I am joined on the dias by several of my colleagues who I 
am delighted to have here with us today as well, and I would be 
happy to turn the floor over to Senator Robb for an opening 
statement. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. I am a little out of 
breath, because I was racing over from another distinguished 
group gathering to discuss the same topic to which you and I 
and Secretary Inderfurth were all invited. The Center for 
Strategic International Studies is having an all-morning 
session, and because of the time of this hearing I moved my 
presentation up a little over there and came over here, but it 
is certainly timely and I thank you for calling this hearing.
    Mr. Chairman, let me begin by saying that Pakistan's 
decision to test last week was as predictable as it was 
lamentable. Islamabad and New Delhi are engaged in a test of 
wills that not only undercuts concerned efforts these last few 
years to reinforce global nonproliferation regimes such as the 
NPT and the CTBT, but more critically raises the stark 
possibility of a fourth war between India and Pakistan since 
1947.
    A few weeks ago, I mentioned Kashmir when Secretary 
Inderfurth appeared before the subcommittee, and again I would 
like to urge American policymakers to focus their diplomacy on 
new ways to improve the situation there. There is no doubt in 
my mind that Kashmir is the spark for renewed, deadly, and 
widespread conflict between India and Pakistan.
    When the Permanent five foreign ministers gather tomorrow, 
after the meeting that the President and Secretary Albright are 
having this morning to consider what steps might be taken, I 
believe it is imperative that they consider all the options for 
what can be done to cool the short-term fires, building on the 
line of control between Pakistan and India.
    Reports that conventional forces have already clashed there 
again in recent days are especially troubling. While defining a 
freeze in cap strategy to head off a nuclear arms race on the 
subcontinent is of primary importance, western nations need to 
forthrightly address the most imminent threat and that, in my 
judgment, is a military confrontation over Kashmir.
    In the short term, Pakistan's exercise in nuclear chest-
beating by law requires punitive action on our part, yet 
Islamabad deserves at least some measure of credit for 
receiving a high level U.S. delegation and listening to our 
concerns. I do not believe Pakistan would have tested on its 
own. Prime Minister Sharif, for a variety of reasons, was 
virtually compelled to respond to India's provocation for 
purely internal reasons, much as Prime Minister Vajpayee and 
the PJP decided to test in the first place.
    Not that this makes any nation's decision to test any more 
excusable. I had hoped that Pakistan would take the high road 
and not test, and I believe that they squandered an opportunity 
to gain unparalleled support and respect from the international 
community. Unfortunately, the Pakistani people will now pay 
heavy economic price for the decision to move ahead on the 
nuclear front.
    Over the longer term, I believe a series of confidence-
building measures designed to restore a semblance of order and 
stability in the region ought to be aggressively pursued by the 
administration to stem the tide of growing discord between 
India and Pakistan. Congress can help by giving the President 
the flexibility he needs in responding to the crisis at hand.
    The Glenn amendment rightly metes out punishment for 
testing. All bilateral economic and military assistance has 
been stricken and international loans and credits are clearly 
in doubt, given American opposition, but the President at this 
point does not have a free hand to act, since the law offers no 
waiver authority for the executive branch to implement policy 
as it sees fit in close consultation with Congress in 
persuading India and Pakistan to step back from a missile and 
nuclear arms competition.
    The fact that Congress must pass another law to revoke 
comprehensive sanctions now in place borders on invasion of the 
President's constitutional prerogative to conduct foreign 
policy. Although I serve on all three national security 
committees, I do not believe that I am qualified, nor do I 
think anyone in the Senate is qualified to implement de facto 
control over our foreign policy in this region. In due course, 
it is my hope that the Congress will provide the President the 
statutory authority to act in this area in the best interest of 
the country.
    Regarding the specific actions that might be taken, I am 
not at odds with some of the ideas I have heard directly from 
the administration officials and in the media. First, on 
testing, it makes sense to intensify bilateral and multilateral 
dialogue with both Pakistan and India. We should press for, but 
not expect any sign soon, both sides constraining the nuclear 
program specifically deciding not to weaponize their nuclear 
arsenals or produce and stockpile any weapons.
    Clearly, the comprehensive test ban membership and a 
fissile material cut-off should be on the agenda.
    Formalizing non-first-use pledges is an area worth 
exploring, even if the two sides have contrary views on the 
issue for now.
    In exchange, I think we need to elevate India's and 
Pakistan's political, economic, and security status in the 
world, short of welcoming either member into the nuclear club 
at this time.
    The idea to help provide civilian nuclear power centers, 
perhaps in line with what we are doing in North Korea, is 
intriguing, but administration officials should not 
underestimate the enormous complexity of such a task.
    Second, on Kashmir we ought to bolster our intelligence 
collections efforts to head off any potential confrontation 
between India and Pakistan regarding the territory in question. 
While we cannot impose a solution, we can help keep the 
respective conventional forces at a peaceful arm's length by 
undertaking a comprehensive information campaign on troop and 
missile movements, carefully watching military exercises, 
encouraging the use of existing hot line and promoting force 
structure transparency generally.
    I recognize the diplomatic sensitivities involved in 
encouraging a larger solution to Kashmir, but the difficult of 
solving the problem in my judgment should not deter the U.S. 
and the international community from taking this on as a high 
U.S. priority.
    We should not be afraid of failure in this particular area. 
Renewed commitment on Kashmir, given the new and dangerous 
nuclear context in which India-Pakistan relations have now 
evolved may be the spur for new thinking on the subject. At 
least, I hope so.
    With these thoughts, Mr. Chairman, I look forward to 
hearing the testimony of Secretary Inderfurth, who will be 
integrally involved in the decisions in the months ahead, and I 
thank you.
    Senator Brownback. Thank you, Senator Robb. That is a very 
thoughtful statement and a lot of good suggestions, and I hope 
the administration can respond to those and the ones that I put 
forward as well.
    We have been joined by Senator Hagel as well. Senator 
Hagel.
    Senator Hagel. Mr. Chairman, Thank you. I just wish to add 
my thanks to you and to our colleague, Senator Robb for your 
leadership on this issue and the timeliness of the hearing, and 
I look forward to hearing our witnesses. Thank you.
    Senator Brownback. Thank you very much.
    Secretary Inderfurth, thank you very much for joining us, 
and we look forward to your statement and some questions and 
answers afterwards.

STATEMENT OF HON. KARL INDERFURTH, ASSISTANT SECRETARY OF STATE 
                    FOR SOUTH ASIAN AFFAIRS

    Mr. Inderfurth. Thank you, Mr. Chairman. Senator Robb, 
Senator Hagel, may I just briefly join you in the moment of 
tribute to Senator Goldwater. A number of years ago I served on 
the staff of the Senate Intelligence Committee, and he was 
member of that committee. He was, without any doubt, an 
American original, and it was an honor and privilege for me to 
have some time to be associated with him on that committee, so 
I very much wanted to associate myself with that tribute.
    Mr. Chairman, members of the committee, since I last 
testified before this committee only 21 days ago, events in 
South Asia have continued to proceed in a very dangerous 
direction. In addition to the series of nuclear tests conducted 
by India, Pakistan tested nuclear devices on May 28 and May 30. 
India and Pakistan have declared themselves nuclear powers and 
made statements from which they have since backed away, but 
they intend to fit their ballistic missiles with nuclear 
warheads.
    Indian leaders have expressed their intention to conduct a 
national security review to include plans for the development 
and possible deployment of nuclear weapons, a threshold that, 
if crossed, could cock the nuclear trigger.
    In Kashmir, there has been continuing worrisome activity 
along the Line of Control, including exchanges of fire and 
troop movements. Such events have been common in the past, and 
it is difficult to determine the level of threat these most 
recent incidents pose.
    Neither side appears intent on provoking military 
confrontation, though we cannot rule out the possibility for 
further provocative steps by either side, and we remain 
concerned about the potential for miscalculation and 
escalation. We have informed both New Delhi and Islamabad about 
our concerns in this regard in the strongest possible terms.
    As you know, Mr. Chairman, Pakistan's decision to test was 
not entirely unexpected and the administration and, in 
particular, the President worked diligently to try to persuade 
the Pakistani Government to capture the political and moral 
high ground. The President said it best. Pakistan missed a 
priceless opportunity to gain the world's support, 
appreciation, and assistance. Indeed, as Senator Robb said, 
they squandered the opportunity.
    I am very grateful to you, Mr. Chairman, for all that you 
did in the 2-week period after India tested, including your 
introduction of legislation to repeal the Pressler amendment. 
While we did not succeed in our ultimate objective, I believe 
we did the right thing and, in the process, established a 
benchmark for how the executive branch and the Congress can and 
should cooperate when important national interests are at 
stake.
    The back-to-back tests by India and Pakistan unquestionably 
represent a setback for the search for peace and stability in 
the South Asian subcontinent and, indeed, for the cause of 
global nonproliferation and moving towards a world where fewer 
States are relying on nuclear weapons for their greatness or 
for their defense.
    But that cause, if anything, is even more important today 
than it was even a few short weeks ago, before the Indian 
tests. The United States is going to stay at it, and we are 
working very hard to come up with the most promising and 
appropriate next steps.
    Much as we responded to the Indian tests, the United States 
has moved swiftly to invoke sanctions and to condemn Pakistan's 
reciprocal tests. This type of behavior, Mr. Chairman, we find 
especially troubling, as it threatens to spiral out of control.
    Both India and Pakistan have taken pains to assure us that 
they do not wish to start a conflict, yet when each has found 
itself the object of international outrage, it has acted 
provocatively in an effort to get the other to respond, thereby 
shifting blame. We can only hope that the two countries realize 
where such behavior can lead, and that they cease and desist 
immediately lest this tit-for-tat cycle lead to military 
confrontation with potentially devastating consequences.
    In the short term, Mr. Chairman, we are focusing our 
efforts on ways to prevent further provocative acts to get both 
sides to end further tests and to prevent related escalation 
such as missile testing and deployment. We are encouraging the 
immediate resumption of direct dialogue between India and 
Pakistan and are working to shore up the international 
nonproliferation regime.
    In the end, Mr. Chairman, no effort to restore regional 
stability and resolve Indo-Pakistani tensions can be effective 
unless the brunt of the work is borne by India and Pakistan 
themselves. Now is the time for them to demonstrate to the 
world that they are responsible nations capable of talking to 
one another and willing to address seriously the issues between 
them.
    These are sovereign nations, democracies both, and they 
must find ways to communicate, as they have in the past, 
particularly in view of the gravity of the current state of 
affairs. We and the rest of the international community urge 
them to do so.
    Now and for the foreseeable future, Mr. Chairman, we will 
enforce sanctions firmly, correctly, and promptly, in full 
compliance with the Glenn amendment and other legislative 
authorities. We will continue working to ensure the widest 
possible multilateral support for the steps we have taken.
    A vigorous enforcement regime will be necessary for India 
and Pakistan to perceive that their actions have seriously 
eroded their status in the international arena, it will have a 
substantial negative impact on their economies, and that they 
have compromised rather than enhanced their security.
    We will firmly reject any proposal for India or Pakistan to 
join the nuclear nonproliferation treaty as a nuclear weapons 
state. We do not believe that nations should be rewarded for 
behavior that flies in the face of internationally accepted 
norms. At the same time, we do not wish to make international 
pariahs out of ether India or Pakistan.
    We believe the purpose of these sanctions should be to 
influence behavior, not to simply punish for the sake of 
punishment. They should not be used to cause the economic 
collapse of either State, or prevent the meeting of basic 
humanitarian needs. Wherever possible and as the law permits we 
should work to reduce adverse effects on the competitiveness or 
operations of U.S. businesses.
    In the longer term, Mr. Chairman, we will seek 
international support for our goals, including the need to 
secure active and responsive, responsible adherence to 
international nonproliferation norms and a qualitative 
improvement in Indo-Pakistani relations.
    We will be looking for both parties to take steps such as:
  <bullet> sign and ratify the Comprehensive Nuclear Test Ban 
        Treaty without delay or conditions;
  <bullet> halt production of fissile material and participate 
        constructively in FMCT negotiations;
  <bullet> accept IAEA safeguards on all nuclear facilities;
  <bullet> agree not to deploy or test missile systems;
  <bullet> maintain existing restraints against sharing nuclear 
        missile technology or equipment with others, and
  <bullet> agree upon a framework to reduce bilateral tensions, 
        including on Kashmir.
    In order to do this, we will need to work cooperatively 
with the international community and will seek to establish a 
common approach. As you know, Mr. Chairman, we are in the 
process of organizing a meeting of the foreign ministers of the 
five permanent members of the U.S. Security Council tomorrow, 
which will bring the full force of the P-5 behind the search 
for effective ways to ensure no more tests or escalation in the 
region.
    The meeting will also allow the P-5 to reaffirm its 
commitment to global nonproliferation through such mechanisms 
as the NPT, CTBT, and negotiation towards a fissile material 
cut-off treaty. We will urge signing and ratification of CTBT 
by India and Pakistan under the terms I just mentioned, and 
explore ways to de-escalate tensions between the two countries 
and provide them the means to air their legitimate concerns.
    We will work to keep the international community engaged 
and will follow up with a meeting of the G-8 in London next 
week.
    Mr. Chairman, members of the committee, let me conclude by 
saying we believe that the approach we have laid out is sound, 
and that the P095 conference can help us achieve over time the 
objectives we have established. We will work very hard to see 
that these significant steps will be taken and that they will 
result in a more stable region and help to repair the damage 
done to the international nonproliferation regime.
    That said, Mr. Chairman, I regret that I must conclude on a 
somber note. Even if we succeed in meeting these difficult 
challenges, it will be some time before the world looks at 
India and Pakistan through the eyes as it did before May 11 
when India tested. Then we were making serious progress in 
establishing that the United States wanted to enhance its 
relationship with both countries on a full range of issues as 
together we approach the 21st century.
    We saw great promise in a region where democracy had a 
solid foundation, where U.S. trade and commercial interests 
were firmly established and beginning to flourish, where 
significant opportunities existed for expanding cooperation on 
such issues and matters as health, education, and the 
environment and, finally, where we were working with the two 
main protagonists on establishing areas of restraint on our key 
concerns about nonproliferation.
    Today, regrettably, that view of the region has been dealt 
an enormous setback. In the past three weeks, India and 
Pakistan have conjured up all of the old and regrettable images 
of two nations hostage to 50 years of bitter enmity, and of the 
region as a place where only one issue, nonproliferation, 
matters.
    I would not want to leave you with the impression that we 
have foregone our desire to resume productive, cooperative, 
indeed, warm relations with either India or Pakistan, or that 
we have lost faith in either government to do the right thing. 
We have not, but one of the legacies of recent events will be 
the resurrection in world opinion of the old narrow view of the 
subcontinent, India versus Pakistan, zero-sum game.
    That legacy will probably endure for a long time. Speaking 
as one who has worked to change attitudes, perceptions, and old 
prejudices about the region, I am both saddened and deeply 
concerned by the recent turn of events.
    Recently, one alarmed Indian politician asked a very simple 
question: where does all this lead? The leaders of India and 
Pakistan have, in our view, the immediate responsibility to 
answer that question for the people of their countries and for 
the international community.
    Thank you very much.
    Senator Brownback. Thank you, Secretary Inderfurth, for 
your statement and for all your work since the Indian tests 
took place, because I know you have been very actively engaged 
and you did everything you possibly could, and yet we are still 
where we are today after those tests taking place, but I do 
appreciate and want to acknowledge all the world you have put 
forward in trying to do that.
    Let me ask you, if we could--and let us run the time clock 
on 7 minutes each, and we will just go down the road, and we 
may go a second round. We will probably go a second round, 
because I think all of us have quite a few questions to ask.
    You mentioned we all have watched with some hopefulness 
about the Security Council meeting tomorrow, of the foreign 
ministers of the Security Council countries tomorrow. Can you 
give us any preview as to what they may come out with tomorrow 
in multilateralizing the situation? Will they come out with 
multilateral sanctions? Are they going to come out with a 
multilateral plan to try to reduce the tension in and around 
Kashmir? Could you give us any preview of what may come out?
    Mr. Inderfurth. Mr. Chairman, the meeting tomorrow in 
Geneva we think is a very important further step in the effort 
of the international community to address this issue. As you 
know, there was discussion about the tests by India at the 
Birmingham G-8 meeting. There will be a further meeting of the 
G-8 in London on June 12.
    This meeting of the Permanent 5 members we believe is 
especially important because of the responsibility, the special 
responsibility the P095 have for international peace and 
security. We see this as an opportunity to address three 
principal areas of concern. We want to diffuse the current 
tensions, including an immediate end to provocative steps, 
either rhetorical steps or specific steps such as further 
testing or any attempt to weaponize or deploy missiles.
    We want to secondly explore ways to stave off a nuclear 
missile race in the subcontinent, and there we believe the 
international nonproliferation regime, the CTBT, the fissile 
material cut-off treaty, are important steps and we want to see 
how we can bring the two countries toward a more constructive 
approach toward those treaties.
    And finally, we do want to reaffirm the global 
nonproliferation regime and what the Permanent 5 members can do 
in that respect.
    We are not looking at sanctions as an element of the P-5 
meeting. We believe that the countries there have expressed 
their views on that issue and we believe each of the countries 
in their own way should bring their influence to bear on the 
parties.
    Clearly, if you look at the make-up of the P-5, each member 
has in its own way influence that they can bring to bear, the 
Chinese, the Russians, the French, and the British. All have 
important reasons for engaging in the subcontinent, and we 
believe that all, which we hope we can agree to in Geneva, will 
bring their respective assets to bear on the problem.
    We also want to make certain that this meeting is done in a 
way that does not seek to isolate the two countries. We want to 
engage the two countries in a positive and constructive 
fashion. We believe they have made a terrible mistake, and that 
has been stated. There has been worldwide condemnation for the 
steps that the two countries have taken, but we believe that 
the only way we can bring them around to joining with the 
international community is to engage them.
    And I particularly appreciate your comment in your opening 
statement about, we must continue to engage the two countries. 
Absolutely. If they stand outside the international community, 
we will get nowhere. We will not sanction them into compliance. 
We will not condemn them into compliance. We have to engage 
them into compliance with the international community.
    Senator Brownback. If I could, Secretary Inderfurth--and I 
hate to interrupt, but we are going to run the time clock, so I 
want to try to keep the questions pointed, and if we could have 
that in answers, too.
    I would hope that if the P-5 is meeting and we are not 
considering sanction regime, we have not had good success with 
unilateral sanctions on our part, and it seems to me that we 
ought to engage them in a discussion. An aggressive discussion 
of multilateral sanctions would be something, or else the 
unilateral sanctions of the United States are unlikely to do 
much good from our history that we have had with sanctions. 
That is one point.
    The second one is that I think clearly we can all agree, as 
those nations, that no provocative actions in or around Kashmir 
should be taken, that that is clearly in the best interest and 
supported by the Chinese, by the Russians, by the Brits, by the 
French, that we should clearly be able to get those countries 
to agree that we would pursue aggressively with the two 
antagonists no aggressive actions in and around Kashmir, that 
nobody could be opposed to that.
    I would hope both of those issues could come up and be of 
some thorough discussion and pushing, because we have got to 
multilateralize the leadership of this effort to stop the 
escalation taking place in India and Pakistan.
    Mr. Inderfurth. Mr. Chairman, we will and we are seeking to 
multilateralize this effort. Several countries, including 
Canada, Australia, the Nordic countries, German, Japan, have 
imposed unilateral sanctions along with the United States on 
India and several have also taken steps with respect to 
Pakistan, although of somewhat lesser elements.
    We will be discussing our position and what we intend to do 
in Geneva, but each of the countries in the P-5 have already 
expressed their views on what steps they will take with respect 
to sanctions. We believe that--again we will express our views 
on that. We will hear what they intend to do to try to focus on 
the immediate issues, including the one that you just 
mentioned.
    We fully believe that diffusing tensions, making sure that 
there is no military flashpoint in Kashmir, and what steps we 
can take, that will certainly be on the table for discussion. 
It will be a key element of that meeting.
    The G-8 meeting will be another opportunity to discuss our 
approach, including sanctions, with another grouping of 
countries and hopefully, as we tried in Birmingham to convince 
countries that an approach that combines both positive and 
negative incentives will be the appropriate one to take.
    Senator Brownback. Senator Robb. We will be coming back for 
another round of questions.
    Senator Robb. Thank you, Mr. Chairman.
    Let me just follow up on the meeting of the Perm 5 and, 
Secretary Inderfurth, you suggested that each of the countries 
has a unique perspective they can bring to the table, or words 
to that effect, in addressing this particular question, that as 
you have indicated sanctions are one of the areas where we have 
received minimal support in terms of the U.S. position.
    This is not peculiar to this situation. There has been 
reluctance on the part of some of those countries to engage in 
sanctions in other areas.
    But what can we do to provide a little more oomph, if you 
will, in terms of dealing with the other members of the 
Permanent 5 in particular?
    You mentioned things that they can bring to the table. 
Maybe you could be a little more specific as to what you think 
each country could put on the table in order to advance this 
cause, or whether or not you think that the United States in 
its role in the international community and in the P-5 could 
play in terms of bringing about some degree of consensus.
    I have a long-time bias with too much attention to protocol 
and any reservations that are expressed by other sovereign 
nations being accepted at face value without necessarily 
reengaging those nations and/or putative partners in their 
responsibilities to meet some of the international crises that 
the United States is often forced to face without their active 
participation, but it seems to me that, given the potential 
consequences of a situation that could very quickly get out of 
hand and affect all of the Perm 5 members as well as the entire 
international community, that this is going to require a little 
more assertiveness and--I do not like to use words like 
backbone, or whatever, but at least a less passive approach to 
other nations' participation.
    Can you give us some sense of what precisely other nations 
might be able to do if they are not able to support the U.S. 
position with respect to sanctions or other initiatives that we 
might offer? Could you give us some indication of what you 
think they might most effectively put on the table and follow 
through on?
    Mr. Inderfurth. All very good questions, Senator, and we do 
need more assertiveness, as you said, or more oomph in terms of 
our international effort.
    The P-5 are all nuclear weapons States, as you know. They 
therefore have a certain been-there, done-that quality to what 
they can bring to the table that no one else can.
    Senator Robb. A vested interest in pulling the ladder up 
after at least perceived by other potential wannabes in terms 
of the nuclear club to have a certain rather closed interest, I 
understand.
    Mr. Inderfurth. Now, that--and we understand the attitudes 
of others, including the Indian Government, about a 
discriminatory international system which does not accept India 
in that group of nuclear weapons States as defined by the 
nuclear nonproliferation treaty.
    It is very clear that the view of the Permanent 5 is not to 
amend the NPT, to include India and Pakistan in that regime, 
and that will be a continuing source of discussion and some 
controversy as we try to engage India and Pakistan along the 
way.
    The countries that are part of the P-5 again have a special 
perspective to bring to bear and perhaps can share in some 
fashion the experiences of nuclear weapons States with respect 
to nuclear risk reduction measures and the rest, so there is a 
hopeful, positive quality there to the discussion that the 
nuclear weapons States can have.
    We should also look not only, as you said, at the wannabes 
but the could-have-beens. There are several countries in the 
world today that walked up to the nuclear threshold and decided 
that they do not want to continue in that direction--South 
Africa, Brazil, Argentina. These are countries we also want to 
engage.
    We also want to bring them into this process--
    Senator Robb. Do you think there is any chance of near-term 
reversal in decisions that were made by those countries or some 
of the former Soviet States that gave up their nuclear capacity 
and returned the weapons to Russia?
    Mr. Inderfurth. No. The other could-have-beens, Kazakhstan, 
Belarus, Ukraine, certainly are in that category. Near-term 
possibility of reversal I would place at zero. The tensions, 
the programs, the policies are not moving in that direction.
    What we hope to do is to take steps that would bring to a 
conclusion now the further testing, and especially crossing any 
new thresholds. That is the immediate focus.
    The P-5, as I said, each of the members have their own 
history and respective influence with the parties. As you 
looked at the Indian statement of why they tested, a greater 
focus was on China--
    Senator Robb. No question about that.
    Mr. Inderfurth. --than on the other neighbor, as Prime 
Minister Vajpayee's letter stated.
    China has also had, as we well know, a longstanding close 
relationship with Pakistan. China has actually had a 
constructive role to play with respect to Kashmir, urging the 
parties to address that in a more realistic fashion. This was 
when President Jiang Zemin visited the region in 1996.
    So we are hoping that China will play a constructive role 
in this regard. We believe that it has been playing a more 
constructive role on nonproliferation issues of late. China is 
the coordinator of the P-5 for this meeting, and so the 
Secretary has been working directly with her counterpart, 
Foreign Minister Tang, to see this meeting come about in a 
hopefully constructive and positive way.
    Senator Robb. How about France and Russia in particular?
    Mr. Inderfurth. Russia, of course, has its longstanding 
ties with India, and not only has the Secretary been in touch 
with Foreign Minister Primakov, but in Birmingham President 
Clinton and President Yeltzin had long discussions on this 
issue, and we believe very much that Russia wants to have a 
positive role to play here.
    The French, on sanctions, they have said no. They have 
said, however, that because of President Chirac's recent visit 
to India they want to move India and Pakistan in a positive 
direction.
    Britain, of course, has its longstanding ties in the 
region.
    So we believe each of these countries has a role, but we do 
not believe that we can stop with the P-5. We need to get other 
countries involved, especially Japan. Japan has an enormously 
important role to play. It will be a member of the G-8 meeting 
in London. Japan we want to work with very closely.
    So I wish that I could go into greater specifics. I think 
that I would need to come back after the P-5 meeting to see 
what comes out of it, but as I mentioned to the Chairman just 
briefly before the hearing started, we are getting very good 
positive reports from our expert's team, Mr. Einhorn, who you 
remember was with me at the last meeting, is over there leading 
our delegation. We are getting positive reports, so we think 
some positive things can come out of this.
    Senator Robb. Thank you. That completes my time for the 
first round. I will wait for the second round.
    Senator Brownback. Good. Good. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Mr. Secretary, 
thank you for sharing with us this morning the administration's 
thoughts on where we go from here.
    I would like to pick up on one point that Senator Robb 
made, and it was included in your statement, regarding firmly 
rejecting any proposal for India or Pakistan to join the NPT as 
a nuclear weapons State. Isn't that going to be rather 
difficult to do, considering that both these nations have 
invested their national interest, their national pride, their 
national manhood in doing this, to have them back out of that 
club now?
    In fact, it was made quite clear--in fact I was in that 
general region last week. The reports that I got from 
presidents, prime ministers, ambassadors all along the way, it 
was quite clear to me as to why, or at least a good reason, one 
of the good reasons why Pakistan did this was to be seen as an 
equal to India, so realistically, Mr. Secretary, is that really 
feasible, to back out of this club?
    Mr. Inderfurth. Well, the feasibility also relates to the 
provisions of the nonproliferation treaty, which would require 
amendment by all parties.
    The 186 members I think of the NPT--and again, there is no 
disposition to reward any nation for, if you will, blasting its 
way into that Nuclear Weapons State category. This would be 
something that would run counter to the views of the 
international community and, indeed, may be seen as an 
encouragement to others to think that the best way that they 
could become a nuclear weapons state as defined by the NPT 
would be to conduct nuclear testing. I mean, that is not 
something we want to encourage.
    Now, we recognize that they are declared self-declared in 
their nuclear status, and we will have to find ways to deal 
with that and, indeed, part of the discussions in Geneva will 
be about how to approach that issue.
    Their nuclear ambiguity has gone. The veil has been lifted. 
They have tested, and so we now have to adjust ourselves to 
that reality and to see how we can proceed toward our 
nonproliferation goals in light of that.
    Senator Hagel. Well, that is exactly my point, and I know 
this is a difficult situation. They are there now.
    Mr. Inderfurth. They are there.
    Senator Hagel. And to back them back out of that, or 
approach this on the basis of, to your point, one of the 
approaches, which I completely agree with, is engage, and the 
other issues that you focused on, is, in my opinion, the right 
way to do this. There is no other way around this.
    Sanctions are folly, and that is past. We are done now. We 
have to deal with reality as it is, and it is a very dangerous 
reality, and to go in with an attitude it seems to me we will 
further isolate them in a sense. In one sense acknowledging 
that they are there, but in another sense they are not there, 
is a little schizophrenic it seems to me.
    And I know this is difficult, and none of us are wise 
enough to have all the answers here, but I would suggest, Mr. 
Secretary, that as--I am sure Secretary Albright and others who 
have to live with this daily are working their way through it, 
but it seems to me you cannot go in half-way on things like 
this and then believe that you are going to be able to get 
their attention.
    You used the term, urge them. We want to urge them to do 
things. Well, how do you urge them if, in fact, you do not 
recognize what they have wanted to be all along, and 
essentially why they tested.
    But again, that is not for this hearing, and I wanted to 
get your thoughts on it.
    If I could move on to a couple of other points, Senator 
Brownback made, on isolating on the main problems, how do we 
get our arms around some of the conflict and the contention 
areas between India and Pakistan? Obviously, Kashmir is at the 
top. There are other areas. Maybe you could identify some of 
those other areas, aside from Kashmir, that we are going to be 
talking about tomorrow in Geneva and in London next week.
    Mr. Inderfurth. Well, I do think, as I think there is 
general agreement, that Kashmir is the flashpoint. It has been 
the flashpoint for 50 years of existence for the two countries. 
The Line of Control is not only subject to shelling and firing 
but also cross-border activities, which are extremely 
dangerous, and we have urged both Governments to address.
    We want to see the rhetoric lowered. Statements made by 
Indian Home Minister Advani we thought were quite provocative, 
when he referred to hot pursuit across the line of control.
    So those are issues that we believe must be addressed by 
the parties directly, and what we are seeking to do is to find 
ways that we can promote and encourage them to do that and 
provide whatever assistance that we or other States concerned 
can provide, so that is number one.
    Number two, the broader area of peace and security, that 
relates to their nuclear and missile activities. The Indians 
have declared a unilateral moratorium on further testing, 
nuclear testing. We would like to see Pakistan, if you will, 
have a tit-for-tat response there, since they seem to have tit-
for-tat responses on other issues, and declare also a 
unilateral moratorium.
    We would like to see them move forward with a joint 
declaration, the two of them, that they will not weaponize and 
that they will not deploy any of their variety of missiles, 
whether they be Prithri or Agni or Gowri, or others that they 
may be contemplating.
    We think there are steps that they can take that would 
reduce those tensions. We think that there are steps that they 
could take to think seriously about nuclear risk reduction 
activities.
    Interestingly, when Secretary Raganoth was here, the Indian 
Foreign Secretary, on May 1, after his meetings at the 
Department we took him to the Nuclear Risk Reduction Center at 
the State Department for him to see how that is established, 
what the procedures are, and how we communicate in that room, 
on the sixth floor of the State Department, to see that we do 
not have miscalculation or mishap. Those are steps they can 
take.
    We also believe that it is important for there to be a 
discussion between China and India. They have been having 
border discussions going back to their conflict in 1962. The 
Chinese army chief of staff recently visited New Delhi. We 
would hope that they could have discussions to ease concerns 
between the two giants of Asia so that the reasons that Prime 
Minister Vajpayee said were part of their calculation in 
determining that they would test, that they could be used as 
well.
    So all of those things we think are the important security 
issues that need to be addressed immediately.
    Senator Hagel. Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Hagel.
    Secretary Inderfurth, by our analysis, how many weapons, 
how many nuclear devices did India test, and how many did 
Pakistan test, by our determination?
    Mr. Inderfurth. Less than they said. The precise numbers I 
think are still being looked at, and I think that may be one of 
those areas where I would need to discuss with you and members 
of the committee more privately.
    The assessment is being done of the two separate series of 
tests that both countries conducted. In terms of our assessment 
of how many test yields, implications for weapons design or 
other elements, I think I would rather ask some of our experts 
to sit down with you on that.
    Senator Brownback. Do we know how many different devices 
were tested by both India and Pakistan?
    Mr. Inderfurth. Again, we believe less than publicly 
stated, but there are some highly technical issues as far as 
the simultaneity of some of these tests that are still being 
looked at very closely. We have good information, information 
that is not only ours but others, in terms of seismic 
monitoring that we are going through.
    Senator Brownback. There has been--what I have seen today 
is, we are not certain exactly what was tested on both sides.
    We know that there were tests, but there are questions as 
to exactly what was tested and the number of devices which, as 
you might guess, leads a number of people here on the Hill to 
have questions about verifiability of the test ban treaty.
    That is something the administration has raised a number of 
times, and legitimately so, as a key issue involved here, but a 
number of people on the Hill have grave questions about 
verifiability, because we have been down this road so much 
before of having treaties that were then not verifiable, so 
this is something we are going to want to have good answers to, 
whether we knew this time around or if we did not know this 
time around.
    Mr. Inderfurth. I think these, Senator, are perfectly 
legitimate questions, and I think that if you will this can be 
something of a case study of our capability, and I think that 
the administration would be very pleased to sit down with you 
and other members of the committee and other committees to go 
through this in closed session.
    Senator Brownback. One thing I noted in your testimony, in 
looking through it, you were talking about the steps we were 
going to try to get in cooperation with the international 
community and what we wanted these two parties to do. You 
listed sign and ratify CTBT without delay or condition, and 
then five other items.
    You did not list join the NPT, and you note earlier about, 
we firmly reject any proposal for India or Pakistan to join the 
NPT as a nuclear weapons State. It seems to me that we need to 
put in that list of things join the NPT as a nonnuclear State, 
and I know you have had discussions here with other members.
    You are going to have a lot of discussions about this very 
point, but it seems to me really quite critical, their 
membership of the NPT as a nonnuclear State, that you cannot 
blast your way into a nuclear State, and that this is going to 
be a very big issue not only with these two nations, but as we 
look down the road towards Iran, a possibility of other nations 
wanting to take a similar path into this.
    So I would ask that you look at that very carefully, 
because I think we are setting the example for what happens 
into the future and I again want to press my point that I think 
the administration should be doing all it possibly can, 
sanctioning companies that are supplying technology to the 
Iranians that are nuclear or missile technology.
    That is off of this hearing, but really it is not, because 
you are setting the course for how a country gets into the 
nuclear club, and it is terribly destabilizing around the 
world, so choices made now will have consequences for years to 
come and I hope you would continue to push them to be a part of 
it as a nonnuclear State no matter the difficulty with that 
taking place.
    Mr. Inderfurth. The steps that we have laid out here, those 
things which we are looking for both parties to do--and this is 
an illustrative series of steps, not a definitive series of 
steps at this time and, indeed, it is something that we will 
want to discuss further with Members of Congress for your 
ideas. Indeed, on the NPT, that, of course, is something that 
we have looked at.
    If we say that India and Pakistan are not to be admitted to 
the Nuclear Nonproliferation Treaty through amendment and 
become Nuclear Weapons States as defined by the treaty, the 
only other way they could become a part of the NPT is to come 
in as a Nonnuclear Weapons State, which would mean that they 
would commit themselves at this time to eliminate totally their 
arsenals of nuclear weapons and to cease and desist all of 
their programs relating to their nuclear activities.
    We do not believe that that is a reasonable demand to make 
of them at this stage. We are saying that they are escalating 
up, not de-escalating down. We think that our goal and 
objective should be for them to take the steps that other 
States have taken, which is to eliminate their programs, and we 
will continue to urge them to do that.
    But in terms of where we are today, and what reasonable 
prospect we have for getting them to join with the 
international community to address this problem in a serious 
fashion, we think asking them to join as a nonnuclear weapons 
State is simply beyond the pale.
    At a later stage, that would certainly be our hope and 
intention.
    Senator Brownback. Well, what is the statement you just 
made to Iran, then?
    Mr. Inderfurth. Our statement to Iran is being pursued in a 
variety of ways, including hopefully with some of those members 
of the P-5 that we will be working with.
    We do not think that we are, in terms of the Iranians, 
doing anything that will encourage them. In fact, the sanctions 
that we have placed, the work that we are doing to see that 
this situation does not get further out of hand, all of these 
steps we think will have a message in Tehran, but I take the 
point, and I understand. There are no simple answers in this 
strategy to stop further proliferation around the world.
    Senator Brownback. And I would note, too, the 
administration just waived sanctions on Iran, and we have had 
spirited discussion about this. I think that is an 
inappropriate step.
    I think we will live to regret it sooner rather than later, 
and I would ask you to rethink about the long-term strategy 
that the statements that are being pursued at this point by the 
administration--we are entering a new chapter here, and we all 
know it is a dangerous chapter, and how you play that first few 
steps is going to determine where we are going to be down the 
road, and I think we are going to get down this road pretty 
fast.
    I am afraid we are going to get down this road pretty fast, 
and I do not know that these are the wisest routes for us to 
pursue, so I hope you will circle back around and look at that 
fork in the road again as to which way you are going with it, 
and I will certainly be putting forward my suggestions on that.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    I might just add parenthetically that in the Intelligence 
Committee we have had some briefings, and you might want to 
take advantage of information that we have available on some of 
the questions that you raised earlier.
    Let me ask if you think, Secretary Inderfurth, a 
nonproliferation summit--number 1, is it possible to include 
both Sharif and Vajpayee and, if it is possible, is it--in your 
judgment, is it wise and could we expect any real progress to 
be made?
    There are a number of folks that believe that knocking some 
heads together, or at least bringing the heads in a serious 
discussion, is going to be crucial. Would you comment on, 
number 1, the doability and the likelihood of any success, if 
in your judgment it is doable in the near term for some sort of 
a nonproliferation summit?
    Mr. Inderfurth. Senator Robb, I think that it is going to 
be terribly important for Prime Minister Sharif and Prime 
Minister Vajpayee to be part of this process.
    I would suggest that rather than a nonproliferation summit 
that it should be a security summit because from their 
perspective it is security that is at stake and not 
nonproliferation, if we come at this through meeting security 
concerns.
    Senator Robb. I will take that exception--I mean, that 
suggestion as a way to reposition it so that it might be more 
broadly acceptable. Would you respond, then, in that context?
    Mr. Inderfurth. In that context, I would say this is 
certainly something that would be a positive step to have them 
involved in a summit which addresses security concerns and how 
they and we go about defusing the situation and what steps the 
international community can do in support of--regrettably, even 
though there is a hot line that exists between New Delhi and 
Islamabad--
    Senator Robb. Do you have any reason to believe it has been 
used since it has been installed?
    Mr. Inderfurth. It has been used since it has been 
installed, but not in the present crisis, to our knowledge, and 
that is very regrettable, particularly since there have been 
statements made by high Indian officials, including Mr. Advani, 
high Pakistan officials, including the Foreign Minister and 
regrettably scientists and engineers on both sides who keep 
touting what they can and cannot do and when they intend to do 
it, which has inflamed the situation.
    We think it would be most appropriate if the two prime 
ministers picked up the phone as Prime Minister Sharif and 
Prime Minister Gujral did in the past and say, okay, let us 
lower the rhetoric. Let us start talking. We want to see them 
resume that dialogue that a year ago we thought had some 
promise to it, and we have been very disappointed, but we think 
that a summit and engaging India and Pakistan at that level 
would be a very appropriate step.
    Senator Robb. Some of the comments by former Prime Minister 
Gujral have been consistent with his approach during the 11 
months, or whatever it was, that he was prime minister in 
recent days.
    Mr. Inderfurth. He said recently that if one report 
indicated that nuclear weapons had been transferred to the 
armed forces--
    Senator Robb. God help us.
    Mr. Inderfurth. God help us, right.
    Senator Robb. I remember reading that.
    Let me ask you whether or not you think this process would 
benefit from the dispatch by the United States of a Holbrooke-
type figure or person to work that issue exclusively in a 
shuttle or other arrangement for some extended period of time 
until such time as we brought about results and even in the 
context of an earlier question would a Madrid-type 1992 summit 
be a good example?
    Mr. Inderfurth. All of these are options, quite frankly, 
that we are looking at. An important prerequisite will be the 
willingness of the two Governments to accept and work with any 
such approach, whether it be a shuttle approach, or a Madrid 
approach, or any combination thereof.
    What we will be doing, obviously, in Geneva and then in 
London is to explore this with our colleagues in the P-5 and 
the G-8 as well as with others to see what would be the best 
way to do it.
    We do not have at this stage a plan to dispatch a team. 
Quite frankly, we would like to hear from the Indians and the 
Pakistanis what their intentions are, what their plans are. We 
would like to hear from them.
    We have had contacts at the State Department and we 
recently had the delegation from Pakistan with Senator Zaki as 
well as Colonel Siman. I think they came up on Capitol Hill and 
met with many of you.
    We want to hear from them, especially what their intentions 
are to try to diffuse the situation, but we are looking at a 
variety of options about how to diplomatically address this, 
but we are going to need their help and their agreement and 
cooperation if we are going to make any progress.
    Senator Robb. Both countries, I might add, are in the 
process of dispatching a number of high level and intermediate 
figures to consult with both the administration and the 
Congress.
    I understand the chairman made a suggestion for a CODEL to 
visit the region. I wonder what your reaction--with the 
specific purpose of focusing on the issues that we have talked 
about.
    I would have to say that first of all I join in and would 
be delighted to pair with my chairman in this instance. My 
track record in most recent visits to the region was not good. 
2 days after visiting with then-Prime Minister Gujral his 
Government fell, and 5 days after leaving Islamabad the 
President's authority was significantly undercut.
    In any event, it seems to me that there is considerable 
anxiety on the part of Members of the Congress, particularly 
those who are not involved in national security or 
international affairs, in getting some reliable information and 
participating to the extent that it can be constructive and 
helpful, as opposed to some of the other possibilities for 
congressional participation, which do not always fall in that 
category.
    Any comment?
    Mr. Inderfurth. Senator Robb, I want to let you know that 
in terms of track records, that none of our track records are 
unvarnished in this respect, so I hope you do not feel alone in 
that category. Some very unfortunate events occurred shortly 
after my last trip to the region, so I think we all feel that.
    I think it would be a very useful thing for a congressional 
delegation to go to the two countries. I think that we need to 
see a little bit further in terms of the P-5 meeting and the G-
8 so that we can inform you of where we think we are.
    I think it would be very important for them to hear 
directly from Members of Congress our concerns, our 
suggestions, and to solicit or elicit from them their 
intentions, let them know that this is a concern that is across 
the board in terms of Washington as well as the international 
community. I think a congressional delegation could serve a 
very useful purpose in that respect.
    I also appreciate the comments you made earlier about the 
President needing some greater degree of flexibility in dealing 
with this, and I think this is something we would like to 
pursue with you and discuss, because I think we do need that 
element of flexibility right now in the situation that we have 
not been confronted with before, and we need to see how best we 
can respond to it.
    Senator Robb. In that regard, I am not suggesting we do 
anything to undercut the response that is required by current 
legislation.
    Mr. Inderfurth. Nor are we.
    Senator Robb. I want to make that clear, but looking down 
the road it seems to me additional flexibility and the ability 
to employ both carrots and sticks if they can be effectively 
factored into the equation may be useful.
    At the very least it seems to me this is an area where the 
greater flexibility given to the President is going to 
ultimately pay some dividends and the Congress ultimately does 
not want to be in a position of having tied the President's 
hands in areas where a little more flexibility might rapidly 
advance the goals that some are seeking.
    In any event, my time has expired.
    Mr. Chairman, I thank you.
    Senator Brownback. Thank you. It strikes me if we go we 
need to do quite a bit of listening, too, and to try to hear 
what it is that we can hear that can be useful and helpful to 
the countries involved.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    I might add, Mr. Secretary, that I agree with Senator Robb. 
I made a couple of remarks on the floor of the Senate yesterday 
morning and one of the things that I said was that I think 
there has not been a time since World War II when it is more 
important and especially for the future of this country and the 
world, when a strong bipartisan American foreign policy should 
be put in place.
    That means the Congress needs to work with the 
administration, and I went further in saying it is important 
that we not allow any foreign policy differences to unravel in 
front of the world at this particular time.
    We have got differences. We have constitutional 
responsibilities up here, as you know, as the President does. 
We can differ on things, but to the outside world we need to be 
united, and these kinds of particular activities like CODEL's 
to regions working with the administration I think are 
extremely important, that acknowledging not only that we are 
together on this, but acknowledging this is a very dangerous 
and complicated world, full of great hope and opportunity, but 
nevertheless, if we make some wrong decisions here in the next 
few years we will suffer the consequences, and so I add my 
support, Senator Robb, to your remarks.
    A couple of areas I want to go back to. Your reference to 
dialogue in urging and not isolating these nations, which as I 
have already said I agree with, are we going to be framing this 
up and paying particular attention to trying to define the 
mutual interest common denominator in this case of India and 
Pakistan, trying to develop an agenda where both these nations 
have, as they do, significant mutual interest, where we can 
start in a positive way as we engage them?
    Mr. Inderfurth. Senator, that has been precisely the 
approach we have been following during my tenure as Assistant 
Secretary to try to encourage them to focus on those positive 
elements. Trade, cultural, energy cooperation, all of those 
areas are the ones that we have been trying to encourage them 
to devote their resources and their own activities.
    We continue to believe that if they could move in that 
direction it would unlock great potential in South Asia, so we 
will, of course, continue to encourage them to do that. 
Regrettably, they keep getting drawn back into the mutual 
hostility which they have had for these past 50 years.
    I mean, again, this is the 50th Anniversary. It will be the 
50th Anniversary until August 15. This was not the way they 
should be celebrating it. They should have been moving to the 
next 50 years with this behind them.
    So the answer, yes, certainly we will be looking to 
encourage them in more positive directions.
    Senator Hagel. On a couple of the questions that have been 
raised previously concerning the next outer ring of, Senator 
Robb put it nuclear wannabes, are we in touch with that group, 
with nations--
    Mr. Inderfurth. Yes. We are in touch with those nations in 
a variety of ways through our public statements and through 
third parties. We are very aware of the implications for what 
we are doing here, and this goes back to something the chairman 
raised with respect to the NPT, very aware of the implications 
of how we handle this, what signal that will send to the 
wannabes.
    What I would like to suggest there is that we continue our 
discussions with you on that. We have again--I regret that I do 
not have Mr. Einhorn to be able to turn to, since he is our 
lead nonproliferation expert at the Department. He will be 
back, along with myself, from Geneva on Friday morning in the 
early morning hours.
    I think that is something that he would be more than 
pleased to come up and sit down with you in a hearing, or 
however you wanted to proceed with that discussion, but we are 
very aware of the implications of what we are doing now for our 
nonproliferation policy and those that would like to blast 
their way into the scene.
    Senator Hagel. Are we communicating with Iran in any way?
    Mr. Inderfurth. Senator, the only communications that I 
personally am aware of in terms of Iran are the ones that I 
have been taking part in as part of my South Asia portfolio.
    On the issue of Afghanistan there is in New York a group 
called the Six Plus Two, which are the neighbors of 
Afghanistan, plus the U.S. and Russia, where we have been 
trying, again unsuccessfully, to move the Taliban and the 
Northern Alliance towards some peaceful resolution of their 
conflict.
    In that connection, the Iranians are in the room; but there 
are no other communications beyond that in this U.N. context. 
That is the extent of my involvement with Iran in my South 
Asian capacity, but we will certainly provide you additional 
information on that.
    Senator Hagel. One additional comment, and I know my time 
is up, but I think this might present some opportunities for us 
as well as for the world. It gives us an opportunity to start 
to open up, the complications, in this particular part of the 
world, but also it allows us an opportunity to focus on the 
completeness of the interconnects here in this part of the 
world.
    You know as well as anyone geopolitical, military, economic 
power shifts that are occurring in the world today in the 
alliances, alignments, and this gives us an opportunity to get 
into it in a very legitimate, basic way, to help forge some 
policies for the future, and I would hope that this opportunity 
is not lost and that we are looking at this in a very expansive 
way, not just isolated on the complications of today.
    Thank you.
    Mr. Inderfurth. I understand the point.
    Senator Hagel. Thank you very much.
    Senator Brownback. Some have suggested we have been living 
a lie for a while in denying these nations nuclear capacity, 
and we are just looking the other way, and now we can no longer 
do that and it is a chance to open up and deal openly with 
this, but I do hope as we start doing that, the other nations 
that are watching, that we put a right course on this, and we 
will be working with you and pushing that aggressively both 
with you privately and publicly, that we set a striking course 
so that our children and our children's children can feel safe 
and secure in this world.
    Secretary Inderfurth, thank you for joining us. We 
appreciate that very much. Godspeed to you. You are going to 
need it. There are a lot of tough days ahead. Good luck.
    Mr. Inderfurth. Senator, may I first thank you for that, 
and may I just make one comment.
    In terms of the nuclear programs and looking the other way, 
we have been looking very closely at this. Obviously we have 
not been as successful as we would have liked to have been, but 
as a result of recent events and Pakistan's decision to go 
ahead with a nuclear test, I reread the conversation that 
Secretary Albright had with Prime Minister Sharif in Islamabad 
in November and in that conversation she identified Pakistan's 
nuclear policies as the key problem in our effort to create a 
modern U.S.-Pakistan relationship, and encouraged Sharif to 
rethink Pakistan's weapons programs. That is a brief extract 
from that.
    We have been focusing on this very diligently to try to get 
them to address this issue both in Islamabad and New Delhi. 
Regrettably, we have not been successful. We now have to 
redouble our efforts and see what we can do in light of this, 
but the nuclear ambiguity has gone. The veil has been lifted. 
Perhaps that will provide us some new opportunities, and we 
will be looking at those.
    Thank you very much.
    Senator Brownback. Thank you.
    The next panel will be the Hon. William Schneider, 
president, National Planning Services, former Under Secretary 
of State for Security Assistance, Science, and Technology, and 
Dr. Richard Haass, director of foreign policy studies, 
Brookings Institution, and former Senior Director, Near East 
and South Asia Bureau for the National Security Council.
    We would call those two gentlemen to the table.
    Mr. Schneider, thank you very much for joining us. The 
floor is yours.

     STATEMENT OF HON. WILLIAM SCHNEIDER, JR., PRESIDENT, 
INTERNATIONAL PLANNING SERVICES, AND FORMER UNDER SECRETARY OF 
    STATE FOR SECURITY ASSISTANCE, SCIENCE AND TECHNOLOGY, 
                        WASHINGTON, D.C.

    Mr. Schneider. Thank you, Mr. Chairman, and I have a brief 
statement which I have prepared and, with your permission, I 
can submit it for the record and make a few remarks.
    Thank you, Mr. Chairman. Mr. Chairman, I am William 
Schneider, Jr., and serve as adjunct fellow of the Hudson 
Institute and have my own international trade and financial 
services business. During my service in the Federal Government 
I was Under Secretary of State for Security Assistance, 
Science, and Technology, and was responsible for, among other 
areas, our military assistance program with Pakistan.
    The question of security in the region is of great interest 
to me, and I was very reassured by Secretary Inderfurth's focus 
on the question of security in response to Senator Robb's 
remarks about a security-oriented conference.
    Just a few remarks first on the question of the India and 
Pakistan nuclear tests. I think first we should understand 
that, although the veil of nuclear ambiguity is lifted, neither 
country needed to conduct the tests to demonstrate its ability 
to produce a device with nuclear yield.
    Indeed, Pakistan did not need to weaponize, because they 
received a nuclear device that had been obtained from China, or 
received the design for a nuclear device that was tested by 
China in 1966 and, of course, India had a nuclear test in 1974 
and so it had resolved the problem of achieving a nuclear 
yield.
    The current series of tests are likely to be associated 
with weaponization of a device, rather than the ability to 
demonstrate nuclear capabilities.
    I want to just make a few remarks about the proliferation 
problem and then, in response to the chairman's opening 
remarks, perhaps a few suggestions about how we might be able 
to deal with this.
    The focus on security I think is very important, because 
any resolution of this problem will need to engage the question 
of incentives. What kinds of incentives can be created by the 
international community that will produce behavior that will 
take nuclear weapons out of the conduct of foreign policy in 
this region, or for that matter other regions as well?
    The incentives that have been created by the 
counterproliferation regime have had a number of perverse 
effects and, over time, are magnifying the problem rather than 
containing it. This leads to a few conclusions.
    First, I think the counterproliferation activities of the 
international community have not been successful, and this 
reflects three decades of an approach that has been based 
largely on multilateral arms control arrangements and bilateral 
diplomatic efforts.
    The second point is that both nations and, indeed, several 
of the other nuclear wannabes have developed an infrastructure 
producing ballistic missile delivery systems and fissile 
material that poses a problem that may be exacerbated by the 
sanctions.
    The excess capacity that may be provided by this 
infrastructure may be sold to other countries, and to the 
degree that sanctions are effective in crippling or severely 
damaging the economy, it may increase the incentives to market 
some of these dangerous technologies to other countries outside 
of the region.
    Third, the exports of China and Russia, both of whom are 
members of the counterproliferation regime, have contributed to 
the flow of proliferation-enabling technology in South Asia 
that sustains the problem. The absence of a consensus among the 
major powers concerning the imposition of sanctions makes it 
less likely that other proliferators will be deterred by 
sanctions. Sanctions are just not likely to be a major feature 
of the international regime dealing with this, apart from the 
United States and perhaps a few other countries.
    Fourth, with respect to the general environment, the high 
cost of modern conventional systems is making the acquisition 
of weapons of mass destruction and ballistic missiles the low-
cost solution for countries to achieve their security. This is 
indeed a very dangerous threat, and one that I think we need to 
engage in as a dimension of the approach that Secretary 
Inderfurth mentioned.
    Finally, there seems to be a correlation between membership 
in strong mutual security arrangements, whether bilateral or 
multilateral, and a willingness to abstain from the development 
of weapons of mass destruction and their means of delivery.
    NATO member countries, for example, or countries with whom 
the United States has bilateral mutual security arrangements, 
seem to find an effective linkage to a security arrangement as 
being satisfactory, offsetting any need they might otherwise 
have for developing weapons of mass destruction.
    Finally, with respect to some suggestions about how the 
United States might approach dealing with this, I think the 
major flaw in U.S. security policy relating to the 
counterproliferation problem has been the failure to integrate 
local or regional security concerns into the discussion with 
potential proliferators.
    Mr. Chairman, your remarks about the sense we have been 
living a lie about proliferation in the region has been 
reflected in the views that I am sure you have heard of 
professional diplomats and analysts of the region, who have 
long recognized that India would never accept the status quo of 
China's legitimate and exclusive regional possession of nuclear 
weapons. Pakistan's poverty, and absent security support from 
another powerful nation, has been driven to offset India's own 
military advantage through its own weapons of mass destruction 
policy.
    The U.S. needs to alter the policy to distinguish between 
proliferators who are adversary States and proliferators who 
are friendly States. The policy has been counterproductive, as 
can be illustrated by the fact that we supply or are prepared 
to supply a nuclear reactor to North Korea but are unprepared 
to provide these kinds of things to India and Pakistan.
    In the domain of incentives, one point I would raise as a 
way of trying to diminish the incentive to proceed with weapons 
of mass destruction and ballistic missiles is to consider the 
possibility of providing access to technology of active 
defense, ballistic missile defense.
    The countries who are building weapons of mass destruction 
now are not putting them on aircraft. They are not putting them 
on cruise missiles. They are putting them on ballistic missiles 
because there is no defense against ballistic missiles, and 
this subject deserves more comment than I can give here.
    Just let me conclude with that point, and then I will be 
glad to go into it further, and questions if you care to do so.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schneider follows:]

              Prepared Statement of William Schneider, Jr.

    Mr. Chairman and Members of the Sub-Committee:
    Thank you for the opportunity to testify before this subcommittee 
today. I am William Schneider, Jr. I serve as an Adjunct Fellow at the 
policy research organization, Hudson Institute, and operate an 
international trade and financial service business in Washington. From 
1982-86, I served as Under Secretary of State for Security Assistance, 
Science and Technology. Among the responsibilities of the office at the 
time were those associated with export controls, arms transfer, foreign 
assistance, and regional security policy. I subsequently served as 
Chairman of the U.S. General Advisory Committee on Arms Control and 
Disarmament from 1987-93. My remarks will address some the major policy 
issues raised by the nuclear test series conducted by India and 
Pakistan last month, and draw from an analysis of these developments, 
some implications and policy recommendations.
The India and Pakistan nuclear tests
    The eleven nuclear tests conducted by India and Pakistan last month 
ended nearly a quarter century of nuclear ambiguity by India, and 
eliminated the last shred of doubt about the aims of Pakistan's nuclear 
activities underway since the early 1980s. In both cases, the test 
series is likely to be linked adapting a nuclear device to a specific 
delivery system (e.g. a ballistic missile) because both India and 
Pakistan already possess tested nuclear devices.
    India tested a nuclear device in 1974. China provided Pakistan with 
the design of a nuclear device it tested in 1966 according to press 
reporting. As a result, neither India or Pakistan required nuclear 
testing to be assured that it had a nuclear device that would produce 
nuclear yield. Adapting the nuclear device to be used in a delivery 
system such as a ballistic missile or aircraft could require additional 
testing for safety and reliability purposes. The ability of both 
nations to test a significant number of devices in a short period of 
time suggests both an ample inventory of fissile material, and a 
scientific and industrial base able to support the introduction of 
nuclear-armed delivery systems rapidly.
    Both India and Pakistan have recently tested advanced ballistic 
missiles making it likely that the nuclear devices tested are being 
prepared for specific delivery systems. Both India and Pakistan have 
several choices of ballistic missiles, cruise missiles, and tactical 
aircraft depending on the range required for their purposes. However, 
the most likely delivery systems for India and Pakistan's nuclear 
payloads are ballistic missiles rather than long-range aircraft or 
cruise missiles. None of the nations India and Pakistan seek to deter 
have ballistic missile defenses, but they do have air defenses. The 
general absence of ballistic missile defense is driving proliferators 
to favor ballistic missiles as the delivery system of choice for 
weapons of mass destruction.
Implications for international security of the India and Pakistan 
        nuclear tests
    The India and Pakistan nuclear tests have a number of serious 
implications for the international security environment. As further 
evidence becomes available, our understanding of both the direction of 
India and Pakistan's program may be achieved, and with it, our 
assessment of the implications may improve as well.
    The counter-proliferation activities of the international community 
have not been successful, despite three decades of multi-lateral arms 
control and diplomatic efforts at bilateral dissuasion.
    Both nations have developed an infrastructure for producing fissile 
material and ballistic missile delivery systems. The extreme poverty of 
both nations, and an interest on the part of other nations in acquiring 
nuclear weapons and ballistic missiles converge to produce serious 
incentives for further proliferation. Ironically, to the degree that 
economic sanctions are effective against India and Pakistan, they may 
produce a perverse outcome. A serious economic recession in either or 
both nations may have the effect of stimulating efforts to earn foreign 
exchange through the export of nuclear weapons or technology and 
ballistic missiles.
    The exports of China and Russia of proliferation-enabling 
technology and hardware to South Asia has compressed the time required 
for both nations to develop and deploy a functional nuclear weapons 
capability. This has consequences outside of the South Asian region. 
For example, China sold medium-range ballistics missile to Saudi Arabia 
in the mid-1980s. This missile was designed to deliver a nuclear 
warhead, although it is not generally believed that these were supplied 
by China. With Pakistan's successful test, the possibility of its 
readiness to transfer nuclear weapons to other users of Chinese 
missiles cannot be dismissed as a possibility.
    The absence of a consensus among the major powers concerning the 
imposition of sanctions or other measures after-the-fact makes it less 
likely that other potential proliferators will be deterred from 
embarking on WMD or ballistic missile developments if compelling local 
or regional security concerns are present.
    The high cost of a modern conventional defense is making the 
acquisition of WMD and ballistic missiles the least-cost security 
solution for some of the world's most impoverished states. The cost of 
developing nuclear weapons has declined by an order of magnitude in the 
past half-century, but appears likely to decline even more rapidly in 
the next two decades. These trends are likely to further stimulate WMD 
and ballistic missile developments by nations who perceive a nuclear 
capability to be in their interest.
    Membership in strong mutual security agreements (e.g. NATO or US 
bilateral security arrangements) appear to be a more effective 
instrument for deflecting nuclear weapons aspirations than broad multi-
lateral arms control agreements. Linking arms control behavior to 
mutual security arrangements appears to be the approach most highly 
correlated with non-proliferation behavior.
Implications for US counter-proliferation policy
    The India and Pakistan nuclear tests reveal the limits of the 
counterproliferation activities of both the United States and the 
international community. Starkly expressed, US counterproliferation 
policy has failed, and we have no ``Plan B.'' There is a legitimate 
argument over whether or not the US policy could have been successful 
in the long-term. However, it is now apparent that the underlying 
architecture of current policy will not permit the US to achieve its 
counterproliferation aims in the future. The proliferation of advanced 
industrial technology has made many aspects of the design and 
manufacture of nuclear weapons and their means of delivery widely 
accessible in commercial markets. Nuclear weapon design, development 
and manufacturing information has become widely available. To cite only 
one extreme example, a US environmental advocacy group, has published 
nuclear weapon design information on the Internet that can provide 
material assistance to a potential proliferator. The restraints of the 
Cold War period in China and Russia concerning the export of enabling 
technologies faded during the latter part of the Cold War, and have now 
largely evaporated.
    The proliferation problem appears destined to become a more serious 
one for the United States unless it modernizes its counterproliferation 
strategy and policy. The subject deserves more a detailed discussion 
than is possible here, but I will offer a few of the contours of a 
modernized counterproliferation strategy and policy that could be 
helpful in coping with the consequences of the India and Pakistan 
nuclear tests.
    US proliferation policy failed to integrate the local or regional 
security concerns of potential proliferators. Professional diplomats 
and analysts of regional affairs have long recognized that India could 
not accept the status quo of China's legitimate and exclusive regional 
possession of nuclear weapons. Pakistan's poverty, absent security 
support from another powerful nation, has driven them to offset India's 
military advantage through its own WMD and ballistic missiles.
    A new policy needs to be able to distinguish between proliferators 
who are adversary states from those who are friendly. US 
counterproliferation policy has had perverse characteristics. North 
Korea, an adversary proliferator has been authorized to receive 
advanced civil sector nuclear power facilities, while such facilities 
have been denied to India and Pakistan who are friendly states.
    The United States needs to provide access by friendly states to 
ballistic missile defense technology or hardware to offer an 
alternative to such states to obtaining WMD.
    US proliferation sanctions and restrictions have had a counter-
productive impact. The Pressler amendment made Pakistan less secure and 
diminished the effectiveness of internal restraint on exercising the 
nuclear option. US pressure on India to sign the Comprehensive Test Ban 
Treaty (CTBT) intensified their sense of nuclear isolation and 
vulnerability, and may have precipitated the test series. A modernized 
US counterproliferation posture needs to reflect these concerns and 
integrate them into the full range of policy instruments available to 
the President. These instruments should include such measures as arms 
transfers, diplomatic and military support, foreign assistance, and 
other measures. The President's inventory of instruments should be 
enriched, and not impoverished by offering sanctions as the only policy 
alternative to engage the proliferation problem.
    The proliferation problem is a real one, but it has not emerged 
with the India and Pakistan test series. The problem has been 
developing for more than a quarter-century. The test series ended the 
basis for US complacency based on its efforts to implement a noble, but 
flawed policy. I urge the Congress to collaborate with the Executive 
branch to develop a modern, comprehensive, and flexible 
counterproliferation strategy and policy that will enable us to better 
cope with WMD and ballistic missile proliferation by friend and 
adversary.

    Senator Brownback. Thank you very much. I appreciate that.
    Dr. Haass, Thank you for joining us. The floor is yours.

  STATEMENT OF DR. RICHARD HAASS, DIRECTOR OF FOREIGN POLICY 
 STUDIES, BROOKINGS INSTITUTION, FORMER SENIOR DIRECTOR, NEAR 
  EAST AND SOUTH ASIA, NATIONAL SECURITY COUNCIL, WASHINGTON, 
                              D.C.

    Dr. Haass. Thank you, Mr. Chairman. It is good to be back. 
Senator Robb, Senator Hagel. Also in the interests of time I, 
too, would like to put my whole statement in the record and 
just make a few remarks.
    Senator Brownback. Without objection.
    Dr. Haass. Obviously, the Indian and Pakistani tests were 
and are unhelpful and unwelcome. Still, it is important to keep 
matters in perspective. There are several scenarios that would 
be worse than testing for South Asia. Among them would be the 
actual deployment of nuclear weapons in the field, secondly, 
their use, or third, their transfer to third parties.
    It must be, then, the goal of American foreign policy to 
see that none of these three possible future scenarios comes 
about.
    The possibility of a fourth scenario, Mr. Chairman, that of 
roll-back--that is, to bring about a nonnuclear South Asia is 
not a realistic policy option for the United States at this 
time.
    As a result, I would describe the foreign policy challenge 
facing the United States for the foreseeable future in this 
part of the world as one of management, not prevention.
    Current U.S. policy, which is the implementation of 
punitive economic sanctions, is almost certain to be irrelevant 
to the management challenge and, at worst, counterproductive. 
Let me cite four reasons.
    First, the United States has important interests in both 
India and Pakistan, whether it is the promotion of democracy 
and human rights, commercial development, and cooperating on a 
host of regional and global challenges, some of which are quite 
strategic. We do not have the luxury of simply mortgaging or 
holding all of this hostage to our disagreements in the nuclear 
area.
    Second, we may need to provide both India and Pakistan 
incentives and technology and various forms of assistance to 
help them manage the nuclear jam they have gotten themselves 
into. It may be in their interests and ours to actually provide 
some tools to help manage or stabilize their new situation.
    Thirdly, in the case of Pakistan in particular, there is a 
real risk that U.S. economic sanctions, given Pakistan's 
fragile economic state, could push Pakistan over the economic 
brink and--I will be blunt and, since I am no longer in the 
Government, I have the luxury of being undiplomatic--a Pakistan 
that is stable and in possession of nuclear weapons is bad 
enough. A Pakistan that would be unstable and in possession of 
nuclear weapons would be a nightmare.
    Fourth, one other aspect of U.S. policy I would question is 
the whole rush to put this in the so-called P-5, the five 
members of the Security Council who also happen to be the five 
haves under the nonproliferation treaty. This is exactly the 
discriminatory grouping that in some ways provokes India, so it 
is very hard to see how this group, acting as the five, could 
play much of a helpful role. It will probably compound the 
problem.
    This said, and like you, I recognize that sanctions are a 
fact of life. As a result, the immediate goal of American 
foreign policy ought to be to negotiate a package of measures 
that stabilizes the situation in South Asia and that is 
acceptable to India, to Pakistan, the administration, and to 
yourselves in Congress.
    Or, to put it another way, diplomacy must now try to come 
up with the exit strategy that the Glenn legislation fails to 
provide.
    What might such a package look like? Well, let me suggest 
that India and Pakistan should be urged to agree to four steps:
    First, no further testing of nuclear devices.
    Secondly, no deployment of missiles with nuclear warheads.
    Thirdly, no transfer of nuclear or missile technology to 
any third party.
    And fourth, to enter into confidence-building measures, and 
let me just give you three examples:
    regular, high-level meetings between the two sides;
    secondly, exchanges of observers at military exercises;
    and thirdly, no missile flight tests in the direction of 
one another's territory.
    Indeed, as a corollary to that last item, I would urge them 
to both undertake something of a pause on missile flight tests 
of any kind during the current situation that we find ourselves 
in.
    What would we then have to do in return? The United States 
would remove the punitive sanctions and keep in place only 
those sanctions that would specifically block the transfer of 
technology that would contribute to Pakistani and Indian 
nuclear and missile programs.
    In a more positive way, in addition to rolling back 
sanctions, we would consider providing intelligence or 
technology to the two sides that would help them stabilize 
their relationship. We would also make available any diplomatic 
assistance the two sides may want, be it for Kashmir or any 
other problem.
    While I am mentioning the things that we should do, let me 
suggest two things that we ought to avoid.
    First, the United States ought not to be introducing new 
political sanctions at this time. I know a lot of people are 
suggesting that the President cancel his planned visit to South 
Asia this fall, scheduled for November. I think it would be a 
big mistake to cancel the visit.
    Here is an opportunity for him to make his arguments to the 
Pakistan and Indian Governments. Here is a chance for him to 
make his arguments to their publics. If our arguments are so 
strong, they will help influence what policymakers and publics 
think there.
    We should not approach this trip as some sort of a reward. 
It ought to be a tool of American foreign policy and should go 
ahead.
    Secondly, we ought to avoid providing security assurances 
to either side. This idea has been suggested. I think it is a 
dangerous and risky one.
    Based on history, no American security assurance would be 
enough to actually assure the parties sufficiently to alter 
their behavior. But it might just be enough to get us involved 
in some very complicated situations. So I would avoid the idea 
that the United States would offer security assurances as a 
kind of buy-out of Indian and Pakistani nuclear programs.
    Having heard this morning some of the comments you made, 
Mr. Chairman, I would surmise that you might think that the 
kind of approach I am laying out would be inadequate. I 
understand the desire to punish India and Pakistan as well as 
to send a message to what I believe was described here earlier 
this morning as nuclear wannabes, or would-be nuclear States.
    I would resist that. One result of my suggesting that we 
not go down that road is that any sort of package we do 
negotiate for India and Pakistan is not going to contain 
several of the things that people in the Congress and beyond 
would like.
    In particular, I do not think there is any chance of 
getting formal Indian and Pakistani adherence to the NPT. I do 
not think there is a chance to get either of them to formally 
sign up to the CTBT, and I do not think there is any chance at 
this point to get both of them to sign up to no-first-use 
pledges.
    That said, even if we could, I would be prepared to explain 
how I do not think it would do us much good.
    I also do not think that there is a chance at the moment to 
get them to sign on to a fissile material cut-off treaty, 
although I think in that case it would be something desirable, 
because it would place a ceiling on the amount of material that 
could be used for weapons.
    Let me just make one more point, and then I will stop. I 
want to return to the idea of the relationship between what we 
do in South Asia and what happens in the rest of the world.
    India and Pakistan are paying a price for what they have 
done. They are certainly paying a price economically. Their 
nuclear and missile programs will be expensive. We just saw in 
the newspapers, I believe yesterday, information about India's 
new defense budget. It is going down an expensive path and, as 
we have seen with the U.S. and Soviet history, nuclear weapons 
establishments eat up an awful lot of resources.
    Strategically they will pay a price. They are going to have 
to live with much greater uncertainty and with much greater 
cost should deterrence break down. Again, though, I would think 
the goal for us is to manage the situation and not make it 
worse.
    I do not see why a policy of managing proliferation in 
South Asia is in any way inconsistent with a policy of 
preventing it in other parts of the world. We should therefore 
use every tool in our foreign policy arsenal to discourage 
proliferation in North Korea, Iran, Iraq, and Libya, or any 
other country that we would classify as a potential or actual 
rogue. Discrimination has always been at the core of American 
policy in this area.
    The NPT and the nonproliferation regime itself is based on 
discrimination. It separates the world into two groups, the 
five haves, and the have-nots.
    U.S. policy has further refined this discrimination. We not 
only have the five haves, but we have three countries--India, 
Pakistan, and Israel--the United States has placed in a 
separate category. U.S. policy has treated them differently 
from the rogues. That is realism. It is not theology. But I 
would suggest that realism is what American foreign policy 
needs to be based on.
    Thank you.
    [The prepared statement of Dr. Haass follows:]

                 Prepared Statement of Richard N. Haass

    Mr. Chairman:
    Thank you for providing me this opportunity to share my thoughts 
with you and your colleagues. The decision by India and then Pakistan 
to test nuclear devices is one of the defining events of the first 
decade of the post-Cold War era. It tells us that democracy and markets 
are no panacea, that American primacy is not the same as hegemony, and 
that while the world may be more whole economically, it remains 
fragmented both politically and militarily.
    The Indian and Pakistani tests are both unhelpful and unwelcome. 
South Asia has moved to a new level, one of two explicit nuclear 
weapons states that have openly tested. U.S. efforts to prevent this 
new situation from coming about--a policy predicated on deterrence 
through the threat of comprehensive economic sanctions--failed in the 
aftermath of the election of the new Indian government.
    Still, it is important to keep matters in perspective. Even before 
these tests were carried out both countries were de facto nuclear 
weapons states that in one case (India) had tested overtly and in 
another (Pakistan) had developed a capability without visible testing.
    Moreover, there are several scenarios that can be imagined that 
would be far worse than testing for South Asia and the world, including 
actual deployment of nuclear weapons, their use, or their being 
transferred to third parties. It must be the goal of American foreign 
policy to prevent any of these outcomes. ``Rollback'' to a non-nuclear 
South Asia is simply not a realistic policy option for the foreseeable 
future. As a result, U.S. policy toward this region must be one of 
management, not prevention.
    Current U.S. policy--in this case, the implementation of punitive 
economic sanctions--is almost certain to be irrelevant to this 
management challenge and at worst counter-productive. The United States 
has important interests in both India and Pakistan, including the 
promotion of democracy and human rights, expanding economic 
cooperation, and cooperating on a host of regional and global 
challenges. In addition, we need to provide India and Pakistan 
incentives and possibly assistance to help them manage their new 
nuclear challenge. At the same time, it makes no sense to introduce 
broad sanctions that could actually weaken political authority in 
Pakistan, a state already burdened by economic and political problems. 
To be blunt, a stable Pakistan in possession of nuclear weapons is 
reason enough to worry; an unstable Pakistan would be that much worse.
    This said, sanctions are a fact of life, and the immediate 
objective of U.S. foreign policy should be to negotiate a package of 
measures that stabilizes the situation in South Asia and is acceptable 
to India, Pakistan, the Administration, and a majority in Congress. 
Diplomacy must provide the ``exit strategy'' that the relevant 
legislation fails to lay out.
    What might such a package look like? India and Pakistan could agree 
to the following steps:

  <bullet> no further testing;
  <bullet> no deployment of missiles with nuclear warheads;
  <bullet> no transfer of nuclear or missile technology to any third 
        party;
  <bullet> new confidence-building measures (CBMs), including regular 
        high-level meetings, exchanges of military observers, and no 
        missile flight tests in the direction of one another's 
        territory.

    In return, the United States would agree to remove the punitive 
sanctions and keep in place only those sanctions that block the 
provision of technology that has the potential to contribute to Indian 
and Pakistan missile and nuclear efforts. We should also consider 
providing intelligence and/or technology that could contribute to 
regional and nuclear stability. U.S. diplomatic assistance ought to be 
made available where both countries desire.
    There are two steps the United States should not take. We should 
not introduce additional political sanctions, including the 
cancellation of the President's long planned trip to the region this 
autumn. Such a visit is an opportunity to address the problems caused 
by the recent tests and to build both bilateral relationships. Nor 
should the United States offer security assurances to either 
protagonist. It is not at all obvious that U.S. assurances would be 
enough to prevent a crisis from materializing--but they could be enough 
to draw us into a complicated and dangerous situation.
    There are other potential elements in any negotiated package, 
including formal adherence by India and Pakistan to the NPT and the 
CTBT, ``no first use'' pledges, and mutual cessation of fissile 
material production. It is my judgment that it will not be possible to 
get both to formally sign on to the first three commitments and that it 
would not make much difference if they did. A freeze or ceiling on 
fissile material production would be more meaningful but also extremely 
difficult to achieve and monitor.
    For some in the Congress and beyond, the approach recommended here 
will not be enough. There is a desire to punish India and Pakistan and 
to send a message to other would-be nuclear states that proliferation 
doesn't pay.
    This desire to send a message is understandable but should be 
resisted in this instance. India and Pakistan will pay a price--
economically and strategically--for their decisions. The goal for U.S. 
policy must now be to manage the situation as it exists. We do not have 
the luxury of doing otherwise.
    Moreover, there is no reason that a realistic policy of management 
for these two countries need lead to proliferation elsewhere. We should 
continue to use all our foreign policy tools to discourage and prevent 
the spread of nuclear weapons to such countries as North Korea, Iran, 
Iraq, and Libya.
    Discrimination has long been at the core of U.S. non-proliferation 
policy; after all, the NPT itself treats the five nuclear ``haves'' 
different from everyone else. Also, the United States has always viewed 
the nuclear programs of Israel, India and Pakistan as something 
distinct from the programs of the so-called rogues. Such realism is 
what a successful foreign policy requires.
    Thank you.

    Senator Brownback. Thank you, Dr. Haass, for your 
presentation. I would suggest principles is what foreign policy 
needs to be based on, and you need to deal from those 
principles.
    I recognize we have a very complex and difficult world, and 
I noted earlier we have been living a lie for some period of 
time that either of you might describe more artfully than what 
I have put forward, but we have been about a task, and trying 
to reduce the threat of nuclear holocaust in this world for 
some period of time, and that has been a principle of U.S. 
policy.
    You can say we have achieved more success at times than at 
other times and, frankly, with all of the Soviet Union and some 
of those new nations actually giving up their nuclear weapons, 
we have been on a pretty good roll of actually nations giving 
it up.
    Now, you can say, well, they did not develop, they really 
did not have a use for it, they are not as threatened as what 
happened in the India and Pakistan, all of which would be true. 
But to walk away from that strategy now and to say, okay, we 
are just in a different chapter and there is just going to be 
more nuclear weapons, is not a step I am willing to accept, and 
I think the signal that it sends to too many other places is so 
dangerous and so provocative that it just provokes unacceptable 
sorts of consequences.
    So I understand you have spent a lifetime studying this, 
and my simplistic look at it may not be acceptable to many, yet 
it is a path that the United States has been on for a long 
period of time, and I do not think it wise for us to go another 
route at this point. We will be looking at ways that we can go 
differently.
    In the interests of time for both of you I would like to 
pose--Dr. Schneider, you are raising an issue of ballistic 
missile defense system, and I realize this is a bit off the 
path, but some have suggested that if we are going to see more 
proliferation of missiles, more proliferation of atomic 
weaponry, that we are going to have to look more at these 
defense systems. Is that your estimation?
    Mr. Schneider. The point in my remark was to try and build 
or create an opportunity for a disincentive for potential 
proliferators to build a reciprocal ballistic missile threat 
capability because a neighboring country does so, and one of 
the ways of doing this would be to provide access for countries 
threatened by ballistic missiles and weapons of mass 
destruction. Access to ballistic missile defense technology so 
that they will enable them to deter ballistic missile and WMD 
threats with defensive systems, rather than to feel that they 
have to have a reciprocal threat to be able to get there.
    This was a suggestion as a subset of the broader issue of 
trying to develop some incentives for people not to 
proliferate, rather than trying to sustain the prevention 
regime which, while I think is well-intentioned, is of 
diminishing practicality because of the widespread access to 
knowledge of ballistic missile design and weapons of mass 
destruction.
    There is an environmental advocacy group that has on the 
Internet a detailed description of the information that would 
provide material information to a potential proliferator 
seeking to develop nuclear weapons, so the information is out 
there. The civil space launch sector provides enough 
information to develop ballistic missiles, so I think it is a 
question of, with countries that face the threat situation, can 
our diplomacy and foreign assistance and other mechanisms 
develop some incentives that could cause countries not to take 
this step?
    I mentioned the diplomatic effort, the correlation between 
countries that have strong security relations with other strong 
powers and their willingness to abstain from WMD and ballistic 
missile development. There may be some way in which we can 
develop an arrangement with Pakistan or India, perhaps a 
security guarantee, and the classic form is not the right case, 
but some related form of assurance that would diminish their 
anxieties about their neighbors to the point where they would 
be willing to de-tune the investment that they might otherwise 
make in weapons of mass destruction and their means of 
delivery.
    Senator Brownback. Could I ask both of you or either of 
you, how many additional nations can we anticipate over the 
next 3 to 5 years going down this path of nuclear development 
and testing, or even if you could give me a potential number of 
countries, or list of countries that you would anticipate will 
start down this road.
    Dr. Haass. I would say that our goal ought to be none, and 
it is not inevitable that will be any. It is not a bad new 
situation. It is not as though what has happened in South Asia 
necessarily breaks the dam. There are three countries that are 
the most obvious candidates, and they are each separate cases.
    One is Iraq, and so long as the international community 
remains at all vigilant, we have the inspections process, and 
are willing to back it up with force, I think we are okay 
there. We will keep Iraq essentially out of the nuclear weapons 
business.
    The second is North Korea. There, the question is whether 
we will continue to be able to implement the agreed framework 
and, if so, again I do not think we will have a problem.
    Thirdly is Iran, and that might be the most difficult of 
the three, possibly within the next couple of years, although 
they may still be some distance away.
    So I do not think that any of these three states 
necessarily will be testing. Indeed, I would right now bet 
against it.
    And coming back to conversation here before, we ought to 
think about different tools to make sure we do not get there. 
We can use one set of tools for South Asia, to manage the 
situation there, while in other parts of the world we may 
emphasize export controls or inspections or, in the case of 
North Korea, an incentive strategy.
    We may need to think about the use of force if everything 
else fails: for example, preventive military strikes. We may 
need to think about ballistic missile defense. We are moving 
away from a one-size-fits-all nonproliferation strategy, and we 
are certainly moving away from a policy where sanctions can 
bear the full burden of trying to make sure that proliferation 
does not happen.
    Mr. Schneider. Just a couple of points on that. While I do 
not think it is inevitable that the number of nuclear weapons 
states will expand, even though the ability to do so is 
becoming increasingly practical from both a cost perspective--
that is, the costs of becoming a nuclear State are declining, 
and the ability to access the pertinent technologies is 
increasing.
    It is more a question of what incentives exist for doing 
so? A scenario that could proliferate the nuclear weapons 
problem in East Asia would be a withdrawal of the United States 
from the region, if the United States were no longer prepared 
to extend its security interest to the region.
    The concern that we have seen in India, where a nonnuclear 
State faces a nuclear State, they would look for a reciprocal 
capability in the case of several countries in East Asia.
    So a lot of these depend on how the international security 
situation spins out over the next number of years, and why it 
is so important for the United States to remain involved.
    Senator Brownback. So you are saying that more countries 
may start up programs as these develop in some of the countries 
identified by Dr. Haass?
    Mr. Schneider. The States that Dr. Haass mentioned of North 
Korea and Iran have well-identified interests in this subject 
and have moved fairly far along. I would think that they would 
continue, because they have an incentive to develop nuclear 
weapons, will continue to do that.
    It is a question of whether there are other States out 
there that will take advantage of the ease of access to the 
pertinent technology and the underlying industrial capability 
necessary to implement it, and that depends upon the security 
environment, which we can influence substantially, and I hope 
we do so.
    Senator Brownback. That is a good point, and you mentioned 
earlier Israel was in a special category.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    Mr. Schneider, let me just clear up something, if I may. I 
was taking notes, and I am not sure that I accurately reflected 
what you said. You made the statement, nuclear reactors or 
light water, as opposed to graphite reactors, were being 
provided, and you did not use that terminology, to North Korea 
but nothing to India and Pakistan.
    I am not sure what you meant to imply by that, whether or 
not we should explore the possibility, particularly under the 
arrangements that we set out in the North-South framework 
agreement, and I would welcome your comment on how well you 
think that is working, if you are, in effect, proposing that 
that is something we ought to do with India and Pakistan.
    Mr. Schneider. I was merely citing it as an example of the 
inconsistency in the way in which we treat friends, or, let us 
say, distinguish between adversaries and friendly States in the 
implementation of our counterproliferation policy.
    North Korea, which is an adversary State, we nevertheless 
are prepared to provide light water reactors under some 
circumstances, whereas India and Pakistan, who are friendly 
States, we are resistant to doing that because of the 
proliferation problem.
    What I was suggesting was that a reconstruction of our 
policy might look to having differential policies between 
nuclear weapons wannabes who are adversaries vis nuclear 
weapons wannabes who are friendly States, and one of the issues 
might be, look to a differential set of incentives that could 
include access to civil nuclear power if that turned out to be 
a constructive incentive.
    Senator Robb. But the fact that in the North-South 
framework agreement South Korea is providing the principal 
dollars for such investment, and the next biggest chunk was 
supposed to come from Japan, and the U.S. was the third 
principal, and they were blamed for some of the heavy fuel, and 
there have been all kinds of disputes now and no one seems to 
be willing to go forward. That was with a vested interest on 
the South in terms of resolving the tensions that they had.
    And here you have India and Pakistan across a common 
border. It seems to me the source of funding for that type of 
activity.
    Mr. Schneider. The funding issue is an important one, but 
it is also a question of deauthorization and whether you see 
that as part of the strategy.
    Senator Robb. Let me proceed. Obviously, we have some 
different interests, given the number of troops we have 
stationed there, et cetera, and so we have a variety of 
interests.
    India is in the process of trying to formulate some sort of 
a nuclear doctrine. In your judgment, what would the U.S., what 
ought the U.S. try to get New Delhi to include in such a 
blueprint, and what would the U.S. try to get them to exclude?
    Mr. Schneider. First, in a nuclear doctrine they need to 
have a very clear command and control link to appropriate 
political authority.
    The remark that was made about concern of the equipment 
being in the hands of the armed forces, one of the areas that 
is vitally important is to make sure that there is a command 
and control system that links the authority to use the system 
to the highest political authority in the country, and not the 
armed forces.
    Senator Robb. Putting aside the question of whether or not 
it should be lodged in terms of responsibility in the armed 
forces, do you think either country at this point has the 
capability of providing the near-term stable and reliable 
infrastructure that, say, the U.S. and its allies developed 
vis-a-vis the former Soviet Union and its allies?
    Mr. Schneider. No. This is a problem with all small nuclear 
weapons States, is they do not have the infrastructure to 
manage these things, and this is particularly a problem as the 
types of delivery systems are likely to be mobile rather than 
fixed-site systems.
    Senator Robb. Dr. Haass, you seem to want to respond to 
that question. I have a couple I would like to address to you, 
but I would allow you to address that.
    Dr. Haass. Just very quickly, right now we want to prevent 
them from deploying weapons. I think that ought to be the 
principal focus of American foreign policy. If we fail at that 
focus, and if one or the other actually deploys weapons on 
missiles in the field, we may actually have to think very hard 
about ways that we could shore up command and control and so 
forth just to make sure that we do not have unauthorized or 
accidental deployment.
    Senator Robb. This is probably our most urgent near-term 
need in this whole area, to keep from having an escalation that 
would go beyond anything that we could control, or would have 
any confidence in.
    What would you propose specifically to deal with that 
question? You talked about some confidence-building measures 
that go to the relationship generally, but those do not really 
address the near-term threat that has been certainly bandied 
around in the press in the region about both the ability, the 
capability of the immediate weaponization and the transfer to a 
missile that is capable of delivering some of these potential 
miniaturized warheads in the near term.
    I mean, you have got a lot of very practical advice. You 
always do that. You take a complex situation and eliminate a 
lot of the more interesting but frequently unworkable solutions 
and come down with a relatively modest set of doable things, 
but in this situation we are talking about something that could 
be very short-term, depending on whether or not we have any hot 
pursuit type comments, or what else?
    Admittedly, that is a different situation, but it is the 
sort of frenzy we are dealing with right now in terms of the 
nationalist spirit that has clearly motivated the nationalists 
to take the actions taken to date.
    Dr. Haass. I only know two things, Senator. It is not a 
very full cupboard. Again, if they were to take the step of 
putting weapons on missiles, I think it would be extremely 
destabilizing.
    I am not sure they have thought through the consequences. I 
am not persuaded that you have an incredibly elaborate, 
sophisticated set of thinking on both sides, one that has 
assessed the consequences for warning and decision-making time.
    As a result, I do not think we should rule out the 
possibility that having Government officials or others explain 
some of the problems the United States and the Soviets went 
through, say, in the fifties, would be a good thing to do. 
Indeed, it might be something the Americans and Russians could 
even do together at this point, to talk to them about the 
difficulties and the risks of going down that path, and at 
least make them think twice about it.
    The other policy option is a more basic question of de-
sanctioning, to link a rolling back of the punitive sanctions 
to their agreeing not to take this very dangerous step. That 
would be at the heart of the package that I would like us to 
offer.
    Senator Robb. Well, let me address that for just a second, 
because you had suggested no additional sanctions, and you 
specifically mentioned do not cancel the President's planned 
trip.
    Well, the truth is that he has a planned trip to China 
right now with a fixed date. The trip to India and Pakistan 
later in the year is still in the planning stages.
    I personally believe that, given the deliberate failure to 
communicate, in the case of the Indians, and the failure to 
heed a very personal plea from the President to Prime Minister 
Sharif makes it awkward, at the very least, to say well, the 
fact that you either deceived or rejected specific advice in 
the near term does not do anything to deter my plans from 
coming to see you right now, and I put it somewhat--I would 
draw an analogy to China. I find a very different situation, 
and a different number of factors.
    Let me give you a question I think we might be able to come 
together on. Could we not make the setting of a specific date 
contingent upon progress in some of these areas that we have 
already outlined as necessary?
    And I do not know that we should absolutely say you must 
comply with provisions 1, 2, 3, 4, 5, 6, 7 and 8. If they were 
to comply with 7 and not 8, I would like to see perhaps some 
flexibility there, but it seems to me that this is one of the 
areas where we have a little leverage that we ought to use and 
say, not in effect that we are canceling it, or that we do not 
want to maintain communications, or whatever, but before we are 
able to finalize this we need to demonstrate that we are at the 
very least moving in a direction that would clearly reduce 
tensions, reduce the likelihood of having the kind of reaction 
in this very volatile region that could prompt military 
activities that would be very difficult to bring under control, 
to say the least.
    Dr. Haass. I think it is a good idea. We lose nothing for 
keeping open the possibility of the trip, and it may give us 
some leverage. We could send a signal that the President will 
factor into the determination of whether to go in November what 
sort of steps are or are not taken, as well as statements that 
are made or not made by the two sides, and that might get us 
some leverage.
    But even if things escalate in ways we do not want, or 
evolve in ways we do not want, it is important not simply to 
see American Presidents going places as a reward. It also gives 
us a great opportunity to make our case.
    Senator Robb. Which is precisely the reason that I have 
encouraged a regular schedule for Head of State visits in terms 
of some important relationships that may have all kinds of ups 
and downs in the road.
    But in this particular case, since we are talking about 
something that was related as much to the 50th Anniversary 
celebration and other matters as the establishment of a 
permanent summit-type arrangement, it seems to me that we can 
slow-walk the approval and base it--and it seems to me the 
White House has already done that in the way it has proceeded.
    They said it was under review, and I think the statement 
was issued yesterday that under review should now be 
interpreted not that it is on course and we just have not 
announced it, but it will require an affirmative decision to go 
ahead and make the trip, is probably the best place to leave 
it.
    And I am not trying to inject Congress into a role that 
exceeds what we ought to be exercising here. I personally 
stated my concerns about going ahead with the trip under the 
circumstances, but again it seems to me the circumstances are 
quite unique and very specifically related to the Heads of 
State relationship rather than a broader relationship and some 
other concerns that we have.
    I gather that we are not too far apart on that particular 
question.
    Dr. Haass. We are not too far apart.
    Senator Robb. Let me just make a comment, and I have 
already said that--acknowledged that you have frequently taken 
complex situations that appear to have lots of little, neat 
handles, and shown why those handles are either dangerous or 
nonproductive.
    But you seem to have taken off the table almost everything 
that has been proposed by any number of people who are 
interested in the topic and said we ought to limit ourselves 
to, if you are going to test, test in the other direction, send 
some folks back and forth, establish some contacts and a 
dialogue, and do not have much hope for anything beyond that.
    Am I being too minimalist in describing your expectations 
for what we ought to be doing affirmatively?
    Dr. Haass. Based upon my own experience with India and 
Pakistan, even a modest package is quite ambitious. So, what 
you describe as minimalist, I would break out a bottle of 
champagne if we could get it all.
    Secondly, I think there is a danger in us getting too 
wrapped around the formal arms control axle here, in putting so 
much emphasis on formal adherence to the CTBT or the Fissile 
Material Cutoff Treaty and so forth. There is so much symbolic 
and ideological baggage with those things, particularly with 
India, that I do not think we now ought to make that a big part 
of what it is we want to get.
    If we can get a no-testing understanding as opposed to a 
formal CTBT signing, I would be pretty happy. If we get some 
serious, specific confidence-building measures--it may not have 
the big-package sex appeal of some of the arms control stuff--
but it may actually do more to stabilize the situation in South 
Asia.
    So, as a rule of thumb here, I would get very specific and 
very focused on South Asia. And I would not allow ourselves to 
approach this through the lens of what can we do here to shore 
up the global nuclear nonproliferation regime. I would really 
focus on what can we do here to shore up stability in South 
Asia, and look to other policies and other tools to shore up 
the global nonproliferation regime.
    Senator Robb. With respect to the NPT, do you think it 
would be a good idea, given the difficulties that you have 
already described, for the Perm 5 to consider amending the NPT 
to provide for this new category of membership--that you are 
not a member of the club, but we acknowledge you have got it, 
and we are not going to force you to get rid of it?
    Dr. Haass. My hunch is no. I do not think it would be 
feasible. And I am not sure it is desirable either to open that 
up. Some things in life are almost better dealt with tacitly or 
finessed. And we will want to leave to ourselves the discretion 
of making some distinctions. And it would be easier and more 
practical for our foreign policy to have latitude about which 
countries we want to come down on like a ton of bricks and 
which countries we may be more tolerant of in this area as we 
see either a larger set of interests or some rationale for why 
it is they are taking certain steps.
    Senator Robb. Speaking of interests, we have normally taken 
the position that there are certain areas in which the U.S. has 
a vital strategic interest. India/Pakistan has not quite been 
in that category. Should we reconsider, given events of the 
last few weeks?
    Dr. Haass. I would think that avoidance of nuclear weapons 
use in South Asia or anywhere ought to be of vital national 
interest. Which means that it ought to receive a greater 
priority in the intelligence area--in terms of trying to 
monitor or use intelligence to be able to help prevent it--and 
diplomatically.
    It is hard to think of another part of the world where 
there is a greater inequality, or gap, between the objective 
importance of the part of the world and how much attention and 
resources the United States devotes to it. South Asia probably 
comes out the worst, given that we are talking about a fifth of 
the world's people, all the strategic and economic and other 
forms of importance it has, and the historical lack of 
attention that we have given it. Maybe one of the salutary 
effects of recent events will be to help us close that gap.
    Senator Robb. One final question, and I would direct it to 
both of you if I could, in terms of how visible or high profile 
the U.S. role in addressing this new or enhanced challenge that 
we face in the area ought to be?
    Dr. Haass. Based on my own experience with dealing with 
issues like Kashmir, our role should be as visible as it is 
welcomed. The purpose here is not, as you know, to score 
debating points, it is to get the Indians and the Pakistanis to 
do some smart things and not to do some dumb things.
    And if a more active, visible U.S. role would facilitate 
it, I would say great. If it would not, I would pull back. 
Given how rubbed raw the U.S./Indian relationship is at this 
point, it is hard to see how a high-level U.S. role would help. 
I just do not think a lot of the situations are yet ripe for 
it. The Kashmir diplomacy is not at a point where some sort of 
diplomatic intervention could move it forward. Relations 
between India and Pakistan are truly undeveloped, not simply as 
a result of the new government in India, but for historical 
reasons.
    I do not see this as a situation where the U.S. needs to 
take the lead. Which does not mean we need to fall back on the 
P-5 or the G-8. There is something in between. What we may want 
to end up thinking about is some sort of a diplomatic division 
of labor, where we do some things unilaterally, we look to 
others to do things that they can and we cannot anymore because 
of our sanctions, and we may want to do some things in tandem. 
Maybe we and the Russians can talk, as we said before, about 
certain nuclear risk prevention measures. Maybe the British or 
others could say certain things.
    South Africa, Ukraine, the countries that have forsworn a 
nuclear option, they have a certain capacity now to make 
relevant points. We may want to think of an international 
division of labor, where the U.S. is part of the mosaic rather 
than necessarily the point person.
    Senator Robb. Mr. Schneider, do you want to address that 
question?
    Mr. Schneider. Just one point. I do think on the 
proliferation dimension of the problem, the U.S. level of 
activism should be substantially higher than it has been. And 
in terms of objective, I would put it equally high with 
avoiding weaponization of these programs, to prevent the export 
of these capabilities.
    I am very concerned about a second wave of proliferation. 
The State Department spokesman mentioned on April 10th that the 
Pakistani missile originated in North Korea. And if we are 
going to have a second wave of proliferation rather than 
proliferation coming out of the nuclear powers, to coming out 
of collaboration between nuclear wannabes or rogue nuclear 
states or something like that, I think it is a much more 
dangerous and much more difficult situation to control.
    So, I think we ought to put the prevention of transfer of 
this technology at a high diplomatic level, in terms of our 
aspirations.
    Senator Robb. I will yield back to you, Mr. Chairman. I 
just have one or two other things I wanted to cover.
    Senator Brownback. If you want to close, because I was 
going to ahead and make some closing comments and close the 
hearing, but if you have a couple more you would like to make.
    Senator Robb. Just a quick question on the World Bank or 
IMF--who was it yesterday--the World Bank suspended prospective 
loans of about $1 billion I think for some period of time. But 
given the fact that the other countries that would be involved 
in that decision are not necessarily sharing our enthusiasm for 
that approach and/or there is some other disagreement, how 
likely, in your judgment, is it that our approach through at 
least that part of the sanctions effort will, number one, 
prevail and, number two, have an effect?
    Dr. Haass. The likelihood that our position will prevail in 
the Bank is no better than 1 in 10. Which is another way to say 
I think these loans will go through--certainly to Pakistan, and 
probably to India, as well. And I believe, by the way, that it 
is the correct policy. And it is even consistent with elements 
of the Glenn legislation, which do not want to penalize these 
countries in the humanitarian realm.
    A lot of these World Bank-type loans call for things like 
rural development and education and health, depending upon how 
broad a definition of humanitarian you take. It is not clear to 
me how it would serve U.S. foreign policy objectives to 
penalize either of these countries in this area.
    Senator Robb. One final question about the photograph that 
was put on the wire and everyone saw, when the Iranian Foreign 
Minister and I guess it was the Foreign Minister in Pakistani--
I cannot remember--but, in any event, the clear implication was 
this is not just a Pakistani development; this is an Islamic 
bomb, if you will. How seriously do you take that interest? And 
what do you believe are the potential ramifications for any 
aggressive follow-up by Iran to claim the mantle for a broader 
group than Pakistan?
    Dr. Haass. Well, I do associate myself with something Bill 
Schneider just said. The prevention of leakage to third parties 
ought to be at the top of our list, along with the prevention 
of nuclear use in this part of the world.
    Up to now, both when I was in government and from what I 
understand since, there has been a pretty good record on the 
part of Pakistan and India against third party transfer--at 
least to the best of our knowledge. Obviously things can go on 
and, for all I know, do go on that we cannot monitor. It is 
very hard, for example, when individual scientists meet at some 
conference to know what is passed between them. That sort of 
leakage is almost impossible to monitor.
    With Pakistan, non-transfer should be very closely linked 
to de-sanctioning, and include some very firm understandings 
about the steps they would take to block transfer. And they 
ought to understand that that is a great concern of the United 
States. And this issue also ties into the punitive economic 
sanctions.
    One of the reasons that I am more concerned in the case of 
Pakistan about the impact of economic sanctions is I do not 
want Pakistan to increasingly have to turn to the Irans of the 
world to remain solvent. I do not want to alienate and isolate 
them more than they already are, and make that their lifeline, 
so that you have a kind of ``Pariahs International'' that 
Pakistan ultimately joins. They are already too close to Iran 
and North Korea. So I do not want us to do things that 
necessarily reinforce those bonds.
    Senator Robb. Okay, I thank you, Mr. Chairman.
    Senator Brownback. Thank you.
    And thank you, gentlemen. You are some of our best minds on 
dealing with India and Pakistan, and we very much appreciate 
your willingness to join us. And we are going to need more 
minds focused in this region of the world.
    It seems to me that the world has now read the first couple 
of pages of the next chapter in world history, and it is a very 
dangerous setting. We need to focus on it with clarity and 
vision as to how we want to deal with the situation. If we do 
have further hearings, we will be trying to listen to other 
people on what their suggestions are that we should be doing. 
Or if we have a congressional delegation, I think our first 
objective needs to be, first, to listen for what we can do to 
make the world a safer place. Which is what we have been about 
for years and years as a Nation and want to continue to do.
    Thank you, all, for joining us. I thank the panel for being 
here. The hearing is adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]


                     INDIA AND PAKISTAN: WHAT NEXT?

                              ----------                              


                         MONDAY, JULY 13, 1998

                               U.S. Senate,
       Subcommittee on Near Eastern and South Asian
                   Affairs, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m. In 
room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senators Brownback and Robb.
    Senator Brownback. Good afternoon. Thank you all for 
joining us this afternoon. We are going to be meeting to 
examine the impact of sanctions on India and Pakistan under the 
Arms Export Control Act and other legislation. These sanctions 
are unilateral, and they cut across a wide swath of Indian and 
Pakistani society. They prohibit a variety of assistance and 
commercial transactions between the United States, India and 
Pakistan.
    We are also here meeting today to look at where we go from 
here. How do we move forward with India and Pakistan in a 
constructive way?
    There has been a lot of talk about sanctions in the last 
couple of months. It has consumed the Congress, the 
administration and others as everybody grapples with the issue. 
It is clear from the bind we find ourselves in that our 
sanctions law is due for an overhaul, not just as it applies to 
India and Pakistan but as an instrument of foreign policy.
    Senator Robb and I were in India and Pakistan just 2 weeks 
ago. We were the first high level delegation from the United 
States to meet with both Prime Ministers of both India and 
Pakistan, and along with other Members of the Cabinet in those 
countries, I have to say that the economic situation in India 
and Pakistan, particularly for Pakistan, was not very good 
before we imposed sanctions, and now it is even worse.
    In 1997, U.S. Exports to India were $3.6 billion, and 
imports totaled $7.3 billion, and although India has been 
making progress on economic reforms, there remains a number of 
problems in the area of market access, intellectual property 
rights and protection, and the financial services sector.
    Last year, the prospects for greater U.S.-Indian 
cooperation in all of these areas looked promising, but now 
sanctions have cat a pall on our bilateral relationship.
    Pakistan's situation is far worse. In 1997, U.S. Exports to 
Pakistan totaled $1.2 billion and imports totaled $1.4 billion 
in U.S. Dollars. Pakistan faces a hefty foreign debt of over 
$30 billion, and Pakistan's foreign reserves have dipped to $1 
billion. They are less than 2 months from defaulting on their 
foreign loans, and we heard reports while we were there of 
their stock market valuation falling in half since the testing 
and the sanctions being put in place.
    In recent years, Pakistan has been plagued by double digit 
inflation and an economy which has grown modestly at 2 to 3 
percent. The Government has been making some efforts to change, 
but have not been overall successful.
    Last week, the Agricultural Export Relief of 1998 was 
passed by the Senate by a vote of 98 to zero. This bill exempts 
farm credit programs from the economic sanctions imposed on 
India and Pakistan. I was a cosponsor of this bill, and believe 
it is important not only for India and Pakistan but also for 
the United States.
    Food should never be used as a political weapon. Food 
should never be used as a tool of foreign policy. It does not 
work, and it is not a wise use of a tool that one might have at 
all. It should never be used.
    Additional economic and defense-related waivers were part 
of the original draft of this bill, but they were excised 
following threats of a filibuster. I strongly support economic 
waivers for India and Pakistan, but believe we need to be 
careful in reviewing any defense-related waivers which might 
impact negatively upon our own national security interest.
    As I said before, sanctions are an instrument of foreign 
policy. They are not a substitute for a foreign policy. We need 
to rethink our sanctions legislation. They should provide the 
President with enough flexibility in consultation with the 
Congress to waive sanctions subject to progress in the area 
being sanctioned.
    In the case of India and Pakistan we need to be engaged, 
not only on nonproliferation but on democratization, human 
rights, trade, economics, counternarcotics, and military 
cooperation. If we are not, if we are simply content to levy 
sanctions and watch South Asia slide into a greater security 
and economic abyss, we will pay a heavy price for our neglect 
in the future.
    With that stark image in mind, we need legislation to 
enhance the President's waiver authority for India and 
Pakistan. Features should include an immediate 9-month waiver 
on current sanctions to be followed by a graduated waiver based 
upon Presidential certification that India and Pakistan have 
made progress in the requisite areas.
    We have laid down markers where India and Pakistan can 
demonstrate progress against these important nonproliferation 
objectives. They range from India and Pakistan increased 
transparency in adopting confidence-building measures to 
joining the nuclear nonproliferation treaty.
    Today, we will have with us testifying Assistant Secretary 
of State for South Asia, the Hon. Karl Inderfurth. We thank him 
for appearing today, and we look forward to his testimony, and 
the idea is that he will be sharing with us in the question and 
answer session and we also have the Hon. Bob Einhorn, Deputy 
Assistant Secretary for Nonproliferation, who I understand will 
be able to take questions on nonproliferation specific issues 
should they arise, and we welcome him.
    Before I turn this over to Senator Robb, I will just note 
for everyone in attendance that hopefully this week the U.S. 
Senate will be considering further legislation regarding the 
sanctions on India and Pakistan. Pakistan has been a long ally 
of the United States, and I find ourselves in a situation today 
where I do not think we are working very constructively with 
Pakistan.
    India, I think has the potential and desires to be a strong 
friend, working with the United States, and yet we find 
ourselves in a position of punitive measures toward them when 
each of those countries, both India and Pakistan, in the 
meetings we went through, were acting in their own perceived 
best security interest, India toward China, as I state, and 
Pakistan toward India.
    It is a difficult situation that we find ourselves in as a 
country and as a world. We look forward to exploring some of 
the options for some way out and how the U.S. Can reengage in 
the region in South Asia, and that will be the topic of our 
discussion today, and I think of action probably later this 
week on the Senate floor, following the action last week on 
dealing with the agricultural assistance area.
    I would like now to turn it over to my cotraveler to South 
Asia, Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. I enjoyed our 96-
hour visit to South Asia a couple of weeks ago, and we have had 
any number of discussions since then, before then, and will 
continue to have about this important topic in the hearing we 
have today.
    I am pleased to join you in welcoming Assistant Secretary 
Inderfurth and Assistant Secretary for Nonproliferation, Mr. 
Einhorn, on this important subject. I believe it is imperative 
that we establish a basis for working constructively with the 
administration officials on the sanctions question, and this 
hearing affords us an opportunity to hear their views as we 
formulate our own legislative plans which, as you already 
indicated, are well along, at least in the near term.
    Last week, as you indicated, we addressed the issue of 
rolling back parts of the Glenn amendment on the Senate floor, 
eventually agreeing to a consensus amendment, the Agricultural 
Export Relief Act of 1998. In honesty, it was prompted more by 
considerations on the domestic export side, I think, than it 
was dealing specifically with some of the problems we have to 
address regarding the impact on both India and Pakistan.
    Original language in that measure, however, compelling the 
administration to seek congressional approval of any negotiated 
settlement with India and Pakistan that lists sanctions was 
stricken for a variety of concerns. Some believed the provision 
was too lenient. I argued that it was too onerous and undercut 
the administration's diplomatic bargaining power with New Delhi 
and Islamabad to find a comprehensive solution for lifting 
sanctions.
    Without focusing on the minutiae, I believe it is important 
that Congress provide the administration as much flexibility 
and discretion as possible in addressing this critical issue. 
In drafting appropriate legislation, my sense is that we should 
focus on ensuring that our oversight role is properly 
maintained, requiring stringent time periods of consultation 
while granting the administration full authority to actually 
make policy in this area.
    As we consider the issue, I am reminded of the debate we 
had last year on fast track trade authority. Foreign nations 
were not prepared to make real compromises on their trade 
negotiating positions with the knowledge that Congress could 
significantly alter any agreements that they might reach with 
administration officials.
    Given those circumstances, I supported granting the 
administration it needed up front to negotiate comprehensive 
trade agreements with foreign nations that were in our national 
interest.
    The same reasoning and logic applies here, it seems to me. 
India and Pakistan will offer relatively few concessions in the 
most critical areas with administration officials, whether it 
be CTB membership and agreement on fissile materials, or a 
range of other subjects, knowing that Congress could alter or 
nullify any specific provisions.
    So I am prepared to grant the administration full waiver 
authority conditioned on sufficient assurances being given that 
close and meaningful consultations will occur between the two 
branches of Government on this issue.
    As a start, I hope Secretary Inderfurth will begin today in 
this public forum a comprehensive dialog with us regarding the 
steps he intends and the administration intends to take toward 
improving the current situation in the subcontinent region, and 
how he envisions Congress supporting the efforts of Congress in 
this regard.
    With that, Mr. Chairman, I thank you for calling this 
timely hearing, and I look forward to hearing from our 
distinguished witnesses.
    Senator Brownback. Rick, Bob, welcome to the committee. We 
are delighted to have you here The floor is yours.

 STATEMENT OF HON. KARL F. INDERFURTH, ASSISTANT SECRETARY OF 
 STATE FOR SOUTH ASIAN AFFAIRS, ACCOMPANIED BY ROBERT EINHORN, 
        DEPUTY ASSISTANT SECRETARY FOR NONPROLIFERATION

    Mr. Inderfurth. Thank you, Mr. Chairman. Senator Robb, we 
do look forward to talking with you about----
    Senator Brownback. Can you get the microphone up a little 
closer? It is pretty directional.
    Mr. Inderfurth [continuing]. We do look forward to 
discussing with you the steps the administration plans to take 
to improve the situation in the region, and Mr. Chairman, we 
very much agree with your comment that we need to engage both 
India and Pakistan.
    I would only say as a first comment that, although we are 
absolutely committed to that engagement, and as you will see in 
my testimony we have been pursuing that in recent days in a 
variety of locations, we also want to stress that it is 
absolutely essential that the parties themselves engage each 
other.
    That is why we are looking forward to the meeting that is 
now set in Colombo, in Sri Lanka, between Prime Minister 
Vajpayee and Prime Minister Sharif at the annual SAARC summit 
that will take place on July 28. We are very hopeful that the 
discussions that we are having with Indian and Pakistani 
officials, that you both have had with the prime ministers and 
other officials in New Delhi and Islamabad.
    All of this will help pave the way for them to better 
understand our concerns so that when they meet in Colombo they 
can address their concerns, because unless they do that, we are 
not going to make the progress that we need to.
    So I wanted to start my comments about engagement not only 
with them, but between the two parties themselves.
    Mr. Chairman and Senator Robb, thank you for the 
opportunity to appear before your subcommittee today to 
continue our discussions about the critical situation in South 
Asia. In our previous meetings we have discussed how the 
nuclear tests by both India and Pakistan in May have 
dramatically altered the context of our South Asian policy.
    We have also reviewed the definitions and scope of 
sanctions that have been applied against both countries, as 
required by law, as well as our efforts to reestablish a basis 
for resuming the type of broadbased cooperative relations that 
we had hoped to promote with both countries prior to the tests.
    Today, I wish to review briefly for you the developments 
that have occurred in our diplomatic exchanges with the Indian 
and Pakistani Governments, as well as certain issues with 
regard to the sanctions regimes, as you discussed in your 
remarks.
    As you know, Mr. Chairman, we have begun in earnest a 
process of reengagement with both India and Pakistan in an 
effort to secure genuine progress on our nonproliferation 
concerns and in improving relations between the two countries.
    Deputy Secretary of State Strobe Talbott, who has been 
given the lead by the President and the Secretary of State for 
our contacts with the Indian and Pakistani Governments, has 
held two productive sessions with Indian Deputy Planning 
Commissioner Jaswan Singh, who is Prime Minister Vajpayee's 
designated envoy to the United States on these matters.
    I was pleased to accompany the Deputy Secretary to 
Frankfurt this past week for his most recent meeting with Mr. 
Singh, and Mr. Einhorn was in Frankfurt with us as well.
    Similarly, with Pakistan, the Deputy Secretary has held 
separate and useful meetings with Prime Minister Nawaz Sharif's 
envoy, former Foreign Minister Shahabzada Yaqub Khan, as well 
as Foreign Secretary Shamshad Ahmed.
    We are grateful for the constructive efforts of you and 
Senator Robb to address the policy dilemmas of South Asia in 
the wake of the nuclear tests. In particular, we noted with 
great interest the conversations the two of you had with key 
players in both New Delhi and Islamabad on your recent trip. We 
believe that it is critical that the Governments, press and 
publics of both countries develop an understanding and 
appreciation of the role that both the executive branch and 
Congress plays in these issues.
    As a result of these various diplomatic exchanges and 
efforts, it appears we are making progress in defining the 
principles that will underpin U.S. Relations with India and 
Pakistan in the posttest environment and laying out our 
nonproliferation and other objectives, and in discussing the 
steps and activities that will be necessary to get us there. We 
will not let our current momentum slip.
    The Deputy Secretary plans to travel to both Islamabad and 
New Delhi next week, where I will accompany him, along with the 
Vice Chairman of the Joint Chiefs of Staff, General Ralston, 
and the NSC Senior Director for Near Eastern and South Asian 
Affairs, Bruce Riedel.
    Mr. Chairman, we have discussed in earlier hearings the 
sanctions that we are required by law to place against both 
India and Pakistan, and for your convenience I have brought 
with me a fact sheet on the sanctions that have been provided 
to the committee previously.
    I ask your permission to include the fact sheet in the 
record of today's proceeding.
    Senator Brownback. Without objection.
    [The information referred to follows:]

               Fact Sheet on India and Pakistan Sanctions

    The United States imposed sanctions on India and Pakistan as result 
of their nuclear tests in May.
    In imposing these sanctions, we seek: to send a strong message to 
would-be nuclear testers; to have maximum influence on Indian and 
Pakistani behavior; to target the governments, rather than the people; 
and to minimize the damage to other U.S. interests.
    Our goals are that India and Pakistan: halt further nuclear 
testing; sign the Comprehensive Test Ban Treaty (CTBT) immediately and 
without conditions; not deploy or test missiles or nuclear weapons; 
cut-off fissile material production for nuclear weapons; cooperate in 
fissile material cut-off treaty (FMCT) negotiations in Geneva; maintain 
and formalize restraints on sharing sensitive goods and technologies 
with other countries; reduce bilateral tensions, including Kashmir.
    Accordingly, the United States:

  <bullet> Terminated or suspended foreign assistance under the Foreign 
        Assistance Act, with exceptions provided by law (e.g. 
        humanitarian assistance, food, or other agricultural 
        commodities.

          --$21 million in economic development assistance and housing 
        guarantee authority for India terminated.

          --$6 million Greenhouse Gas program in India suspended.

          --Trade Development Agency will not consider new projects.

          --Most assistance to Pakistan had already been prohibited.

  <bullet> Terminated Foreign Military Sales under the Arms Export 
        Control Act and revoked licenses for the commercial sale of any 
        item on the U.S. Munitions List.

          --Suspended delivery of previously approved defense articles 
        and services to India.

  <bullet> Halted any new commitments of USG credits and credit 
        guarantees by USG entities (EXIM, OPIC, CCC).

          --Administration will support legislation to permit CCC 
        credits for food and agricultural commodities.

          --OPIC had only recently reopened in Pakistan; however, India 
        was one of OPIC's top five countries receiving and average of 
        $300 million annually in OPIC support.

          --EXIM had only recently reopened in Pakistan with one 
        expression of interest pending for $1.1 million; $500 million 
        in pending financing in India will not go forward.

  <bullet> Gained G-8 support to postpone consideration of non-basic 
        human needs (BHN) loans for India and Pakistan by the 
        International Financial Institutions (IFI) to bolster the 
        effect of the Glenn Amendment requirement that the U.S. oppose 
        non-BHN IFI loans.

          --$1.17 billion in IFI lending postponed for India.

          --although no IFI loans for Pakistan have been presented for 
        board consideration, $25 million in IMF assistance has been 
        postponed for failure to meet economic benchmarks.

  <bullet> Will issue Executive Orders to prohibit U.S. banks from 
        extending loans or credits to the governments of India and 
        Pakistan.

  <bullet> Will deny export of all dual use items controlled for 
        nuclear or missile reasons. Will presume denial for all other 
        dual use exports to entities involved in nuclear or missile 
        programs.

          --Will toughen existing controls for government military 
        entities.

          --Will continue denial of nuclear exports licensed by NRC or 
        authorized by DOE.

          --Will continue to favorably consider on a case-by-case basis 
        other transactions which do not support nuclear, missile, or 
        inappropriate military activities.

    Mr. Inderfurth. As you know, we are implementing these 
actions firmly and correctly. They will result in significant 
economic and political cost for both countries. That said, our 
purpose, as we have said before, is not to punish for 
punishment's sake, but to influence the behavior of both 
Governments.
    We do not wish for unnecessary harm to fall upon the 
civilian populations of either country, particularly the poor 
and less fortunate, or on U.S. Businesses. For this reason, we 
are pleased that the Senate acted last week to correct an 
obvious unintended consequence of the sanctions law, preventing 
the provision of credits for agricultural commodities.
    It is too early to quantify, Mr. Chairman, the effect that 
the sanctions will have on economic growth or business activity 
in either country. Even prior to the onset of the sanctions 
regime, however, both India and Pakistan had been encountering 
difficulties in their economies.
    In India sluggish industrial production, high tariffs, 
oppressive bureaucratic red tape, infrastructure bottlenecks, 
massive subsidies, and scarce funds for investment had all 
contributed to lower rates of economic growth and a serious 
decline in investor confidence. U.S. Sanctions will amplify 
some of those trends.
    To date, we have not seen from Indian policymakers or 
commentators a serious recognition that the sanctions, much 
less the underlying structural inequities, require serious 
economic policy adjustments. As you had referred to in your 
remarks, the introduction of a lackluster budget by the 
Government only weeks after the nuclear test took place 
underscores that point.
    We are concerned that these developments, which come in the 
midst of significant economic turmoil in Asia, will put at risk 
all of the important economic progress that India has made 
since the onset of liberalization.
    In Pakistan the situation is even more complex, and 
potentially of grave concern. Pakistan has been grappling for 
months with a significant balance of payments shortfall, and 
its economy suffers from similar, if more acute structural 
deficiency.
    The Pakistani rupee has been under serious pressure. On 
Friday it plunged past the 60 per dollar threshold, and the 
stock market has been dropping steadily. Pakistan is 
particularly dependent upon external financing from the IMF and 
the multilateral development banks, and we are concerned that 
with dwindling foreign exchange reserves Pakistan could soon 
begin defaulting on its international obligations.
    We are deeply troubled that Pakistan's leadership does not 
appear to be taking the necessary steps to deal with the 
country's difficult economic position. Not only has Pakistan 
been slow to implement tough economic reforms mandated by the 
IMF and ostensibly espoused by the Prime Minister, it has 
inexplicably acted to alienate the vanguard of the foreign 
investment community, the independent power producers.
    For months, and with what has been increasing intensity, 
the IPP's have been faced with what can only be described as a 
shake-down effort by the Government to conserve hard currency. 
Recently, the Government of Pakistan announced arbitrary 
termination of a number of the IPP contracts, calling into 
question its understanding of and commitment to a fundamental 
business principle, namely, the sanctity of contracts. Pakistan 
can ill afford to act in such a way at this critical time.
    Mr. Chairman, when we last met with you and Senator Robb 
and Senator Hagel, I discussed the effectiveness of the 
sanctions regime, and whether the law permits the President 
sufficient flexibility to maximize his ability to influence 
events and behavior. That discussion, along with Thursday's 
debate on the Senate floor, has put this question into sharp 
relief.
    To the extent that it is possible to discern a common 
thread among the various statements that have been made, it 
appears safe to say that both the administration and the 
Congress share a desire to inject a greater degree of 
consistency, flexibility, and effectiveness into the sanctions 
regimes against India and Pakistan and, indeed, our entire 
approach to sanctions in general.
    That is a very welcome development, and it is absolutely 
vital that we buildupon this very strong foundation to effect 
the requisite changes in our policy and in our laws.
    In the Department of State, Under Secretaries Stewart 
Eizenstadt and John Holum have the lead responsibility for our 
sanctions policy. They have both articulated to the Congress a 
number of principles and objectives that we seek for the 
various sanctions regimes that are already in place, and for 
future instances where sanctions may be needed.
    If you will permit me, Mr. Chairman, I would like to 
address briefly some of the issues that apply specifically to 
the sanctions against India and Pakistan. First, let me be 
clear that we have already laid out a number of objectives that 
we seek in implementing the sanctions. We have consistently 
articulated these objectives in our meetings with the Indians 
and the Pakistanis in previous testimony to this committee and 
others in the Congress, and in our bilateral and multilateral 
exchanges with others. By no accident, they reflect the 
objectives, some shorter term, others longer term, that were 
spelled out in the communiques adopted in the recent meetings 
of the P-5 in Geneva, in the G-8 in London, and in U.N. 
Security Council Resolution 1172.
    To reiterate, we have established that we want to see both 
Governments do the following:
    Conduct no further nuclear tests;
    Sign and ratify the comprehensive test ban treaty 
immediately without conditions;
    Refrain from deploying nuclear weapons or missile systems;
    Halt the production of fissile material for nuclear 
weapons;
    Participate constructively in negotiations toward a fissile 
material cutoff treaty;
    Formalize existing policies not to export weapons of mass 
destruction and missile technology or equipment; and
    Resume direct dialog to address the root causes of tension 
between them, including Kashmir.
    Again, Mr. Chairman, these are steps we want to see both 
Governments take. They are not demands. We fully recognize that 
New Delhi and Islamabad will have to assess them in light of 
their own national security requirements. At the same time, we 
believe these steps cover the full range of what will be 
necessary to make real progress in South Asia.
    We will need to engage with both Governments to explore 
fully how best to pursue each of these objectives in the 
shortest possible timeframes. It is clear that we will need 
greater flexibility than the law currently allows to tailor our 
approach, influence events, and respond to developments.
    In this regard, Mr. Chairman, we seek waiver authority for 
all of the sanctions currently in place against India and 
Pakistan. Of course, we would not utilize that authority until 
such time as substantial progress has been made or achieved on 
the objectives outlined above, or in the event that there were 
a serious negative and unintended consequence to a specific 
sanction, such as impending financial collapse, leading to 
economic chaos and political instability.
    We also would like additional flexibility to guard against 
an overwhelmingly disproportionate effect of these sanctions on 
one country versus another. Ideally, the sanctions should have 
roughly the same effect on India as they do on Pakistan.
    That said, we do not believe it would be advisable, nor 
could we support efforts to codify or legislate the steps that 
India and Pakistan would need to take in order to gain relief 
from sanctions, or to match specific actions by India and 
Pakistan to the lifting of particular sanctions.
    While I believe there is substantial agreement between the 
administration and the Congress on the objectives, we would 
tremendously complicate our efforts to bring about change if we 
were bound by a series of benchmarks and law. Our experience 
with India and Pakistan tells us that neither would respond 
well to such an approach.
    We believe the steps we are encouraging them to take are in 
their own national security interests, and we hope they will 
share this view, but writing such steps into law would create 
the impression that India and Pakistan would be acting under 
pressure, and simply to ensure the lifting of U.S. Sanctions. 
This would, in our view, greatly constrain our chances of 
achieving the outcomes we all seek.
    Mr. Chairman, if I may leave you with one thought, it is 
the conviction that our discussion of these matters should not 
leave India and Pakistan with the impression that a lifting of 
sanctions is imminent. Affirmative, positive steps will be 
necessary by both parties if sanctions are to be lifted and our 
relationship restored to where it had been heading prior to 
events of May, including the Presidential visit later this 
year.
    The sanctions have been imposed for specific purposes, and 
India and Pakistan are well aware of them. As I have already 
mentioned, the administration does not plan to ask for easing 
sanctions unless India and Pakistan have achieved significant 
progress in meeting our nonproliferation objectives.
    That said, it seems we have a rare opportunity to have a 
serious discussion and adopt some changes in law and policy. 
These will better serve our national interests, and better 
position us to deal effectively with both India and Pakistan on 
the critical issues that are at stake.
    Thank you, Mr. Chairman, and we look forward to your 
questions.
    [The prepared statement of Mr. Inderfurth follows:]

                 Prepared Statement of Karl Inderfurth

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee today to continue our discussions about the critical 
situation in South Asia. In our previous meetings, we have discussed 
how the nuclear tests by both India and Pakistan in May have 
dramatically altered the context of our South Asia policy. We also have 
reviewed the definitions and scope of sanctions that have been applied 
against both countries, as required by law, as well as our efforts to 
re-establish a basis for resuming the type of broad-based, cooperative 
relations that we had hoped to promote with both countries prior to the 
tests. Today, I wish to review briefly for you the developments that 
have occurred in our diplomatic exchanges with the Indian and Pakistani 
governments, as well as certain issues with regard to the sanctions 
regimes.
Diplomatic Efforts
    As you know, Mr. Chairman, we have begun in earnest a process of 
re-engagement with both India and Pakistan in an effort to secure 
genuine progress on our non-proliferation concerns and in improving 
relations between the two countries. Deputy Secretary of State Strobe 
Talbott, who has been given the lead by the President and the Secretary 
of State for our contacts with the Indian and Pakistani governments, 
has held two productive sessions with Indian Deputy Planning 
Commissioner Jaswant Singh, who is Prime Minister Vajpayee's designated 
envoy to the United States on these matters. I was pleased to accompany 
the Deputy Secretary to Frankfurt this past week for his most recent 
meeting with Mr. Singh.
    Similarly, with Pakistan the Deputy Secretary has held separate and 
useful meetings with Prime Minister Nawaz Sharif's envoy, former 
Foreign Minister Shahabzada Yaqub Khan, as well as Foreign Secretary 
Shamshad Ahmed.
    We are grateful for the constructive efforts of you and your 
colleagues to address the policy dilemmas in South Asia in the wake of 
the nuclear tests. In particular, we noted with great interest the 
conversations that you and Senator Robb had with the key players in 
both Delhi and Islamabad on your recent trip. We believe that it is 
critical that the governments, press and publics of both countries 
develop an understanding and appreciation of the role that the Congress 
plays on these issues.
    As a result of these diplomatic efforts, it appears we are making 
progress in defining the principles that will underpin U.S. relations 
with India and Pakistan in the post-test environment, in laying out our 
non-proliferation and other objectives, and in discussing the steps and 
activities that will be necessary to get us there. We will not let our 
current momentum slip: the Deputy Secretary plans to travel to both 
Islamabad and New Delhi next week, where I will accompany him along 
with the Vice Chairman of the Joint Chiefs of Staff, General Ralston, 
and the NSC Senior Director for Near Eastern and South Asian Affairs, 
Bruce Reidel.
Impact of Sanctions
    Mr. Chairman, we have discussed in earlier hearings the sanctions 
that we are required by law to place against both India and Pakistan. 
For your convenience, I have brought with me a fact sheet on the 
sanctions that has been provided to the Committee previously. I ask 
your permission to include the fact sheet in the record of today,s 
proceedings.
    As you know, we are implementing these sanctions firmly and 
correctly. They will result in significant economic and political costs 
for both countries. That said, our purpose is not to punish for 
punishment's sake, but to influence the behavior of both governments. 
We do not wish for unnecessary harm to fall upon the civilian 
populations of either country--particularly the poor and less 
fortunate--or on U.S. businesses. For this reason, we are pleased that 
the Senate acted last week to correct an obvious unintended consequence 
of the sanctions law preventing the provision of credits for 
agricultural commodities.
    It is too early to quantify, Mr. Chairman, the effect that these 
sanctions will have on economic growth or business activity in either 
country. Even prior to the onset of the sanctions regime, however, both 
India and Pakistan had been encountering difficulties in their 
economies. In India, sluggish industrial production, high tariffs, 
oppressive bureaucratic red tape, infrastructure bottlenecks, massive 
subsidies and scarce funds for investment had all contributed to lower 
rates of economic growth and a serious decline in investor confidence. 
U.S. sanctions will amplify some of those trends.
    To date, we have not seen from Indian policymakers or commentators 
a serious recognition that these sanctions, much less the underlying 
structural inequities, require serious economic policy adjustments. The 
introduction of a rather lackluster budget by the government only weeks 
after the nuclear test took place underscores that point. We are 
concerned that these developments, which come in the midst of 
significant economic turmoil in Asia, will put at risk all of the 
important economic progress that India has made since the onset of 
liberalization.
    In Pakistan, the situation is even more complex and potentially of 
grave concern. Pakistan has been grappling for months with a 
significant balance of payments shortfall, and its economy suffers from 
similar, if more acute, structural deficiencies as India's. The 
Pakistani rupee has been under serious pressure--on Friday it plunged 
past the 60 per dollar threshold--and the stock market has been 
dropping steadily. Pakistan is particularly dependent upon external 
financing from the IMF and the multilateral development banks, and we 
are concerned that with dwindling foreign exchange reserves, Pakistan 
could soon begin defaulting on its international obligations.
    We are deeply troubled that Pakistan's leadership does not appear 
to be taking the necessary steps to deal with the country's difficult 
economic position. Not only has Pakistan been slow to implement tough 
economic reforms mandated by the IMF and ostensibly espoused by the 
Prime Minister, it has inexplicably acted to alienate the vanguard of 
the foreign investor community--the independent power producers. For 
months, and with what has been increasing intensity, the IPPs have been 
faced with what can only be described as a shake down effort by the 
government to conserve hard currency. Recently the government of 
Pakistan announced arbitrary termination of a number of the IPP 
contracts, calling into question its understanding of and commitment to 
a fundamental business principle: the sanctity of contracts. Pakistan 
can ill afford to act in such a way at this critical time.
Sanctions and Flexibility
    When we last met, Mr. Chairman, you, Senators Robb and Hagel and I 
discussed the effectiveness of the sanctions regime and whether the law 
permits the President sufficient flexibility to maximize his ability to 
influence events and behavior. That discussion, along with Thursday's 
debate on the Senate floor has put this question into sharp relief. To 
the extent that it is possible to discern a common thread among the 
various statements that have been made, it appears safe to say that 
both the Administration and the Congress share a desire to inject a 
greater degree of consistency, flexibility and effectiveness into the 
sanctions regimes against India and Pakistan, and indeed, our entire 
approach to sanctions in general. That is a very welcome development, 
and it is absolutely vital that we build upon this very strong 
foundation to effect the requisite changes in our policy and in our 
laws.
    In the Department of State, Under Secretaries Stuart Eizenstat and 
John Holum have the lead responsibility for our sanctions policy. They 
have both articulated to the Congress a number of principles and 
objectives that we seek for the various sanctions regimes that are 
already in place, and for future instances where sanctions may be 
needed. If you will permit me, Mr. Chairman, I would like to address 
briefly some of the issues that apply specifically to the sanctions 
against India and Pakistan. First, let me be clear that we have already 
laid out a number of objectives that we seek in implementing the 
sanctions. We have consistently articulated these objectives in our 
meetings with the Indians and the Pakistanis, in previous testimony to 
the Congress, and in our bilateral and multilateral exchanges with 
others. By no accident, they reflect the objectives--some shorter term, 
others longer term--that were spelled out in the communiques adopted in 
the recent meetings of the P-5 in Geneva and the G-8 in London and in 
U.N. Security Council Resolution 1172. To reiterate, we have 
established that we want to see both governments do the following: 
conduct no further nuclear tests; sign and ratify the Comprehensive 
Test Ban Treaty immediately and without conditions; refrain from 
deploying nuclear weapons or missile systems; halt the production of 
fissile material for nuclear weapons; participate constructively in 
negotiations towards a fissile material cut-off treaty; formalize 
existing policies not to export weapons of mass destruction and missile 
technology or equipment; and resume direct dialogue to address the root 
causes of tension between them, including Kashmir.
    Again, Mr. Chairman, these are steps we want to see both 
governments take. They are not demands. We fully recognize that New 
Delhi and Islamabad will have to assess them in light of their own 
national security requirements. At the same time, we believe these 
steps cover the full range of what will be necessary to make real 
progress in South Asia. We will need to engage with both governments to 
explore fully how best to pursue each of these objectives, in the 
shortest possible timeframes. It is clear that we will need greater 
flexibility than the law currently allows to tailor our approach, 
influence events, and respond to developments.
    In this regard, Mr. Chairman, we seek waiver authority for all of 
the sanctions currently in place against India and Pakistan. Of course, 
we would not utilize that authority until such time as substantial 
progress has been achieved on the objectives outlined above, or in the 
event that there were a serious negative and unintended consequence to 
a specific sanction--such as impending financial collapse leading to 
economic chaos and political instability. We also would like additional 
flexibility to guard against an overwhelmingly disproportionate effect 
of the sanctions on one country versus another; ideally, the sanctions 
should have roughly the same effect on India as they do on Pakistan.
    That said, we do not believe it would be advisable, nor could we 
support efforts to codify or legislate the steps that India and 
Pakistan would need to take in order to gain relief from sanctions, or 
to match specific actions by India or Pakistan to the lifting of 
particular sanctions. While I believe there is substantial agreement 
between the Administration and the Congress on the objectives, it would 
tremendously complicate our efforts to bring about change if we were 
bound by a series of benchmarks in law. Our experience with India and 
Pakistan tells us that neither would respond well to such an approach. 
We believe the steps we are encouraging them to take are in their own 
national interests, and we hope they will share this view. But writing 
such steps into law would create the impression that India and Pakistan 
would be acting under pressure and simply to ensure the lifting of U.S. 
sanctions. This would greatly constrain our chances of achieving the 
outcomes we seek.
Conclusion
    If I may leave you with one thought, Mr. Chairman, it is the 
conviction that our discussion of these matters should not leave India 
and Pakistan with the impression that a lifting of sanctions is 
imminent. Affirmative, positive steps will be necessary by both parties 
if sanctions are to be lifted and our relationship restored to where it 
had been heading prior to the events of May--including the Presidential 
visit later this year. The sanctions have been imposed for specific 
purposes, and India and Pakistan are well aware of them. As I have 
already mentioned, the Administration does not plan to ask for easing 
sanctions unless India and Pakistan have achieved significant progress 
in meeting our non-proliferation objectives. That said, it seems we 
have a rare opportunity to have a serious discussion and adopt some 
changes in law and policy. These will better serve our own national 
interests, and better position us to deal effectively with both India 
and Pakistan on the critical issues that are at stake.
    Thank you, Mr. Chairman, and I look forward to your questions.

    Senator Brownback. Thank you, Mr. Inderfurth. Do you have 
anything to add, Mr. Einhorn?
    Mr. Einhorn. I do not, Mr. Chairman.
    Senator Brownback. You are just available to answer 
questions?
    Mr. Einhorn. That is correct.
    Senator Brownback. Let us run the time clock and go back 
and forth. Let me start with a point that you made at the end, 
Secretary Inderfurth, on the President's visit to the region. 
Is that still under review, or do I hear you to say it is on 
now? Could you clarify that statement?
    Mr. Inderfurth. Mr. Chairman, that is very much the case. 
It is under review. It is being considered. We do believe that 
we will have to see progress on many of the steps we have 
outlined here for that trip to take place.
    In our discussions with both Indian and Pakistani officials 
we have made it clear that while the President was greatly 
looking forward to his visit to South Asia in November, that 
under present circumstances that visit will be on hold until we 
see progress in the direction we are discussing.
    Senator Brownback. So you do not have a timeframe set for 
deciding whether or not to go ahead with that trip. It is more 
set on how the negotiations proceed forward with the Indians 
and the Pakistanis?
    Mr. Inderfurth. Precisely.
    Senator Brownback. You asked for waiver authority for all 
sanctions in the region, and I guess basically what you are 
saying is, you would seek the broad authority to negotiate as 
you see best in moving the relationship on forward, and I take 
it from your statements as well you will be putting forward 
suggestions or measurements that you would seek from the 
Indians or the Pakistanis before you would actually then go 
ahead and waive the particular sanction.
    Is that a correct interpretation? You are not just asking 
for it to waive it and then you will waive all authority. You 
are going to be making that as part of the negotiation.
    Mr. Inderfurth. What we are seeking, Mr. Chairman, is 
waiver authority, and it is of all of the legislative 
restrictions that we face right now with India and Pakistan, 
not only the Glenn amendment but also Pressler and Symington. 
We believe we need that full authority.
    What we have done with India and Pakistan have been to lay 
out the objectives we are seeking, the steps we would like to 
see them take. We fully recognize that some of these are 
shorter term, some of these are longer term objectives. Nothing 
is expected that they would all be done at one step. We think 
that significant progress would be forthcoming, would allow us 
to exercise that waiver authority, but we would not move 
forward until we had substantial evidence of that progress, and 
in consultation with Congress.
    We are not looking to have waiver authority which would 
then eliminate our desire and indeed our perceived requirement 
to come to Congress to discuss this with you and see what the 
views are.
    Senator Brownback. Can you share any more publicly than you 
have in your statement of what you are looking for of progress 
to be made by India and Pakistan in this area of nuclear 
nonproliferation? Last time you were in front of us you made a 
number of statements of things you were seeking. This time you 
were more circumspect about what you were seeking. Can you be 
any more specific about what you are actually seeking from them 
that you have not already stated publicly?
    Mr. Inderfurth. Mr. Chairman, there are really two parts to 
what we are seeking. One is on the nonproliferation side, and 
the other is on the political dialog side. Let me address the 
political dialog side and then ask Mr. Einhorn to discuss the 
nonproliferation side.
    On political dialog, we are fully aware that we are in this 
fix today, because of the security concerns both countries 
have. For India, the concerns go beyond Pakistan. They include 
others in the region, including China. Those security concerns 
have driven these countries in the direction they have gone, 
and to take actions that have run up against our 
nonproliferation policies and, indeed, the global 
nonproliferation regime, so those security concerns by the 
countries have to be met.
    That is why we want to see them enter into a serious 
dialog, and that is why I mentioned at the beginning of my 
statement the hope we have that when Prime Minister Vajpayee 
and Prime Minister Sharif meet in Colombo this month at the 
SARC summit, that they will begin that kind of negotiation, 
that kind of discussion, that kind of dialog which will lead 
them to address their concerns with each other.
    Now, that will not resolve the entire security concerns of 
the region and, indeed, of Asia itself, but it will address the 
principal concerns between the two of them and hopefully will 
lead them in a direction to resolve that 50-year-old conflict 
of Kashmir, which is, as we state, one of the root causes for 
the problems that we face.
    So we will be encouraging dialog and, in fact, the 
scheduled meeting is, we believe, a step in that direction, and 
we very much support it and welcome it.
    On the nonproliferation side, I think Mr. Einhorn can give 
you a fuller description of those kinds of steps we are 
seeking.
    Mr. Einhorn. Mr. Chairman, we have tried to be both 
consistent and transparent about our nonproliferation 
objectives.
    In Assistant Secretary Inderfurth's testimony he mentioned 
a number of them: no more nuclear testing, adherence to the 
comprehensive test ban treaty without conditions, enter into 
negotiations on a fissile material cut- off treaty, refrain 
from producing fissile material pending completion of the 
negotiations, no deployment of nuclear weapons or missile 
delivery systems, formalizing existing policies of restraint in 
the area of export controls.
    So these are some of our critical benchmarks, and these 
benchmarks are not just American benchmarks, American 
objectives. They are formalized in the communique of the P-5 
members, the permanent members of the Security Council, by the 
G-8 group of industrialized States and, in terms of 
international standing, most importantly, by U.N. Security 
Council Resolution 1172.
    Those are precisely the objectives we have put both to 
Indian and Pakistani officials.
    Senator Brownback. And those are ones you have publicly 
stated for some time.
    While my time continues on this round, I want to make sure 
on Pressler and Symington toward Pakistan are you seeking 
waiver authority or removal, elimination of those altogether?
    Mr. Inderfurth. I think at this stage we are seeking waiver 
authority. We would want to have the same authority with 
respect to them as we do with the Glenn amendment.
    Senator Brownback. And so that if those were actually 
eliminated, the administration would not have a problem with 
doing that on Pressler and Symington, to put us in an equal 
position regarding India and Pakistan?
    Mr. Inderfurth. I think putting us in an equal position is 
a good idea. I would like to actually consult and get back to 
you on precisely how our legislative affairs people look at 
that issue.
    Senator Brownback. OK. I look forward to another round 
here. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    Secretary Inderfurth, one of the matters we discussed 
briefly just before the hearing started had to do with the 
pending World Bank and international lending institution 
actions and the possibility of default.
    I think you know that both the chairman and myself are 
prepared to support some action in this area in the near term 
to address the question of the kind of consequences that would 
flow from default. Would you like to say anything for the 
record on that particular point before I go on to other matters 
of concern?
    Mr. Inderfurth. Senator Robb, I would only like to 
reiterate what I had said in my testimony, that Pakistan is 
particularly dependent upon external financing from the IMF and 
the multilateral development banks, and we are very concerned, 
with the dwindling foreign exchange reserves, that Pakistan 
could soon begin defaulting on its international obligations, 
and that could lead to economic consequences in Pakistan that 
we do not want to see, nor are they intended by these 
sanctions.
    This is an urgent matter. It is one we will want to be 
discussing with the two of you and others, how we respond to 
it, but it is of concern, because economic instability can also 
lead to political instability, and in fact all of that would 
run counter to our efforts that are underway now to engage the 
Government of Pakistan to pursue the kind of steps on 
nonproliferation and political dialog that are important.
    I should also add, by the way--I feel quite confident this 
is not something that India would want to see, either--India 
does not want to have a neighbor who is going through economic 
collapse. We have said consistently that a Pakistan that is 
stable, democratic, and prosperous is in the interests of the 
region and of India, and Prime Minister Vajpayee agrees with 
that.
    Senator Robb. And indeed reiterated that during our visit.
    Mr. Inderfurth. It is clear that that is their view. For 
that reason, I think that our concerns expressed here today, 
and I know we will be pursuing further with both of you, are 
ones that not only the will be considered by the G-7, but also 
by those in the region.
    Senator Robb. Well, to the extent that the chairman and I 
reflect the thinking of other colleagues, and I certainly 
underscore our own thinking in that particular area, the 
concerns you have articulated and the possible consequences 
that flow from them are shared, and we stand ready to assist in 
the near term.
    Let me ask about one of them questions that did not come up 
in your list of issues that have been stated again with respect 
to where you would like to see cooperation. Missile testing was 
not on that list and, indeed, we were unable to elicit any 
expressions of interest in making commitments along those lines 
during the time that we spent with the leaders of those two 
countries. Would you like to comment at all on that matter, or 
maybe I should say, would you comment at all on that matter?
    Mr. Inderfurth. I would, and I would also like Mr. Einhorn 
to do it as well.
    I would only preface what Mr. Einhorn will say. We must be 
realistic about what we are asking the two countries to do. 
There are things we believe that they can do because they will 
determine that these are in their own national security 
interest.
    We believe that, in fact, although we condemned and we are 
deeply disappointed by the fact that they conducted nuclear 
tests in May, we believe that hopefully those tests will allow 
them now to take some actions to become part of the 
international community on nonproliferation concerns that 
perhaps they might not have felt able to before those tests. 
That is an optimistic assessment.
    At the same time, we have had discussions with officials 
there, as you both did in New Delhi and Islamabad, and I think 
they have been candid with us in terms of what they can and 
cannot do, what their plans are, what they may be able to agree 
to down the road. And I think certain forms of development 
programs will be going ahead, and I think we have to be 
realistic about that and be keeping our eye on what is the end 
result and where we are in terms of stability.
    Senator Robb. Indeed, in that regard I think it is fair to 
say the international community has begun to express itself on 
that score, and the support for a lack of progress on our part 
would put us on the opposite side of that question with most of 
the members of the international community, would it not?
    Mr. Inderfurth. I am not sure I exactly understand the 
point, Senator.
    Senator Robb. Well, in other words there has been an 
erosion in support for any withholding of U.N. Or U.S. Approval 
in this arena, and it seems to me we are being somewhat--or 
undergo the risk of being isolated in terms of how we approach 
that particular question.
    I am not suggesting we should not stand alone in some cases 
and, indeed, we do, but this is an area where it seems to me 
public comments by other principal participants have not been 
consistent with what our current position is, and that is one 
of the reasons I was suggesting that we are prepared to work 
with you. If you do not want to debate that particular topic, I 
am not asking you to do so.
    Mr. Inderfurth. In terms of the international support for 
where we are going, I think the international community is 
holding together very well and in fact Mr. Einhorn attended 
meetings last week before joining us in Frankfurt, in Paris of 
the P-5 and London of the G-8.
    I think there is an international consensus holding 
together on the steps we would like to see both countries take. 
But again, I think that we do have to look at the steps that we 
have enunciated, of the 13 items that are found in the P-5 
communique, for example, look at those in terms of our shorter 
term objectives, longer term, and see how we could go about 
achieving those.
    Mr. Einhorn. Senator Robb, in your specific question about 
flight testing in the current situation, rather unsettled 
situation, many members of the international community believe 
that missile flight testing could be provocative, and that is 
why both in the P-5 and in the G-8 and in the Security Council 
resolutions they called for both countries to refrain from 
flight testing.
    In our view, an extended moratorium, an extended period of 
restraint would be a good idea to help a cooling off that is 
necessary. In the long term, we have placed a principal 
importance on a commitment not to deploy either nuclear weapons 
or missiles, and we want to be able to discuss that kind of a 
constraint with the Indians and Pakistanis and believe that in 
the long term that would be stabilizing.
    Senator Robb. Thank you. My time on this round has expired.
    Senator Brownback. We will be back another round here.
    I want to look at a statement in particular. Secretary 
Inderfurth, you put forward that India has security concerns 
beyond Pakistan. While Senator Robb and I were there meeting 
with Indian officials from the prime minister to the defense 
minister, foreign ministry section, they were all pointing to 
China as who they were concerned about, and this is at the time 
that the President was on his summit to China.
    The statement was made while we were there that China 
should be involved in somehow mediating the dispute in South 
Asia. That was not well-received in India, and the 
administration later clarified that statement.
    But Senator Robb and I both got an earful from Indian 
officials about, not pleased with this situation, and they had 
I thought a very good point that they were laying out, which 
was toward their own security concerns that they have in South 
Asia relative to China that is growing substantially 
economically, growing substantially militarily, and is 
supplying technology, then, to Pakistan, of what has been 
reported of missile and other technology to Pakistan that is on 
the other side of India.
    I wanted to give you a chance to address that issue, 
because I do not know how you have a dialog in South Asia on 
security without involving China and not as a mediator in this 
particular situation.
    Would you care to respond to that, and I want to followup 
with some specific points that have been raised.
    Mr. Inderfurth. Mr. Chairman, we have received the same 
earful that you did when you were on your trip, and in fact 
Deputy Secretary Strobe Talbott, in an interview with The 
Hindu, one of the leading Indian newspapers, tried to address 
what we believe was a misunderstanding about the discussions 
and the dialog that took place at the U.S.-China summit. We do 
not believe, nor have we stated, that China should serve as a 
mediator in South Asian security issues.
    What we have said is that China needs to be involved in a 
positive fashion in addressing the security concerns in South 
Asia. We fully understand India's views with respect to China. 
We understand the history of that. That goes back to their 
border conflict in 1962, and therefore we have been discussing 
with the Chinese ways that they can take positive steps.
    Now, I want to remind you that in the P-5 communique issued 
in Geneva, that we sought and, indeed, received a strong 
Chinese commitment, and I will quote from the communique, to 
prevent the export of equipment, materials, or technology that 
could in any way assist programs in India or Pakistan for 
nuclear weapons or for ballistic missiles capable of delivering 
such weapons. That was included in the P-5 communique.
    This pledge was further strengthened in the joint statement 
that we issued in Beijing by reiterating in the context of 
U.S.-China bilateral relations, and by having the Chinese agree 
to that end to strengthen their national export control 
regimes. The Chinese also agreed to move toward joining the 
missile technology control regime, and we believe that that is 
a significant step forward, and it gives us more confidence 
that China will play a positive, constructive role here.
    There was a second objective beyond strengthening those 
export control commitments. A second objective was to urge 
China to engage with India bilaterally, just as we are. This 
was something that the President stressed in his meetings with 
President Jiang Zemin.
    This was something that Secretary Albright focused on, and 
in meetings at all levels we encouraged China to have the kind 
of dialog with India to discuss security concerns and the 
threats that are perceived by either side, so we believe that 
they must deal with this directly.
    Senator Brownback. What assurances did you receive from the 
Chinese Government, or did the administration, that they would 
engage bilaterally with India on security concerns?
    Mr. Inderfurth. They listened very carefully to what we had 
to say. They actually have made the point that they thought 
they were in the process of doing that.
    As you know, in 1996 President Jiang Zemin visited New 
Delhi, and it was a sign of what we considered to be warming 
relations between India and China and, indeed, just before the 
Indian nuclear tests, the Chinese Army chief of staff had been 
in New Delhi.
    They intend to continue that dialog, and we intend to 
continue encouraging them to have as frank and as full 
discussions, in diplomatese, that they can with India to allay 
the concerns, many of which you heard on your trip, and I 
understand that you had a long discussion with Defense Minister 
Fernandes on this issue.
    So we want to see that go forward, but Mr. Einhorn has also 
been dealing directly with the Chinese on this issue, so I 
would like for him to speak for a moment.
    Senator Brownback. Specifically, Mr. Einhorn, have we 
received any assurances from the Chinese that they are going to 
start addressing the bilateral security concerns between China 
and India?
    Mr. Einhorn. The Chinese believe that relations between 
China and India were improving, and have been improving for the 
last few years, and so the Chinese were disturbed by some of 
the justifications given by India for carrying out the tests.
    In other words, one of the justifications was that there 
was a China threat, or a threat of Chinese encirclement that 
compelled India to take these steps. The Chinese have said that 
this was very disturbing to hear, especially in light of their 
judgment that relations have been improving.
    I think as a result of this, relations right now are not at 
a very good state. I think high level discussions between China 
and India are not going forward, but it is recognized by China 
that this will have to be overcome. Present difficulties will 
have to be overcome. The two will have to sit down bilaterally 
and talk about some of their differences.
    So I think there is a recognition, and it has been conveyed 
to us, that sooner or later China and India will need to talk 
about some of the problems that divide them.
    Senator Brownback. I think it is an imperative. I do not 
see how you get at the security situation in South Asia without 
having that discussion move aggressively forward, and if I were 
sitting in the Indian leadership position--a number of points 
they were making sounded quite rational when you look at a 
growing threat next to your border, when you look at supplying 
of technology to a country that has engaged in three wars, that 
you have been engaged in three wars in 50 years, and a growing 
rapprochement between the United States and China that they 
were pointing to.
    They asked a question, and it was good and it was very 
difficult to respond to. They said, now, why is it the United 
States is building so strong a relationship with China, that is 
a dictatorship, or a totalitarian regime, however you want to 
rephrase it, that has the human rights issues that we have 
raised with China, that has weapons proliferation issues that 
we have raised with China, that we have concerns about Tibet, 
what is taking place, and then we look at India, and we put a 
set of sanctions that were legislated in but prior to that 
period of time had not really engaged with them aggressively on 
a rapprochement with them, when they are a democracy, do not 
have the weapons proliferation issues that have been posed or 
have been documented with China, do not have a number of the 
disputes that we have with the Chinese?
    They failed to understand our position relative to China 
when it comes to then. I thought they had some pretty good 
points they were making.
    Mr. Einhorn. Well, of course, we have had deep differences 
with China, and we continue to have some very serious 
differences with China. We have begun to overcome those 
differences, including in the area of nonproliferation, and 
that has enabled us to improve our relationship with China.
    Hopefully the same thing will happen with India. We now 
have a difficult time. We have these sanctions imposed, but 
hopefully over time we will be able to overcome these as well.
    Senator Brownback. I think we need to, and I think that 
China has to be engaged in this dialog and this discussion as 
well for us to move forward on a longer term basis.
    We are mostly focused here today on the sanctions relative 
to India and Pakistan, and that is as it should be because that 
is where our legislative action will be most focused, but I do 
think in looking down the road to the future you have to engage 
this broader issue to bring security and stability to the 
region.
    Mr. Inderfurth. Mr. Chairman, may I just add one point?
    We fully recognize the distinctions between the political 
systems of India and China. We fully recognize the democratic 
traditions of India and indeed, as you will remember in my 
previous testimony, that has been one of the major reasons why 
we have felt that the President's decision to have greater 
engagement with India was going forward.
    In fact, had there not been Indian elections when they 
were, the President's trip to India would have come earlier in 
the year, not, as it was then scheduled, for November.
    As the other great giant of Asia, we see India with great 
potential. We see India as a democracy we want to engage, and 
that has been the signals we have been sending in terms of 
economic engagement.
    The fact that China began economic liberalization much 
earlier during the period of Deng Xiaoping in the late 1970's 
has given us a greater degree of activity with China than we 
have had with India, which only began its economic reforms in 
1991. We see great potential there, and we certainly want to 
build on our democratic traditions.
    So I understand the points that have been made to you, and 
they have been made to us, but in terms of sanctions the law 
was the law. The Glenn amendment was on the books and we have 
been forced, under those conditions, to impose sanctions. Now 
we are looking for a way to find some way to move forward.
    Senator Brownback. Beyond that, we have a lot more to do in 
our relationships within the region, and we have to be 
involved.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. As I recall, India's 
Defense Minister Fernandez told us that they had had one 
meeting, I believe, of the bilateral working group, although it 
was at a lower level, with respect to whatever potential 
progress might come in that particular area.
    Let me ask you a question that relates to the same kind of 
concerns that the chairman just mentioned with respect to the 
possible accomplishment of all or most of the criteria that we 
and the P-5 and the G-7 and G-8, et cetera, have laid down with 
respect to the kinds of areas where we want to achieve a great 
deal of progress.
    Let us assume that we make substantial progress in that 
area. One of the concerns that have been raised is to the 
disparity in the way we treat or deal with China and India with 
respect to the sale of component parts, or any other matters 
that would enhance a more mature nuclear relationship.
    Could you comment on the possibility of the development 
with both India and Pakistan--and I happen to believe we ought 
to try to achieve as much parallelism as possible in our 
dealing with both countries, but with respect to U.S. Policy 
toward the sale of component parts to India and Pakistan on the 
same general basis that we do today to China?
    Mr. Einhorn. On this, Senator Robb, there is a distinction 
in terms of our own domestic law and in terms of our 
multilateral export control policy between our treatment of 
India and China. The difference is this. China is a nuclear 
weapons State, as recognized under the terms of the 
nonproliferation treaty.
    Senator Robb. I am acknowledging there is a difference in 
law today. I am asking, would we consider, in effect, for the 
purposes of that particular type of transaction treating India 
and Pakistan in effect as a de facto nuclear State, even though 
we would not bring them into the NPT?
    Mr. Einhorn. The problem in doing that, Senator Robb, is 
that if India and Pakistan were to achieve this new status in 
terms of our law, in terms of their eligibility for nuclear 
cooperation with us by conducting nuclear tests, we would have 
to ask what kind of a precedent are we establishing for others 
who are considered nonnuclear weapons States under the NPT? 
Would other States who are less trustworthy and are less 
friendly to us than India and Pakistan see a path ahead of them 
that would enable them to conduct tests and declare their 
eligibility for nuclear cooperation, so it is a difficult 
problem.
    Senator Robb. There is no question the precedent becomes a 
difficult problem, but of course we have a problem right now 
with respect to both India and Pakistan, notwithstanding the 
sanctions that were on the books already and our subsequent 
reaction not only with respect to our own domestic concerns but 
our long term concerns about stability in the region and 
economic prosperity, et cetera.
    Let me move at this point, if I may, to--well, before we 
leave the nuclear area, let me raise again the question of the 
reliability of the command and control systems and any 
discussions that are taking place today to reassure both 
countries that the kinds of warnings, et cetera, that would be 
available are being developed.
    Maybe the way to discuss the issue would be to ask how you 
would describe the State of their respective systems today, and 
what progress is being discussed in terms of mutual assurance 
with respect to accidental or unintended consequences that 
might trigger a much more serious reaction.
    Mr. Einhorn. Today we do not believe that either India or 
Pakistan has deployed nuclear weapons, or has deployed 
ballistic missiles. We hope that will continue to be the case 
and, if it is, I think some of the instabilities that might 
result could be avoided at the same time.
    Senator Robb. Would you take at face value--and these are 
all in the public arena. I am referring to claims by either or 
both countries that they do, in fact, have a weaponized version 
that is capable of delivery by some means.
    Mr. Einhorn. Well, I do not know at what state each of 
these countries may be in terms of weaponization. Weaponization 
is a process, a lengthy process of adapting certain devices to 
delivery systems, and it is hard to judge where they stand, but 
I think the key threshold is deployment.
    We do not believe the systems or these weapons are 
deployed, and what we would like to do is to encourage both 
Governments to consider various types of confidence-building 
measures so that they could avoid inadvertent flash points, 
inadvertent instabilities, and to ensure that the relationship 
between them will be stable.
    We have various ideas in mind on how to contribute to 
stabilizing the situation in South Asia. Crisis communications, 
more frequent and reliable use of crisis communications would 
be one idea, the various constraints, prenotifications of 
certain kinds of military movements.
    India and Pakistan have adopted such confidence-building 
measures in the past, but have not conscientiously implemented 
those. If they did implement them and adopt additional 
confidence-building measures, the situation would be 
significantly stabilized.
    We will encourage those CBM's, and we will do what we can 
to assist the parties.
    Mr. Inderfurth. Senator Robb, can I mention that, again, 
referring to the meeting in Colombo at the end of this month 
between the two prime ministers, we hope they will do certain 
things, including reaffirming the confidence-building measures 
they have already agreed to in the past. These include using 
the hot lines that have been established, the military hot 
lines as well as the hot line between the prime ministers. We 
would hope that they would begin to have a more frequent 
discussion between themselves on these issues.
    As you know, in recent days we have seen some very strange 
reporting, including the Pakistani defector that told reports 
about preemptive strikes being planned. Now, we made it very 
clear early on that we saw serious discrepancies in what he was 
saying, and I think that that story has now found its 
appropriate response in terms of how we view it.
    But there were also reports, prior to Pakistan's nuclear 
test, of possible Indian actions. That kind of thing is going 
to continue. There are going to be the stories out there that 
are going to cause one side or the other to be very nervous, 
and we think it is terribly important that they establish now 
that they have demonstrated the nuclear capabilities, establish 
firm and frequent and regular communications so that stories 
like this that come up can be addressed quickly so that they 
can be either confirmed or denied in a substantive way.
    Senator Robb. Let me move to another area where we have not 
had much discussion today, but it is frequently a centerpiece 
for discussions about disputes between India and Pakistan, and 
that is Kashmir.
    Senator Brownback and I went up to the line of control 
during our visit, and one of the things that impressed me and 
impressed both of us was the fact that more casualties by very 
substantial majority appear to be occurring to civilians than 
to military combatants.
    There are respective rules of engagement that appear to 
require both sides to shoot whenever they see somebody on the 
other side, but they seem to be so well-entrenched that there 
are not very many sightings of military combatants, and the 
only sightings are of civilian movements, even when without 
crossings, and that is a separate issue.
    So the concern about that continuing armed presence, and 
the fact that a disproportionate number of those on both sides 
of the line that are being subjected to casualties are not the 
principal combatants, but the more fundamental question, given 
India's very clear reluctance to have any outside mediation or 
third party participation in discussion of Kashmir, and 
Pakistan's desire, believing, I think, that a different result 
might obtain with international participation, what kind of 
leverage, or what kind of potential positive impact can we or 
the international community bring to bear on resolution of some 
of the questions that go to Kashmir specifically?
    Mr. Inderfurth. Senator Robb, we believe that international 
attention, not international mediation, is the correct approach 
to take right now with respect to Kashmir. It is clear that the 
Kashmir dispute is not going to go away of its own will. The 
two parties themselves have to address it. Civilians are 
frequently in the line of fire.
    There is no question at all that the two prime ministers 
must establish some mechanism to resolve this issue over time. 
International attention is probably the greatest, right now, 
for Kashmir as a result of the nuclear tests in a very long 
time. Newspaper articles, statements by the P-5, statements by 
the Security Council in New York--the resolution was the first 
time since 1965 that Kashmir has been mentioned, and statements 
by the G-8.
    So we think that international attention is important. 
Offers of assistance by the international community, including 
by the United States, for confidence-building measures would be 
important, certain monitoring could be done.
    We do believe that the Simla Agreement of 1972 is the 
approach that must be taken, which is calling for them to 
resolve this issue bilaterally, but they have been close in the 
past to taking certain steps, including on the Siachin Glacier, 
and that is probably the most strategically unimportant piece 
of territory in the world. There is no reason they need to have 
a dispute over it, but it has been caught up.
    Senator Robb. And for which a higher cost is paid by both 
sides to continue it.
    Mr. Inderfurth. Exactly. So they were close to an agreement 
there. They should look at that and take a step that would 
reassure the international community that they are together 
moving forward to resolve this.
    So we hope that India will be more receptive to the calls 
of the international community, and we also hope that Pakistan 
does not consider that, because there is this attention, that 
the international community can solve it for Pakistan. We 
cannot do that. We cannot impose a settlement.
    So let us see how they progress in July, but I think right 
now international attention is the correct approach.
    Senator Robb. Thank you, Mr. Chairman. My time for this 
round has expired.
    Senator Brownback. Thanks.
    Mr. Einhorn, I want to look at the missile proliferation 
issue in the region, particularly relative to Pakistan, because 
that may be the next shoe that drops on further missile 
testing.
    The Clinton administration put sanctions on China for 
missile proliferation to Pakistan. Those were done in August 
1993 and November 1994, and then just this year, on June 11 of 
1998 in this committee Gordon Ailers, former Director of the 
CIA Nonproliferation Center, testified that the Chinese in 
November 1992 had delivered 34 M-11's to Pakistan.
    I think that we have widely looked at comments made, but 
there still have not been issues regarding the category I set 
of sanctions looked at, but beyond that issue--and I want to 
leave that really for another day--do we have information that 
China continues, China or any of its companies or entities, and 
I want to be very broad on this question, continues to supply 
missile-related equipment and/or technology to Pakistan?
    Mr. Einhorn. I have not seen recent intelligence on this, 
having a bearing on this issue, but we do believe that China 
has certainly until recently continued to be supportive of 
Pakistani missile programs through provision of components 
technology.
    China committed not to transfer finished missiles, complete 
missiles. They committed not to do this in October 1994, and 
since then we have no evidence that China has transferred 
missiles, but since that date we do have information regarding 
China's provision of components and technology which is 
disturbing.
    Senator Brownback. And those, I would take it we have sent 
a very strong signal to the Chinese Government that we do not 
agree with that continuing to take place, and continuing to ask 
that it be stopped immediately.
    Mr. Einhorn. We have, Mr. Chairman. This has been a 
continuing source of disagreement between us and China.
    Senator Brownback. But we do not know of resolution yet 
regarding the Chinese shipment of these missile, either 
technology or component parts to Pakistan?
    Mr. Einhorn. We believe this has become less of a problem 
than it previously was, but we do not believe this has been 
resolved.
    Senator Brownback. As would perhaps be obvious by my asking 
these questions and the previous round, I think that we have to 
get those sorts of issues resolved, and that one cannot look 
past the role of China in this dispute and particularly if this 
continues to take place, and I do not advocate that we limit 
our relationship with China, but these sorts of issues cannot 
be allowed to continue, given the predicament that South Asia 
is in presently, and I would hope that the Chinese Government 
would recognize that as well.
    Mr. Einhorn. Mr. Chairman, we have tried, as Assistant 
Secretary Inderfurth has pointed out, at the Beijing summit to 
make clear that China bears important responsibilities toward 
stability in South Asia.
    One responsibility is to make sure that its cooperation 
with Pakistan, and it is certainly legitimate for China to 
cooperate with Pakistan, is fully consistent with international 
nuclear and missile nonproliferation norms. That is number 1, 
and number 2, it bears a responsibility to engage with India, 
to deal with Indian concerns that China is threatening.
    A number of the statements that India has made about the 
China threat in our view have been exaggerated, but if that is 
the case, then China should be prepared to sit down with the 
Indians and explain why China believes that some of those 
statements are exaggerated, and to try to come to some 
understanding for the future. That is critical.
    Senator Brownback. I think it is critical, and it is also 
in some cases rational for the Indian Government to be making 
some of these assertions, given what actions they have seen 
taking place. Not all of the assertions--certainly not all of 
the assertions that Senator Robb and I heard while we were 
there meeting with the Indian officials.
    Yet when you have continued activity of the type we just 
discussed taking place, it adds credence to a much broader area 
of concern that should not be infiltrating the atmosphere, yet 
it does, so I think we have to step up our efforts that much 
more to make sure that those sorts of things are discontinued 
immediately to help create a much better atmosphere for 
security within that South Asian region.
    The only final comment that I would make is, I look forward 
to working with the administration on the legislative agenda of 
how we provide some waiver authority as I look down the road in 
dealing with this issue, and I am hopeful the Senate can take 
action this week on providing some waiver and some stepped 
authority.
    I do think that China has to aggressively be engaged in the 
security issues in this region, and it bears responsibility 
along the lines of what we have talked about. It is not just an 
India-Pakistan relationship that has brought us to the point 
that we are today.
    And I do not know if all the claims--well, I do not agree 
with all the claims that have been made by the Indian 
Government, nor by the Pakistani Government, but to the extent 
that any of those claims can be given credence by evidence that 
we know of, we have to deal with that piece of evidence that is 
there to bring a security atmosphere into the region that 
everyone can deal around.
    So I hope we can work constructively with the 
administration on the sanctions that we have in place, and 
getting the waivers toward India and Pakistan in the longer 
term. I think we need to work constructively together in 
dealing with the entire security situation in South Asia.
    With that, that is all I have.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. Let me just finish 
up, because I think we may, with all of our discussions about 
individual details, have missed--not missed, but have not 
focused appropriately on a very important part of Secretary 
Inderfurth's testimony.
    I am referring to the last two paragraphs before your 
conclusion. On the printed page, it is page 4. I am referring 
to the paragraph that begins, in this regard, Mr. Chairman, we 
seek waiver authority for all of the sanctions currently in 
place against India and Pakistan. Of course, we would not 
utilize that authority until such time as substantial progress 
has been achieved on the outlines above, or in the event that 
there were serious negative or unintended consequence to a 
specific sanction, such as impending financial collapse leading 
to economic chaos and political instability.
    I happen to support that essential approach to the 
question, but I think with all due respect my colleague and the 
chairman and, indeed, the bipartisan committee is coming up 
with a solution which would be more impacted by the paragraph 
that follows.
    You say that we do not believe it would be advisable, nor 
could we support efforts to codify or legislate the steps that 
India and Pakistan would need to take in order to gain relief 
from sanctions, or to match specific actions by India or 
Pakistan to the lifting of particular sanctions, et cetera.
    At this point, there are a variety of individual views by 
Members of Congress that were expressed on the floor in debate 
recently. There are some that do not want to have any change to 
the status quo at the moment, there are others that would like 
to see sanctions lifted in their entirety, and there are a 
number who would like to have some road map for the lifting of 
sanctions, and I know that the chairman has been working for a 
long period of time, and he and I have discussed the issue on a 
number of occasions, about having a set of specific objectives 
that would be achieved, and a concurrent relief that would be 
accorded based on that particular approach.
    It seems to me that the administration position is that 
anything that codified specific quid pro quo type actions would 
not be supported by, I guess is the way I should frame it, and 
I am wondering if it goes beyond that.
    Would the administration find anything that codified 
specific requirements for actions to be taken before some 
subsequent action would be taken in terms of lifting a sanction 
or sanctions sufficiently unacceptable that it would veto 
legislation that is designed with the purpose of providing 
additional assistance to the administration in dealing with 
this question, but does it in a way that might be overly 
proscriptive from the congressional point of view and less 
flexible form the administration point of view?
    Mr. Inderfurth. Senator, I do not want to at this stage 
start talking about vetoes.
    Senator Robb. I did not really mean to take it that far, 
but I am trying to highlight the difference that we are not 
really talking about at this point, and that I know that both 
the chairman in his consideration of the issue and the 
bipartisan group have considered and, indeed, was inherent, at 
least in part, in the section 3 of the matter that we took up 
recently, but to a lesser extent, and I am just trying to find 
out if there is room for compromise, if you will, between the 
two.
    Could you accept some proscriptive language in return for a 
very full relief in terms of the ability for the administration 
to grant waivers for all sanctions? Grab that hot potato and 
run with it, if you will.
    Mr. Inderfurth. I could preface it by saying I am not 
authorized by the administration to state exactly how we would 
respond to various Senate recommendations on this.
    Let me just try to tell you----
    Senator Robb. I did not mean to put you on the spot. I am 
just trying to get some sense of the difference.
    Mr. Inderfurth. I think I can help. I am engaged, as has 
been Mr. Einhorn, in the discussions we are having with both 
Indian and Pakistani officials, and it is clear, I think, that 
the administration and Congress are moving in the same 
direction in what we would like to see accomplished.
    What we would be concerned about is a road map that only 
gave us one route or one way to get there. We think that in the 
discussions we are having--and we believe they are serious, 
that there is an attempt by both Governments to discuss how we 
can meet our respective requirements, that we will have those 
discussions evolve and unfold in ways that we may not be able 
to foresee at this stage. Therefore, specific requirements or 
overly proscriptive language we think could complicate our 
efforts.
    I think that if we have guidance on where you would like to 
see us be, allowing us some flexibility on how we get there, 
with full consultation with you, I think that we can square 
this circle.
    I think that it is possible to move in that direction with 
you, but we would not want to see the benchmarks, as we have 
called those 13 items in the P-5 communique, in legislative 
language, because some may be accomplishable short-term, some 
may take a longer period of time, there may be other ways to 
accomplish some of the same objectives. And so we are 
concerned, as I state very clearly in my statement, about 
trying to codify or place in legislative language specific quid 
pro quos, or this step or that step, not to mention the fact 
that it is our view that neither Government would respond well 
to that.
    They also have political constituencies to which they are 
responsive, and countries do not like to be dictated to. That 
is why I stated very clearly in my testimony, these are not 
demands. We are stating these as those steps which we believe 
are important to resolve our differences, and that they will 
have to be done in the context of their own national security 
requirements. We believe we can make that argument and, over 
time, we can persuade them that these things are in their 
interests.
    But again, if it is placed in legislative language it could 
prove to be more of a straitjacket for us than the kind of 
flexibility we think we need to discuss this with them.
    Senator Robb. These general concerns go to the question 
that I would refer to as face, and there is a question of face 
on both sides of the India-Pakistan divide, as well as other 
bilateral relationships, and there is face on the U.S. Side as 
well with regard to laying out or drawing the line in the sand, 
so to speak, I.e., the various amendments, and saying if you 
cross this line certain unfavorable consequences will flow from 
it, undesirable consequences, and then immediately suggesting 
we did not really mean it and, indeed, we want to change the 
ball game altogether, which is the dynamic that we are 
concerned with right now.
    Let me just ask you this. Do you think it is more likely 
that you will achieve a series of progress marks, and I do not 
want to go back to the 13 objectives, but a series of less than 
complete achievements, or is it more likely in this case that 
we will have some sort of a grand bargain, where virtually all 
of the matters can be negotiated and wrapped up in one package 
that would include ultimately the pay-off in terms of face, 
I.e. The President's visit to South Asia to wrap up an 
agreement that would reflect the concerns laid out by the P-5, 
the G-7, et cetera, and might be formally signed either in 
conjunction with such a visit or at least as a condition 
precedent to such a visit?
    Is that a more likely scenario, with the possibility of 
some interim relief to prevent imminent financial collapse or 
political instability that might be required, or is the more 
gradual progress with some incremental lifting of sanctions the 
more likely scenario?
    Mr. Inderfurth. Senator, quite frankly I do not want to 
pre-judge at this stage. We have had two rounds of discussion 
with Indian and Pakistani officials. As I said, we do believe 
there are serious discussions, but I would not want to pre- 
judge which of those two courses are most likely at this stage.
    We do think that progress is possible. We do believe that 
certain of those things which we would like to see done are 
ones that they very much agree should be done, but in terms of 
how much of these could be accomplished in one fell swoop with 
a grand bargain or whether it would be progressive, I do think 
we need a bit more time in discussions, and that is precisely 
why we will be following your itinerary shortly by departing 
for the region on Saturday, for both New Delhi and Islamabad, 
and we will be there for 2 days of discussions in both 
capitals.
    As we see this unfold, however, either in hearings or 
simply in office calls, we want to keep you informed on which 
of those two directions we think we are moving.
    Senator Robb. As you depart, as indicated by the chairman, 
you may have some additional advice, if not consent, by the 
Congress to take with you to put on the table.
    With that, Mr. Chairman, I thank you.
    Senator Brownback. And hopefully we will be able to have 
that to you, and I would also like to add my support to your 
statement about taking actions, specific actions to halt 
imminent financial collapse by the countries, which would seem 
to be most germane toward Pakistan.
    If the administration has the ability to do that, I think 
that would be wise to do. The financial situation there is not 
good, and we should not force them into a collapse type of 
situation. That would be very destabilizing, very harmful to 
our long-term relationship, and so any action that you can take 
in that regard I think would be wise and good, and certainly 
supported by this Senator.
    Thank you very much for joining us. Godspeed this weekend. 
The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee adjourned.]

                                    

      
</pre></body></html>
